<html>
<title> - PROTOCOL ON PERSISTENT ORGANIC POLLUTANTS (POPs) IMPLEMENTATION ACT</title>
<body><pre>[Senate Hearing 107-997]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-997

            PROTOCOL ON PERSISTENT ORGANIC POLLUTANTS (POPs)
                           IMPLEMENTATION ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

   S. 2118, A BILL TO AMEND THE TOXIC SUBSTANCES CONTROL ACT AND THE 
          FEDERAL INSECTICIDE, FUNGICIDE, AND RODENTICIDE ACT 
TO IMPLEMENT THE STOCKHOLM CONVENTION ON PERSISTENT ORGANIC POLLUTANTS 
AND THE PROTOCOL ON PERSISTENT ORGANIC POLLUTANTS TO THE CONVENTION ON 
                           LONG-RANGE TRANS-
                         BOUNDARY AIR POLLUTION

                               __________

                              MAY 14, 2002

                               __________

  Printed for the use of the Committee on Environment and Public Works



                                 ______

83-693              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 14, 2002
                           OPENING STATEMENTS

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    28

                               WITNESSES

Buccini, chair, Intergovernmental Negotiating Committee on POPS..    14
    Prepared statement...........................................    35
Burnam, Jeffry M., Deputy Assistant Secretary for Environment, 
  Bureau of Oceans and International Environmental and Scientific 
  Affairs, Department of State...................................     4
    Prepared statement...........................................    29
    Responses to additional questions from Senator Jeffords......    30
Johnson, Stephen L., Assistant Administrator, Office of 
  Prevention, Pesticides, and Toxic Substances, U.S. 
  Environmental Protection Agency................................     6
    Prepared statement...........................................    31
Muir, Warren, executive director, Commission on Life Sciences, 
  and executive director, Board on Agriculture and Natural 
  Resources, National Research Council...........................    12
    Prepared statement on behalf of Bruce Alberts................    33
    Response to additional question from Senator Jeffords........    35
Perry, Karen, deputy director, Environment and Health Programs, 
  Physicians for Social Responsibility...........................    21
    Prepared statement...........................................    53
    Responses to additional questions from:
        Senator Jeffords.........................................    61
        Senator Smith............................................    61
Walls, Michael, senior counsel, American Chemistry Council.......    19
    Prepared statement...........................................    49
Yeager, Brooks, Vice President for Global Threats, World Wildlife 
  Fund...........................................................    16
    Prepared statement...........................................    37

                          ADDITIONAL MATERIAL

Article, U.S. Ratification of POPs Treaty in Danger..............    56
Letters:
    American Chemistry Council...................................    53
    OCEANA.......................................................    86
    Physicians for Social Responsibility, Oceana, World Wildlife 
      Fund, U.S. PIRG............................................    58
    Physicians for Social Responsibility, Oceana, World Wildlife 
      Fund, U.S. PIRG, Sierra Club, American Oceans Campaign, 
      Center for International Environmental Law, Pesticide 
      Action Network North America, Friends of the Earth, League 
      of Conservation Voters, National Audubon Society, American 
      Rivers, The Ocean Conservancy, Earth Island Institute, 
      Circumpolar Conservation Union, Indigenous Environmental 
      Network, Alaska Community Action on Toxics, Silicon Valley 
      Toxics Coalition, Atlantic States Legal Foundation Inc., 
      Department of the Planet Earth, Protect All Children's 
      Environment, Cancer Action NY, Commonweal, Greenwatch Inc., 
      Pennsylvania Environmental Network, Air, Montana 
      Environmental Information Center, Anacostia Watershed 
      Society, Northwest Environmental Advocates, Bluewater 
      Network, Citizens for a Future New Hampshire, Michigan 
      Environmental Council, Friends of Casco Bay................    59
    State of Alaska, Office of the Governor......................    85
Map, Toxic Hot Spots............................................. 45-48
Publications:
    CropLife International, Creating Opportunities for 
      Sustainable Agriculture.................................... 66-84
    Interagency Collaborative Paper, Contaminants in Alaska: Is 
      America's Aractic At Risk?................................. 87-98
Statements:
    Alberts, Bruce, president, National Academy of Sciences......    33
    Vroom, Jay J., president, CropLife America...................    62
Text of bill:
    Protocol on Persistent Organic Pollutants (POPs) 
      Implementation Act.........................................99-194

 
  PROTOCOL ON PERSISTENT ORGANIC POLLUTANTS (POPs) IMPLEMENTATION ACT

                              ----------                              


                         TUESDAY, MAY 14, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
406, Senate Dirksen Building, Hon. James Jeffords (chairman of 
the committee) presiding.
    Present: Senator Jeffords.

OPENING STATEMENT Of HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning. We have had a little 
difficulty getting started on this hearing. I would like to 
thank our witnesses, several of whom flew from great distances 
twice to participate in today's hearing, and we appreciate 
that.
    I am sorry that we did not receive the consent required 
from the minority leader to proceed last Thursday. I know it 
meant a great deal of expense and inconvenience for several of 
you, and therefore I greatly appreciate your dedication for 
coming here today.
    This committee has an important task before it. Last May, 
the United States signed the Stockholm Convention on Persistent 
Organic Pollutants, otherwise known as the POPs Convention. The 
Senate now has two jobs--to pass this treaty, as well as the 
LRTAP POPs Protocol, and the Rotterdam Convention on Prior 
Informed Consent, and to pass corresponding implementing 
legislation. This committee must craft the implementing 
legislation that will allow the United States to domestically 
fulfill its obligations under these treaties. Passage of these 
treaties is not in dispute.
    After reviewing the Administration's implementing 
legislation, it seems the disagreement centers on whether we 
implement the POPs Convention in its entirety. The POPs 
Convention is a landmark agreement that has brought the 
international community together to protect human health and 
the environment. The initial goal of the convention is to 
phaseout the dirty dozen. These 12 pesticides and industrial 
chemicals and other POPs resist degradation. They are toxic to 
humans and also wildlife, and travel across international 
boundaries.
    Currently in the United States, registration for 9 of the 
12 POPs have been canceled, and the manufacture of PCBs have 
been banned. However, other countries still use these 
substances. They come back to us on our food, in our water, and 
through our air. These POPs create a circle of pollution 
requiring a global solution, and it is a solution that the 
United States has embraced. President Bush stated that the POPs 
Convention is an example of ``the way environmental policy 
should work.'' I agree with the President, and that is why I am 
perplexed by the Administration's POPs implementing proposal.
    In addition to eliminating the dirty dozen, the Convention 
provides process for the nomination, assessment and addition of 
future POPs. This is important to understand. The POPs 
Convention was not intended to be a static agreement. The 
United States made an international commitment to eliminate all 
current and future POPs. The adding mechanism, that is, a 
mechanism to add POPs beyond the dirty dozen, has never been 
disputed. In fact, LRTAP includes four additional POPs. Since 
LRTAP served as a precedent for the POPs Convention 
negotiation, it is reasonable to assume that the four POPs will 
be considered as next likely additions to the POPs Convention.
    Industry, environmentalists, public interest organizations 
and a bipartisan, bicameral group of congressional members have 
joined the Bush administration in supporting the swift 
Convention ratification of POPs. I expect to hear support for 
an adding mechanism from all of our witnesses at today's 
hearing.
    My legislation, the POPs Implementation Act of 202, mirrors 
the POPs Convention. Like the Administration's proposal 
introduced by Senator Smith, my bill seeks to amend TSCA and 
FIFRA, for example. Both bills provide EPA with the authority 
to prohibit the manufacture of POPs for export. However, only 
the legislation I have introduced takes the next step. It 
provides a process consistent with the POPs Convention for 
listing additional chemicals. The Administration proposal fails 
to include this mechanism.
    I am concerned about the omission of the adding mechanism 
and demonstrations of unwillingness to fulfill the U.S. 
commitment to the POPs Convention, and it would severely slow 
down any future attempt to eliminate toxics. The Administration 
is proposing that the United States once again take the easy 
way out with respect to our international environmental 
commitments. If we follow the Administration's example, we will 
be perceived by the international community as withdrawing from 
our commitments.
    I look forward to working with the Administration and my 
colleagues to pass legislation that completely implements the 
POPs Convention, as well as LRTAP and PIC. Otherwise, there 
will be lengthy delays in the addition of additional problems.
    Our first panel, first witness is Jeffry Burnam. Jeffry 
Burnam is Deputy Assistant Secretary for the Environment at the 
State Department. From 1981 to 2001, he served on the 
professional staff of the U.S. Senate, working on energy, 
environmental and forestry issues for Senator Lugar and for the 
Senate Committee on Agriculture, Nutrition and Forestry. From 
1979 to 1981, he was the Research Director of the House 
Republican Task Force on Government Regulation, and Legislative 
Assistant also to Congressman Mickey Edwards. Welcome back, Mr. 
Burnam.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Good morning. I would like to thank our witnesses, several of whom 
flew from great distances twice, to participate in today's hearing. I 
am sorry that we did not receive the consent required from the Minority 
Leader to proceed last Thursday. I know it meant a great deal of 
expense and inconvenience for several of you. Therefore, I greatly 
appreciate the dedication that has ensured your presence here today.
    This committee has an important task before it. Last May, the 
United States signed the Stockholm Convention on Persistent Organic 
Pollutants, otherwise known as the POPs Convention.
    The Senate now has two jobs: to pass this treaty, as well as the 
POPS Protocol to the Convention on Long-Range Transboundary Air 
Pollution (LRTAP), and the Rotterdam Convention on Prior Informed 
Consent (PIC); and to pass corresponding implementing legislation. This 
committee must craft the implementing legislation that will allow the 
U.S. to domestically fulfill its obligations under these treaties.
    Passage of these treaties is not in dispute. However, after 
reviewing the Administration's implementing legislation, it seems the 
disagreement centers on whether we implement the POPs Convention in its 
entirety.
    The POPs Convention is a landmark agreement that has brought the 
international community together to protect human health and the 
environment. The initial goal of the Convention is to phaseout the 
``dirty dozen.'' These 12 pesticides and industrial chemicals and other 
POPs resist degradation, are toxic to humans and wildlife, and travel 
across international boundaries.
    Currently in the United States, the registrations for 9 of the 12 
POPs have been canceled; and the manufacture of PCBs has been banned. 
However, other countries still use these substances.
    They come back to us on our food, in our water, and through our 
air.
    These POPs create a circle of pollution requiring a global 
solution. The POPs Convention provides this solution. And it is a 
solution that the United States has embraced. President Bush stated 
that the POPs Convention is an example of ``the way environmental 
policy should work.'' I agree with the President. That is why I am 
perplexed by the Administration's POPs implementing proposal.
    In addition to eliminating the ``dirty dozen,'' the Convention 
provides a process for the nomination, assessment, and addition of 
future POPs. This is important to understand. The POPs Convention was 
not intended to be a static agreement. The United States made an 
international commitment to eliminate all, current and future, POPs.
    The ``adding mechanism''--that is, a mechanism to add POPs beyond 
the ``dirty dozen''--has never been disputed. In fact, LRTAP includes 
four additional POPs. Since LRTAP served as the precedent for the POPs 
Convention negotiations, it is reasonable to assume that these four 
POPs will be considered as the next likely additions to the POPs 
Convention. Industry, environmentalists, public interest organizations, 
and a bipartisan, bicameral group of congressional members, have joined 
the Bush administration in supporting swift Convention ratification. I 
expect to hear support for an ``adding mechanism'' from all our 
witnesses in today's hearing.
    My legislation, the POPs Implementation Act of 2002 (S. 2118), 
mirrors the POPs Convention. Like the Administration's proposal 
introduced by Senator Smith, my bill seeks to amend the Toxic 
Substances Control Act (TSCA) and the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA). For example, both bills provide the 
Environmental Protection Agency with the authority to prohibit the 
manufacture of POPs for export.
    However, only the legislation I have introduced takes the next 
step. It provides a process, consistent with the POPs Convention, for 
listing additional chemicals. The Administration proposal fails to 
include this mechanism.
    I am concerned about the omission of the ``adding mechanism.'' It 
demonstrates an unwillingness by the Administration to fulfill the U.S. 
commitment to the POPs Convention. And it would severely slow down any 
future attempt to eliminate toxics.
    The Administration is proposing that the United States, once again, 
take the easy way out with respect to our international environmental 
commitments. If we follow the Administration's example, we will be 
perceived by the international community as withdrawing from our 
commitment.
    As a major producer of persistent, biological toxics, the United 
States has a responsibility to lead the world in eliminating known 
deadly pesticides and chemicals, as well as those yet to be 
manufactured.
    And we have a responsibility to our own citizens.
    Last week, I received a compelling letter from Alaskan Governor 
Tony Knowles. Polychlorinated biphenyls (PCBs), one of the 12 POPs, are 
not produced in Alaska. Yet, they are discovering low levels in the 
Arctic. Alaskan natives now fear the threat PCBs pose to their 
subsistence foods.
    Governor Knowles agrees with me; he is concerned about a lengthy 
administrative and legislative process for adding future POPs.
    I look forward to working with the Administration and my colleagues 
to pass legislation that completely implements the POPs Convention, as 
well as LRTAP and PIC.

 STATEMENT OF JEFFRY M. BURNAM, DEPUTY ASSISTANT SECRETARY FOR 
ENVIRONMENT, BUREAU OF OCEANS AND INTERNATIONAL, ENVIRONMENTAL 
          AND SCIENTIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Burnam. Thank you, Senator.
    I would like to thank the committee for inviting me here 
today to speak about three treaties--each of which the 
Administration supports. These treaties are the Stockholm 
Convention on Persistent Organic Pollutants, better known as 
the POPs Convention; the POPs Protocol to the Convention on the 
Long-Range Transboundary Air Pollution, known as the LRTAP POPs 
Protocol; and the Rotterdam Convention on Prior Informed 
Consent, known as PIC.
    With your permission, I have a written statement that I 
would like to submit for the record.
    Senator Jeffords. It will be accepted without objection. 
Thank you.
    Mr. Burnam. The Stockholm POPs Convention aims to protect 
human health and the environment from 12 chemicals that are of 
particular concern. They are of particular concern because they 
have four intrinsic characteristics. Namely, they are toxic, 
they have the potential to bio-accumulate, they are stable, and 
thus resistant to natural breakdown, and they can be 
transported over long distances. The POPs Convention has been 
submitted to the Senate for advice and consent, and the 
Administration looks forward to working with the Senate to help 
ensure its early ratification.
    POPs are capable of impacting human health and the 
environment far away from where they are released, including 
across national borders. POPs can have impacts in areas all 
over the United States, but have been a particular concern in 
Alaska and the Great Lakes region. I also understand, Senator, 
they are of concern in Lake Champlain as well, as you probably 
know. These chemicals have been linked to adverse human health 
effects. Those effects include cancer, damage to the nervous 
system, reproductive disorders, and disruption of the immune 
system.
    As you pointed out, Senator, these 12 chemicals are banned, 
severely restricted or controlled in the United States, but 
they are still used abroad in many places. Because they are 
capable of long-range transport, a global treaty to address 
their human health and environmental effects is needed, and was 
sought by the United States. You are fortunate, Senator 
Jeffords, to have in the room today many of the people who 
worked on this treaty, including my predecessor Brooks Yeager 
who did an outstanding job of completing its negotiation.
    I have been to a number of international meetings, and when 
the EU, the G-77 and the United States and what is known as the 
JUSSCANNZ nations (Japan, United States, Switzerland, Canada, 
Australia, Norway, and New Zealand) can agree on something, it 
is not a small matter. This, as you also know, is an 
outstanding example of industry and environmental cooperation. 
We have representatives from the organizations that worked on 
the treaty, as well as Mr. Buccini, who did an outstanding job, 
I understand, as chair.
    The POPs Convention addresses two types of pollutants--
intentionally produced POPs such as DDT or PCBs, and 
unintentionally produced POPs such as dioxins and furans. For 
intentionally produced POPs, the Stockholm POPs Convention 
prohibits their production and use. There are certain 
exemptions. The only general exemption is for the use of DDT 
for malaria control. However, the Convention does allow 
countries to seek a special exemption if they need to for 5 
years for certain uses that they might view as being essential. 
The Stockholm Convention bans trade in POPs among parties, 
except that parties may still import POPs for environmentally-
sound disposal. For unintentionally produced POPs, the POPs 
Convention requires countries to develop national action plans.
    Under the POPs Convention, parties must take appropriate 
measures to ensure that POPs wastes are managed in an 
environmentally sound manner. Recognizing the needs of 
developing countries in managing POPs, the POPs Convention 
includes a flexible system of financial and technical 
assistance, by which developed countries will help developing 
countries meet their POPs obligation.
    Finally, the Convention includes a science-based procedure 
to govern the inclusion of additional chemicals to the 
Convention, including a statement of the criteria that these 
chemicals must meet, and a list of various risk management 
factors. However, the United States does not yet know the 
manner in which the risk management factors involved will be 
weighed when applied to additional chemicals.
    The implementing legislation also permits the United States 
to become a party to two additional agreements. The first 
agreement, closely related to POPs, is the LRTAP Convention. 
This is a regional agreement negotiated under the auspices of 
the United Nations Economic Commission for Europe, which 
includes the United States, Canada, Europe and the former 
Soviet Republics. The other agreement is the Rotterdam 
Convention on Prior Informed Consent. The Rotterdam Convention 
stipulates that the export of certain especially hazardous 
chemicals can only take place with the prior informed consent 
of the importing country.
    Together, these three treaties address a number of chemical 
management problems faced by the international community. They 
enjoy broad support from the public, from environmental and 
industry organizations, and from many Members of Congress with 
whom we have been in contact. I would like to thank you, 
Senator Jeffords, as well as Senator Smith, for your firm 
support and keen interest in these treaties. All of these 
agreements benefit the health and welfare of citizens of the 
United States and people all over the world.
    Mr. Chairman, I would be pleased to answer any questions 
that you may have.
    Senator Jeffords. Thank you for an excellent statement.
    Our next witness is Stephen Johnson. Stephen Johnson is the 
Assistant Administrator for the Office of Prevention, 
Pesticides and Toxic Substances at the Environmental Protection 
Agency. OPPTS is responsible for implementing the Nation's 
pesticide, toxic substances and pollution prevention laws. Both 
of the domestic statutes that are implementing legislation 
seeks to amend would come under the jurisdiction of this 
Office.
    Mr. Johnson, thank you for your participating today, and 
please proceed.

   STATEMENT OF STEPHEN L. JOHNSON, ASSISTANT ADMINISTRATOR, 
 OFFICE OF PREVENTION, PESTICIDES, AND TOXIC SUBSTANCES, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Good morning, Mr. Chairman, and thank you very 
much for the opportunity and invitation to appear before you 
today.
    With your permission, I would like to submit my written 
testimony for the record.
    Senator Jeffords. Without objection, it is accepted.
    Mr. Johnson. Thank you.
    It is my privilege to represent the U.S. Environmental 
Protection Agency and to discuss the Administration's 
legislative proposal on three international environmental 
agreements. Let me first say that the Bush administration is 
firmly committed to working closely with all members of this 
committee and the U.S. Senate to ensure quick enactment of the 
implementing legislation and subsequent ratification and/or 
approval of these international agreements negotiated by the 
previous Administration. We stand ready to work with you to 
craft legislation that tracks supervision of these agreements, 
and are committed to ensuring that the United States retains 
our current position as a world leader in chemical 
environmental safety.
    As Mr. Burnam has explained, there are three agreements we 
are here to discuss: the Stockholm Convention on Persistent 
Organic Pollutants, known as the global POPs treaty; the 
Rotterdam Convention on the Prior Informed Consent Procedure 
for Certain Hazardous Chemicals and Pesticides in International 
Trade, known as the PIC Convention; and the Protocol on 
Persistent Organic Pollutants negotiated under the U.N. 
Economic Commission for Europe's Convention on Long-range 
Transboundary Air Pollution, also known as the LRTAP POPs 
Protocol.
    Here in the United States, we have already taken extensive 
steps to address risks posed by the substances covered by these 
agreements. But as we all know, stand alone action by one 
country is not enough. As Mr. Burnam explained earlier, these 
chemicals continue to pose real health risks to U.S. citizens 
and to the people around the world. They are used and released 
in other countries and travel distances from their source.
    In the United States, these agreements are of particular 
importance to the people of the environment of Alaska, the 
Great Lakes region, which are unfortunately impacted by POPs 
transported by air and by water from outside these States. This 
is particularly true for Alaska Natives, who rely heavily on 
traditional diets comprised of fish and wildlife. By joining 
with the rest of the world to phaseout and reduce these toxic 
pollutants, we will help to protect the health and the 
environment, not only of our fellow Americans, but of all those 
who share our planet.
    As mentioned, we take the threats posed by these pesticides 
and chemicals to our environment and public health very 
seriously. For example, the United States was the first country 
to begin a thorough scientific reassessment, or if you will, 
re-registration program for pesticides and to evaluate 
cumulative risk posed by pesticides. Across the world, the 
United States is considered an international model for sound 
scientific risk assessments and effective regulatory 
decisionmaking. Our actions are respected and often replicated 
in other countries across the globe.
    We have implemented a series of aggressive approaches for 
mitigating and subsequently reducing exposure to POPs 
chemicals. For example, EPA developed national action plans for 
persistent bioaccumulative and toxic chemicals, or PBTs as they 
are known, a number of which are POPs chemicals. These 
comprehensive plans focus on Federal, State and local efforts 
to reduce emissions to and exposures to PBTs, with an emphasis 
on prevention. Many of these national action plans have already 
been reviewed and commented on in the public, and are in the 
process of being finalized. Many of the action plans will 
implement innovative and voluntary partnership activities.
    The Administration's legislative proposal provides targeted 
changes to the Toxic Substances Control Act and the Federal 
Insecticide, Fungicide and Rodenticide Act in order to track 
the provisions of these three agreements. Because these 
agreements are largely consistent with existing U.S. law and to 
ensure expeditious approval of these agreements, only narrowly 
targeted adjustments to FIFRA and TSCA are necessary for the 
United States to implement our obligations under them.
    For the POPs chemicals, the legislation would prohibit any 
production, use, processing, distribution and commerce, and 
disposal operations that may be inconsistent with treaty 
obligations. It also contains provisions for specific 
exemptions from the prohibition, such as those needed for 
research purposes consistent with the agreements.
    The Administration's legislative language directly tracks 
obligations in the PIC Convention, effectively controlling the 
international trade of toxic chemicals and pesticides through 
export notification, export controls and labeling. With these 
provisions, the United States will be able to effectively and 
expeditiously implement this important Convention.
    As you know, the legislation does not include provisions to 
address the listing of additional chemicals under the global 
POPs and LRTAP POPs. Such a provision is not required to bring 
the United States into compliance with these agreements. I want 
to stress that the Bush administration is fully committed to 
the listing of additional chemicals to the POPs agreements, 
using the science-based listing process outlined in the global 
POPs treaty and ratifying amendments that list appropriate 
chemicals.
    In fact, that is why the Administration's legislative draft 
contains information collection provisions. These provisions 
will ensure that the United States is as informed as possible 
of the risks, benefits, production and uses and other pertinent 
factors concerning candidate chemicals when negotiating 
amendments to add future chemicals. The Administration believes 
the processes set forth in the POPs Convention and the LRTAP 
Protocol for listing chemicals are rigorous and science-based. 
We are confident that they will identify strong candidates for 
listing, based on a rigorous scientific risk assessment.
    However, the parties must still work through details of a 
decision process for evaluating cost and other information for 
listing additional substances under the POPs. At this time, we 
do not have enough experience with how, after a decision that a 
chemical meets the scientific standard for listing, the 
international community will weigh and balance socioeconomic 
and other factors when making final listing decisions, and 
deciding on appropriate control measures for the chemical.
    Recognizing that a provision to address the listing of 
additional chemicals is not required to bring the United States 
into compliance upon entry into force of these agreements, the 
Administration determined that it would be best to consider 
these issues in the context of an evolving detail POPs listing 
process. The experience gained at the negotiating table over 
the next several years on how the international community 
chooses to evaluate socioeconomic and other factors when 
shaping control actions for future listings will be of great 
value. We stand ready to work with you on this important issue.
    The Administration would also like to recognize you, Mr. 
Chairman, and Senator Smith, for your significant efforts to 
support the global POPs Convention and the LRTAPs Protocol. 
Administrator Whitman and I are committed to working with you, 
Senator Smith, all members of the committee, and Congress in 
general to ensure expeditious enactment of the best legislation 
possible to implement the POPs, PIC, and LRTAP agreements.
    The Administration is seeking swift approval of these 
agreements. We believe the Stockholm Convention may come into 
force soon, and it is important that the United States be a 
full participant at that time so we can play a strong role from 
the outset of the Convention. It is especially important to be 
at the table as a party when crucial early implementation 
decisions are being made, and when parties, including the 
United States, submit proposals to add new chemicals to the 
global POPs and LRTAP.
    The United States would like to demonstrate its ongoing 
commitment to the goals of this important treaty, and by our 
example encourage other countries to ratify the Convention. I 
am very proud of the POPs treaty because it provides a perfect 
example, as you have stated, of how industry and environmental 
interests have worked together to resolve serious environmental 
issues. These agreements illustrate how much we can accomplish 
when people can come together in support of common 
environmental goals.
    Thank you for the opportunity to discuss these 
international agreements this morning. Again, I want to thank 
you for your support and assure you that President Bush, 
Administrator Whitman and I are looking forward to working with 
you and the committee to approve these important agreements and 
finalize the implementing legislation.
    I would certainly be pleased to answer any questions.
    Senator Jeffords. Thank you both for excellent statements. 
I will have a few questions for the record here.
    Mr. Burnam, U.S. negotiators agreed some time ago to ban or 
severely restrict four additional POPs under the provisions of 
the LRTAP POPs Protocol. How can the Administration say that it 
does not know what additional chemicals are likely to be added 
to the POPs Convention?
    Mr. Burnam. Well, Senator, I think those four chemicals are 
likely candidates for addition. You have to look at the 
differences between LRTAP and POPs. LRTAP does not contain some 
of the trade and waste disposal elements that the global POPs 
does, but those are certainly very likely candidates for 
addition. I merely point out that the obligations of countries 
under the LRTAP proposal are somewhat narrower than they are 
under the global POPs Convention, so you would have to consider 
that in evaluating why there are 16 chemicals in one and 12 in 
another.
    Senator Jeffords. Doesn't it make sense from a level 
playing field point of view to support global bans on chemicals 
we have already agreed to ban on a regional basis in the LRTAPs 
POPs Protocol?
    Mr. Burnam. Well, I guess I would have to refer to my 
previous answer. My understanding is that the LRTAP Protocol 
does not contain some of the trade elements of the Stockholm 
Convention. So it would not necessarily be the case that the 
two Conventions would be the same. But yes, you certainly have 
a point. If we were to agree to having these chemicals listed 
under the LRTAP Protocol, that would certainly be a strong 
argument for listing them under the Stockholm Convention.
    Senator Jeffords. Thank you.
    Mr. Johnson. Senator, if I might?
    Senator Jeffords. Sure. Please, Mr. Johnson.
    Mr. Johnson. If I may add to my colleague's comment, just 
as a reminder for all of us that LRTAP focuses on air 
transport, and POPs focuses on air transport, water transport 
and all of the other pathways. While there has been a great 
deal of effort looking at the air transport issues in LRTAP, 
there has been less international review on these other 
pathways--so just as a point of reference.
    Senator Jeffords. Thank you.
    Mr. Burnam, again, you have stated that you wish to have 
more experience with additional procedure and practices of the 
POPs Review Committee as part of the process of developing 
language to add new chemicals to the global POPs Convention. 
But is it not the intent of this Administration to notify at 
the time of positing the articles of ratification that intends 
to utilize the option provisions provided in the Convention?
    Mr. Burnam. I think it is likely. I will refer your 
question also to Mr. Johnson for a more technical answer, but 
yes, the United States probably will, and I would anticipate 
that the United States would use a provision of the Convention 
known as the opt-in, which the United States pushed to make a 
part of the Convention. Under the opt-in provision, the United 
States would have to positively state that it accepted the 
addition of a chemical before it would be bound by that 
provision. In other words, you have a scientific review panel, 
the Convention of the parties, which by the way might meet as 
early as next June, a year from now, a convention of the 
parties would approve the chemical, and if there was 
controversy, could approve it by a three-fourths vote. But 
under the opt-in provision, the United States or any other 
country that exercised the opt-in provision would have to 
positively affirm that it had accepted the listing of that 
chemical.
    That would be a question, then, would the executive branch 
make that decision? It would consult with the Senate to see 
whether the Foreign Relations Committee would want to hold a 
hearing and send that to the Senate for advice and consent. But 
yes, under the opt-in provision, the United States would have 
to affirmatively state that it had accepted the listing of that 
additional chemical.
    Senator Jeffords. Mr. Johnson, a comment?
    Mr. Johnson. Yes. I think it is some other points about the 
listing process for POPs that is built into both the Convention 
and certainly is supported by our draft legislation. That is, 
as a chemical comes into the listing process, the proposal is 
sent for scientific review. The POPs Review Committee then 
applies screening criteria which we are all in agreement with 
are scientifically sound, looking at persistence, bio-
accumulation, toxicity, and long-range transport. If in fact 
those screening criteria are met, the committee prepares a risk 
profile for the chemical. It is actually at that point in our 
draft legislation that we then may issue a Federal Register 
notice asking for comment, additional information from the 
United States.
    The Review Committee then looks at it to determine whether 
this risk profile actually satisfies the long-range 
environmental transport, and would lead to adverse health or 
environmental effects. If that is met, the committee prepares a 
risk management evaluation, getting into the cost, the 
benefits, the socioeconomic kinds of issues. Again, as it moves 
into that arena, our legislation has a provision again for 
asking for any comment that would help direct the United States 
as we move forward.
    Based upon this risk profile and risk management, a 
recommendation is made to the conference of the parties, as my 
colleague has already stated, a final decision is made. There 
is a window of time, and I believe it is a year, that member 
states or in this case the United States would have the option 
of opting in or opting out.
    So there is a great deal of process, and again just to 
emphasize, the risk profile arena has been a well-thought-out, 
science-based standard, we are all very much in agreement. It 
is when we get into the risk management and what criteria we 
will all consider for balancing the risks and benefits leading 
to either restrictions or a worldwide ban, that is less clear 
at this point.
    Senator Jeffords. Thank you.
    My final question is, doesn't this opt-in provision protect 
the United States from ever being forced to ban a potential 
POPs against its will?
    Mr. Burnam. Yes, I think it does. I think that was the 
purpose of it. Some treaties operate on a consensus basis, 
where all nations have to agree to anything that is done under 
the treaty that is significant, to put it in colloquial terms. 
In this particular case, since there is a three-fourths vote if 
there is controversy, it was important to the United States to 
ensure that it was not bound by a decision with which it 
disagreed. So it put the opt-in provision in there to ensure 
that it would have to--and I anticipate we would exercise the 
opt-in provision.
    There is another provision called opt-out, where you accept 
an additional listing simply by your silence, but under the 
opt-in provision, you have to affirmatively state. So we did 
put that in there to protect U.S. interests in the off-chance 
that there would be a listing with which we disagreed.
    Senator Jeffords. Mr. Johnson, a comment?
    Mr. Johnson. I have really nothing more to add. I guess one 
other specific of that, I think that another point that you 
might want to reference. This is with regard to the new 
chemicals, that at the diplomatic conference in May 2001, the 
member States agreed not to begin work on new chemicals under 
after ratification. Of course, we are hopeful that we will be a 
part of the 50 to ratify the Convention through this 
legislation.
    However, it has been estimated by the POPs Convention 
secretariat that the listing process and going through looking 
at the risk management aspects of new chemicals, the times 
range anywhere from 3 to 6 years. So while there may be some 
new chemicals that people would like for the POPs Convention to 
consider, it has been estimated that it is going to be a number 
of years before those chemicals actually move through the kind 
of science process that is outlined in the Convention. So 
issues of opting in and opting out may be a little ways away.
    Senator Jeffords. Thank you both. Sorry again we had to 
call you back, but glad to have you here and thank you for 
excellent testimony.
    Mr. Johnson. Thank you, Senator.
    Senator Jeffords. Now I would ask if my final five 
remaining witnesses would please approach and be seated. I will 
introduce while you are getting organized here.
    Our first witness is Dr. Warren Muir. Warren is the 
executive director for the Commission of Life Sciences, and the 
executive director of the Board on Agriculture and Natural 
Resources at the National Research Council. From 1971 to 1977, 
he was a senior staff member for the Environmental Health of 
the Council on Environmental Quality. He was a key formulator 
of the Administration's proposal for TSCA. After TSCA was 
enacted, he served at EPA from 1977 to 1981 in various 
capacities associated with implementation. Welcome, Mr. Muir.
    The second witness is John Buccini, a native of Winnipeg, 
Canada. He is the chair of the Intergovernmental Negotiation 
Committee established by the United Nations Environmental 
Program to negotiate a global POPs Convention. Prior to his 
election as chair in June 1998, he served in leadership roles 
in other international programs addressing toxic chemical 
issues, including the North American Commission on 
Environmental Cooperation, the OECD Chemicals Program, and the 
Intergovernmental Forum on Chemical Safety. Thank you for 
traveling your long distance to be here, and we appreciate your 
coming twice.
    The third witness is Brooks Yeager. Brooks is Vice 
President for the Global Threats Program at the World Wildlife 
Fund. Before joining WWF, he was the Deputy Assistant Secretary 
for Environment and Development at the U.S. State Department. 
At State, he was responsible for the development and 
negotiation of U.S. policy in a wide variety of global 
environmental discussions, and was the U.S. lead negotiator for 
the POPs Convention. Thank you for being here today.
    Our fourth witness is Michael Walls. He is a senior counsel 
at the American Chemistry Council. Mr. Walls has been with the 
ACC for more than 15 years. During that time, he has counseled 
committees and staff on a broad range of international and 
domestic issues. He has represented the industry in several 
international negotiations including PIC and the POPs 
Conventions, and the Basel Convention on Transboundary Waste 
Movements. Thank you for coming, Mr. Walls.
    Karen Perry is the deputy director of the Environment and 
Health Program for Physicians for Social Responsibility. She 
directs the SR's work on a variety of toxics issues, including 
POPs and other persistent bio-accumulative substances. From 
1998 to 2001, she served as a Coordinator of the International 
POPs Elimination Network--a network consisting of more than 400 
NGO's in 70 countries focused on the phase-out of POPs through 
a global treaty. Ms. Perry, thank you for your coming and being 
with us today.
    We are back to Mr. Muir and ask you for your comments.

  STATEMENT OF WARREN MUIR, EXECUTIVE DIRECTOR, COMMISSION ON 
LIFE SCIENCES, AND EXECUTIVE DIRECTOR, BOARD ON AGRICULTURE AND 
          NATURAL RESOURCES, NATIONAL RESEARCH COUNCIL

    Mr. Muir. Thank you, Mr. Chairman.
    I am happy to be here today and to present the testimony of 
Dr. Bruce Alberts, who is the president of the National Academy 
of Sciences, who was invited to testify earlier and who is 
unfortunately out of the country today. With your permission, I 
ask that his statement be entered into the record.
    Senator Jeffords. Without objection, it is accepted.
    Mr. Muir. Because the role of the National Academy of 
Sciences and its affiliated institutions is to serve as a 
source of independent scientific, engineering and medical 
advice, I will limit our testimony to scientific issues and the 
possible involvement of our operating arm, the National 
Research Council, in reviewing candidate chemicals for possible 
future inclusions in these Conventions, starting with the 
general issues and moving to more specific drafting issues.
    Section 107, research program to support POPs Convention, 
contains a provision in which EPA may enter into a contract 
with the National Academy of Sciences to, No. 1, develop and 
apply screening criteria for adding new substances or mixtures 
to the POPs Convention; two, to propose alternative designs for 
a global monitoring program aimed at identifying persistent 
bioaccumulative chemical substances; and No. 3, to recommend 
priority chemicals for possible nomination to the POPs Review 
Committee of the POPs Convention. It also requests that we 
consider a list of specific chemicals.
    With respect to the second of these, the National Academies 
would be able to produce an expert report recommending 
alternative designs for a global monitoring program aimed at 
identifying persistent and bioaccumulative chemical substances. 
Such alternative designs would be driven primarily by practical 
and scientific considerations.
    Turning to the remaining two requests of the National 
Academies in the bill, according to the two Conventions, risk 
profiles are to be first prepared on specific chemicals. These 
risk profiles are then used to make decisions on adding 
specific chemicals to the Conventions. Final decisions on 
additions involve appropriately not only scientific criteria, 
but also policy political considerations such as the weighing 
of costs and benefits and other socioeconomic factors.
    Because non-scientific factors are properly involved in 
such considerations, the National Academies are reluctant to be 
asked to recommend that specific chemicals be added to the POPs 
Convention. Rather, we propose that if asked to be involved, 
that the National Academies be requested to recommend 
scientific principles and methods for preparing risk profiles 
and to apply such principles and methods to prepare risk 
profiles with information available in the United States for 
chemicals listed in Section 107 of the proposed bill, as well 
as chemicals with similar attributes.
    According to the above proposal, the Environmental 
Protection Agency and the U.S. Government would use the risk 
profiles that we developed to make decisions on what chemicals 
to propose for inclusion in the POPs Convention. These 
decisions would incorporate non-scientific policy 
considerations, as well as the scientific considerations that 
we provide.
    Section 107(b) of the bill reads, ``The Administrator may 
offer to enter into a contract with the National Academies.'' 
However, the language thereafter mandates the specifics of such 
a contract. We would urge that these mandates be softened to 
recommendations. Such softening might remove the disincentives 
for EPA to enter into such a contract and would allow us to 
work out practical arrangements.
    Included in the specifics is a January 1, 2004 date for the 
National Academies to complete a report. We recommend that the 
report be described as a progress report to avoid any 
misinterpretation of the nature of the report. The many 
activities called for of the National Academies in this section 
cannot all be completed within 18 months or less. Furthermore, 
there is no specific start date for such a contract.
    We suggest that the requested outcome be more than a single 
report. Instead, Section 107 could provide the basis for the 
National Academies first to provide and furnish long-term 
support to the U.S. Government in carrying out its 
responsibilities under the Stockholm Convention and the 
Convention on Long-Range Transboundary Air Pollution.
    In sum, the National Academies, through its operating arm, 
the National Research Council, is prepared to assist the U.S. 
Government in carrying out its responsibilities under these two 
Conventions. To do so would entail the development of several 
reports providing independent scientific advice, leaving the 
weighing of important policy and political considerations to 
the government.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you. I will have questions later, 
but I want everyone to have a chance of being heard. We are 
having a vote in about 20 minutes, which should not take very 
long. It is just to find out who is here, basically.
    Mr. Buccini.

STATEMENT OF JOHN BUCCINI, CHAIR, INTERGOVERNMENTAL NEGOTIATING 
                       COMMITTEE ON POPS

    Mr. Buccini. Thank you, Senator. I will try not to keep you 
from the vote.
    I am here in my capacity as chairman of the 
Intergovernmental Negotiating Committee. I view my 
participation today primarily to respond to any questions you 
may choose to pose. So I would like to confine my opening 
remarks to a few observations about the treaty and its 
development. I do have a copy of my text which I am quite happy 
to leave with you, sir.
    Senator Jeffords. It will be included in the record.
    Mr. Buccini. Thank you.
    The Stockholm Convention has as its objective the 
protection of human health and the environment from POPs. It 
was developed in response to an acceptance by the international 
community of the need to take collective global action to 
reduce and/or eliminate the generation and release of POPs. 
This acceptance was based on the recognition that the continued 
generation and release to the environment of POPs is not a 
sustainable practice, as once released into the environment, 
POPs undergo widespread environmental distribution through 
natural processes. They contaminate environmental media and 
living organisms, including the food chain, and persist for 
very long periods of time and thus pose a threat to present and 
future generations of both humans and wildlife.
    The process of developing the Convention was initiated in 
May, 1995 by the United Nations Environment Program, or UNEP. 
In March 1996, an agreement was reached that there was 
sufficient scientific evidence available to justify taking 
immediate international action on POPs. This agreement has 
underpinned and given a sense of urgency to the efforts made by 
stakeholders from all sectors of society, including 
governments, intergovernmental organizations, nongovernmental 
organizations, including both industry and public interest 
groups, and aboriginal groups.
    The activities involved in developing the Convention have 
resulted in a broad acceptance of the urgent need for action in 
countries around the world. This is demonstrated by the fact 
that less than 1 year after the Convention was opened for 
signature in Stockholm on May 23 last year, 130 countries and 
the European Community have signed the treaty. So far, nine 
have become parties through ratification, acceptance or 
accession procedures.
    Another indicator is the number and nature of the actions 
that stakeholders are taking to address the risk posed by POPs. 
Based on an annual UNEP survey of representatives of all 
stakeholder groups, about 110 countries are already active in 
taking action to address POPs, and actions are also being taken 
by the public, industry and aboriginal and public interest 
groups around the world. As one example, the International POPs 
Elimination Network was established during the negotiation of 
the treaty, and today it includes over 400 public interest 
groups from countries around the globe, with programs to 
address POPs issues at the local, national, regional and 
international levels. This is indeed encouraging to note.
    Let me now turn to the Convention itself. In my view, there 
are three key provisions to the treaty. The analogy I like to 
use is the three-legged stool. All three of these legs are 
needed to make this convention function the way it was 
designed. The first is controls on the 12 POPs. The second is 
the evaluation of future candidates for addition to the treaty; 
and third, financial and technical assistance for developing 
countries and countries with economies in transition.
    The control provisions of the Convention address three 
areas: intentionally produced POPs, unintentionally produced 
POPs, and POPs in stockpiles and waste. For intentionally 
produced POPs, including industries chemicals and pesticides, 
the goal of the Convention is to eliminate their production and 
use, and measures are specified for 10 chemicals. To prevent 
the introduction into commerce of new POPs, parties with 
regulatory and assessment schemes for industrial chemicals and 
pesticides will, in conducting assessments of new substances, 
take measures to regulate, with the aim of preventing the 
production and use of new POPs. In addition, in assessing the 
risks posed by any new substances, parties will consider the 
screening criteria for candidates for addition to the 
Convention to identify at the earliest opportunity candidates 
for further consideration.
    For unintentionally produced POPs, the Convention goal is 
the continuing minimization and, where feasible, the ultimate 
elimination of the total releases of such POPs derived from 
anthropogenic sources. An approach has been developed that 
enables each country to define its priorities, develop a 
national action plan within 2 years of entry into force of the 
Convention, and then implement that plan.
    For stockpiles and waste, the goal is the environmentally 
sound management of stockpiles that consist of or contain 
intentionally produced POPs, and of wastes including products 
and articles upon becoming waste that consist of, contain or 
are contaminated with intentionally or unintentionally produced 
POPs. Measures are specified to prevent the reuse or recycling 
of POPs, and to manage these materials to prevent releases to 
the environment of POPs during storage, handling, transport or 
disposal activities.
    The second major provisions, then, is a science-based 
approach to systematically identify and review future candidate 
chemicals for additional to the Convention. The process and 
scientific criteria for this provision are specified in the 
Convention, and a POPs Review Committee will be established at 
the first meeting of the Conference of the Parties to evaluate 
information submitted by parties. Considerable attention was 
paid for the need for openness and transparency in this process 
to ensure that all candidates will be fully and fairly 
evaluated.
    The third Convention specifies that developing countries 
and countries with economies in transition will need technical 
and financial assistance. The Global Environment Facility has 
been named as the principal entity of the interim financial 
mechanism to handle funding of capacity building and other 
related activities. Financial support has already begun to flow 
and an estimated 50 countries have so far initiated action to 
prepare national plans. Again, this is very encouraging.
    In my view, the Convention represents a significant advance 
in protecting health and environment from what many regard as 
the most toxic chemicals that have ever been produced. There is 
a high level of interest and activity among all stakeholder 
groups in the POPs area, and I expect that this will continue 
in the future. In this regard, I am pleased to note that you 
have both industry and environmental nongovernment 
organizations appearing before you in this session.
    The Convention will enter into force 90 days after 50 
parties have ratified it. Many contend that the urgent nature 
of POPs problems warrants expedited entry into force and 
concerted collective actions to address these problems and 
their solutions. Some stakeholders have urged governments 
around the world to ratify the POPs treaty prior to the 
Johannesburg Summit in August of this year.
    In closing, I would just like to state that I certainly 
hope that the United States will be among the parties at the 
first meeting of the Conference of Parties, and I would be very 
pleased to answer any questions to assist in that process.
    Thank you, Mr. Chairman.
    Senator Jeffords. Thank you.
    Mr. Yeager.

STATEMENT OF BROOKS YEAGER, VICE PRESIDENT FOR GLOBAL THREATS, 
                      WORLD WILDLIFE FUND

    Mr. Yeager. Thank you, Mr. Chairman.
    With your permission, I will submit my full written 
statement for the record.
    Senator Jeffords. Without objection, it is accepted.
    Mr. Yeager. I want to say thank you very much for the 
opportunity to testify, and thanks for holding this hearing so 
expeditiously so that the Senate might get on the road to 
implementing and ratifying this treaty.
    As requested in your letter, Mr. Chairman, I have come 
prepared to speak both about WWF's views and about my own 
experiences and observations in negotiating the treaty. I will 
try to keep the two hats a little separate so that my views 
will be clear.
    I think it is true that the Stockholm POPs Convention 
represents the most important effort by the global community to 
date to rein in and ultimately halt the proliferation of toxic 
chemicals that threaten the global environment. The treaty 
targets some of the world's most dangerous chemicals--POPs 
pesticides such as chlordane, industrial chemicals such as 
PCBs, and byproducts such as dioxins. The effects and hazards 
of those chemicals have been well-described by Stephen Johnson 
and other witnesses, so I will not go into that except to say 
that for the United States this is really quite a serious 
matter. We acted as a Nation to eliminate production and use of 
most of these chemicals between 30 and 20 years ago. Despite 
that fact, we are still being affected by them. From Alaska to 
the Great Lakes to Florida, we face dangers from POPs pollution 
to our environment and to our way of life.
    This is pretty central to understanding the United States' 
strong national interest in the success of the global effort to 
reduce and eliminate POPs. The mobility of these chemicals in 
air and water currents, for example, makes possible their 
presence, along with metals and other particulates, in 
incursions of Saharan dust into the continental United States. 
African dust is the dominant aerosol constituent in Southern 
Florida's dense summer hazes. A global mechanism to reduce 
these ``chemical travelers without passports'' is necessary. It 
is urgent and it is very much in our national interest.
    The POPs Convention, Mr. Chairman, was negotiated by more 
than 120 governments over a 4-year period. As the head of the 
U.S. delegation, I was responsible for developing our 
negotiating objectives and strategies, but more so for ensuring 
that our national interests and positions and requirements were 
reflected in the final text. Our position as a Nation was 
developed through an exhaustive domestic process. It involved 
regular consultations with seven or eight domestic agencies, 
industry, environmental and public health communities, Native 
American representatives, and various interested State 
governments.
    It was a careful process, and I believe that process is 
part of the reason for the broad support for President Bush's 
decision to sign the Stockholm Convention in April. I would 
also says, Mr. Chairman, we had a very expert negotiating team, 
some of whom are in the room today. But more than that, both 
industry and environmental representatives made important 
contributions to the final product. I would like to note in 
particular the constructive roles played by Michael Walls, who 
is sitting next to me, and Mr. Paul Hagen, both of the American 
Chemistry Council.
    WWF is working with governments around the world in the 
hope of generating 50 ratifications to this treaty by the time 
of the World Summit on Sustainable Development in Johannesburg 
in late August. We know that achieving Senate advice and 
consent within the next 15 weeks is a much-accelerated 
timeframe, but with energy and determination, we believe it is 
achievable. We also believe it would be only just for the 
United States to be a leader in the early running of this 
Convention as it goes into operation.
    So I would like to thank you for bringing this bill 
forward. I would also like to thank Senator Smith for bringing 
forward the Administration's bill. I have not included a lot of 
comments about the Administration's bill in our testimony. We 
have not had a full chance to review it, but we will be glad to 
do that for the record of the committee.
    Senator Jeffords. Please do.
    Mr. Yeager. The treaty's provisions have been well-
described by other witnesses, Mr. Chairman. I would like to 
talk a little bit about the balance of interests and 
compromises that went into the treaty's formation. The U.S. 
interest, as we articulated it during the negotiations, was to 
achieve an ambitious treaty that would address the global 
environmental damage caused by POPs, but to do so in a way that 
would be practical, implementable, financially efficient and 
consistent with the fundamental structure of our own national 
approach to regulation.
    Other countries had different interests--some similar, some 
not. The developing countries had neither the will nor the 
inclination to agree to make POPs cleanup a priority against 
their other environmental priorities unless the developed world 
was willing to assist them financially and technically. So the 
establishment of the Global Environment Facility as the interim 
financial instrument of the Convention was actually very 
critical to the result.
    Similarly, all parties clearly recognized that the 
Convention could not be successful if it were limited solely to 
the 12 chemicals already on the POPs list. But the question of 
what scientific and institutional process to use in adding 
chemicals to the list was fraught with difficulty. For the 
United States, it was critical that the process be 
scientifically driven and not subject to political whim, and 
that it contain important safeguards for U.S. interests. For 
some in the EU and elsewhere, it was critical that the process 
for adding chemicals not be subject to endless procedural 
roadblocks.
    The procedure for adding new chemicals that evolved in the 
negotiations is a genuine compromise, but one which in my view 
successfully protects U.S. interests in every respect. First, 
we insisted on and successfully negotiated the scientific 
criteria according to which a nominated chemical would be 
evaluated. Then we negotiated the process through which these 
criteria would be applied by the scientific screening 
committee, which we called the POPRC.
    Finally, we negotiated the terms under which the COP--the 
Conference of the Parties--would review the recommendations of 
the scientific group, the conditions under which the Conference 
of the Parties could make a decision to add or reject a 
chemical, and the procedures for party governments to accept or 
reject the decision of the conference of the parties. The 
addition process as agreed offers the United States the 
safeguards of rigorous science, a careful review procedure, a 
high institutional threshold for COP decisions to add 
chemicals, and finally, the right to reject the addition of a 
new chemical if appropriate.
    Just to sum up, Mr. Chairman, I think the safeguards built 
into the treaty are actually very powerful. They afford the 
United States the full and careful right to review, to 
participate in the science for adding new chemicals, to 
participate in the COP's decision to agree to the science or 
not, and finally to reject the addition of a chemical for cause 
if the United States feels that that is important. So I think 
in that respect, the failure of the Administration to include 
provisions for the addition of new chemicals cannot be 
justified by the need to add any additional safeguards to the 
process.
    I would say, Mr. Chairman, that we hope the Senate will 
move on two fronts expeditiously in implementing the treaty. 
First, that you will in fact work together to move forward with 
your and Senator Smith's implementing legislation, but of 
course including the provisions necessary to allow the United 
States to fully participate in the addition of new chemicals. 
Second, that you will help the Appropriations Committee realize 
the importance of the United States' GEF contribution to the 
proper working of this treaty. It is very important that the 
Global Environment Facility be funded at a level that allows 
them to take on this new priority without cannibalizing their 
existing priorities. As you may know, Mr. Chairman, the 
replenishment negotiations for the Global Environment Facility 
are going on today, as we speak, downtown. We are very hopeful 
that the United States will come forward with a constructive 
proposal in that negotiation.
    With that, Mr. Chairman, thank you very much for allowing 
me the time, and I will be glad to answer any questions.
    Senator Jeffords. Thank you for your excellent testimony.
    Mr. Walls, please proceed.

STATEMENT OF MICHAEL WALLS, SENIOR COUNSEL, AMERICAN CHEMISTRY 
                            COUNCIL

    Mr. Walls. Good morning, Mr. Chairman. Thank you for the 
opportunity to be here.
    We have submitted a written statement to the committee and 
would appreciate it being included in the record.
    Senator Jeffords. Without objection, it is included.
    Mr. Walls. Mr. Chairman, I am here today to reinforce the 
chemical industry's strong support for the Stockholm Convention 
on POPs. It is our hope that that treaty and its reasonable 
implementation will be the subject of quick action by the 
Senate.
    While the Stockholm Convention has the potential to bring 
additional regulation to an already highly regulated industry, 
our support for the Convention lies in three very simple 
points. No. 1, the Convention is consistent with our industry's 
commitment to product stewardship. Our industry's goal is to 
prevent health and environmental damage in the manufacture and 
use of chemical products. That commitment to product 
stewardship is an integral part of our Responsible Care 
program, which is being implemented by the chemical industry in 
46 countries.
    No. 2, the Convention is the culmination of many different 
initiatives by industry, nongovernmental organizations and 
governments to address the concerns about persistent organic 
pollutants. It is the next best step to assure that governments 
around the world take appropriate measures just as we have here 
in the United States to control the manufacture, use and 
disposal of POPs and to reduce unwanted POPs emissions.
    No. 3, our support for the Convention is premised on its 
incorporating a risk-based science-justified approach to 
considering possible additions to the list of chemicals. It is 
an approach that is entirely consistent with longstanding U.S. 
law and practice. It is one that will lead to appropriate 
controls on POPs chemicals that pose global threats.
    We believe the Convention is an excellent example of what 
can happen when governments and stakeholders have a 
constructive dialog. Throughout the negotiations, many 
nongovernmental organizations made many important positive 
contributions, particularly the World Wildlife Fund. When he 
was chief U.S. negotiator, Brooks Yeager helped set a tone for 
openness and transparency in the process. I think that tone and 
the stakeholder involvement measurably improved this treaty.
    It is critical that the United States continue its 
longstanding leadership role in the global effort to control 
POPs. To have that role, the United States must be one of the 
first 50 parties ratifying the Convention.
    I would like to spend just a few minutes on some of the 
implementation issues I know are of particular concern to you, 
Mr. Chairman. The Stockholm Convention contemplates additions. 
The treaty establishes a reasonable process for decisions to 
list new chemicals, and we believe that implementing 
legislation must address that process. We think there are a 
number of options available that will address the Senate's 
constitutional role regarding treaty amendments, as well as 
this committee's interests in practical statutory changes.
    This hearing really represents the first opportunity 
anybody has had to discuss the two options that are currently 
on the table for implementing the treaty--your own bill and the 
Administration's proposal. The core implementing legislation in 
both proposals are similar, but both raise some important 
concerns. Both approaches raise some questions about the status 
of chemicals on the UNECE LRTAP POPs Protocol list that are not 
addressed under the Stockholm Convention. Both approaches 
impose significant restrictions on the use of information in 
any subsequent regulatory proceeding. In our view, that 
limitation may not be justified.
    We are also concerned about the additional provisions in S. 
2118 that are not strictly related to the obligations and 
responsibilities established under the Stockholm Convention. 
Those provisions raise some concerns about U.S. acceptance of 
the internationally accepted criteria for identifying POPs and 
the possible duplication of existing EPA programs. But the 
essential point is that the Convention does not address those 
issues. We think that U.S. implementation should be guided by 
two very simple principles. First, full implementation of the 
Convention obligations into law, particularly TSCA and FIFRA; 
and second, narrowly drawn amendments that implement only those 
obligations.
    It is also important that Congress address the necessary 
amendments to implement the Rotterdam Convention on PIC. That 
Convention warrants strong U.S. support, and because it also 
requires TSCA and FIFRA amendments, it makes sense to address 
that treaty at the same time as the Stockholm Convention.
    So to sum up, Mr. Chairman, we believe that the Convention 
is a significant step in securing international action on POPs. 
We believe that appropriate amendments to TSCA and FIFRA that 
reflect the treaty's obligations can be crafted, particularly 
to address the additions issue. We look forward to working with 
you and the Administration as those amendments are crafted. The 
Senate has an important opportunity. We hope you will seize 
that opportunity and act on the treaty soon.
    I would be happy to answer any questions. Thank you, Mr. 
Chairman.
    Senator Jeffords. Thank you for your excellent testimony.
    Ms. Perry.

  STATEMENT OF KAREN PERRY, DEPUTY DIRECTOR, ENVIRONMENT AND 
     HEALTH PROGRAMS, PHYSICIANS FOR SOCIAL RESPONSIBILITY

    Ms. Perry. Thank you, Mr. Chairman. I would ask that my 
written statement also be included in the record today.
    Senator Jeffords. It will be, without objection.
    Ms. Perry. I am speaking on behalf of Physicians for Social 
Responsibility today--a national membership organization 
representing more than 22,000 physicians, health care 
professionals, and citizens concerned about public health. We 
welcome the opportunity to present our views on the Stockholm 
Convention today, including our belief that it is highly 
important that the United States be a leader in implementing a 
living, breathing POPs treaty.
    PSR's concern about POPs stems from the medical tenet of 
``first, do no harm.'' That is because in 1994, an early draft 
of the U.S. EPA's dioxin reassessment indicated that hospital 
waste incinerators were a leading source of this potent POP 
dioxin. It was just a few years later that nations began 
crafting this global treaty on dioxin, PCBs, DDT and other 
POPs. Throughout these negotiations, PSR served as the 
secretariat for a global network of more than 400 NGO's from 75 
countries committed to POPs elimination. Today, the 
ratification and full implementation of the Stockholm 
Convention remains one of PSR's top priorities.
    POPs are particularly troubling to the public health 
community. They contaminate the fatty tissues of humans and 
animals, making meat, fish, eggs, and even breast milk toxic. 
Exposure to extremely low levels of some POPs can disrupt the 
function of the endocrine system. POPs have also been 
implicated in cognitive deficits, a variety of cancers, 
precocious puberty, endometriosis, declining sperm counts, and 
malformations of the penis and testicles, among other effects. 
Children and developing fetuses are most at risk. Studies have 
shown that prenatal exposure to low levels of some POPs can 
result in decreases in IQ and short-term memory, delayed 
psycho-motor development, abnormal reflexes and speech 
problems. It is clear that as a class of chemicals, POPs pose a 
hazard.
    While the Stockholm Convention focuses initially on 12 
POPs, the international community always envisioned a dynamic 
instrument that could take into account emerging scientific 
knowledge about similar chemicals. During the negotiations, an 
experts group hammered out a set of science-based screening 
criteria that you have heard today already from previous 
witnesses. In short, the evaluation and addition of POPs was 
not an afterthought, and the Convention clearly spells out a 
process for doing this. Parties will submit chemical 
nominations to the POPs Review Committee, or POPRC, which will 
screen them, prepare a risk profile, obtain input from all 
parties, and make recommendations. Then the Conference of the 
Parties must approve the addition of a POP by amendment, and as 
you have heard, the United States has reserved the right to opt 
in to each amendment individually.
    It is worth noting that the universe of POPs that we are 
talking about that might be added to the Stockholm Convention 
over the long term is not vast. Application of the science-
based criteria in the treaty is likely to result in at most the 
addition of one or two dozen POPs, not hundreds or thousands.
    A briefing for NGO's last July indicated that an 
interagency group had agreed on changes to the Toxic Substances 
Control Act and the Federal Insecticide, Fungicide, and 
Rodenticide Act, including those needed for EPA to address 
additional POPs. Regrettably, the Administration's proposal 
leaves out this critical piece of implementing authority. This 
omission would put up an unnecessary hurdle to domestic 
regulation of future POPs, and would amount to a failure to 
fully implement the convention. It would result in an absurd 
situation in which each new POP, which has already been agreed 
by the United States as a member of the Conference of the 
Parties, and subjected possibly to Senate review under the opt-
in process, would still require both Houses of Congress to 
amend TSCA and FIFRA again. Given that these laws have rarely, 
if ever, been amended, such a process seems unmanageable, 
undesirable and politically unrealistic.
    Your bill acknowledges this defect and legislates a 
domestic evaluation process to parallel the international one 
from start to finish. S. 2118 would give a rebuttable 
presumption to the decision of the Conference of the Parties to 
add a new POP. Based on the POPRC's work and its own, EPA could 
conclude that an added POP presents an unreasonable risk of 
injury to health or the environment, and the Agency would be 
authorized to undertake a rulemaking at that time.
    Administration officials, as you have heard, have argued 
that such authority is not needed to fulfill our obligations, 
but PSR disagrees. As written, TSCA and FIFRA would not allow 
EPA to prohibit the manufacture for export of a future POP. 
Experience with the dirty dozen confirms this. Chlordane and 
heptachlor, for example, were manufactured and exported for 
years after all uses were canceled domestically.
    As other witnesses have noted, the United States has long 
been at the forefront of global efforts to protect the 
environment and public health. For example, this country led 
the world in phasing out the use of DDT and leaded gasoline. S. 
2118 would again facilitate U.S. leadership. In addition to the 
provisions we have mentioned already, it would require EPA to 
contract with the National Academy of Sciences to conduct a 
major POPs study, begin identifying priority POPs for possible 
nomination, develop monitoring and control strategies for 
persistent and bioaccumulative substances, and finalize its 
long-awaited state-of-the-science dioxin reassessment. These 
provisions will position the United States to be a proactive 
participant to the Stockholm Convention.
    The announcement by President Bush of his intention to sign 
and ratify the Stockholm Convention more than a year ago 
received unprecedented support from the public interest 
community, the chemical industry, and Members of Congress on 
both sides of the aisle. This important treaty continues to 
offer a rare opportunity to achieve consensus in the 
environmental policy arena. Its rapid ratification and full 
implementation can be claimed as a victory by all. It is up to 
this committee and this Congress to strive for such an outcome, 
and we look forward to working with you to achieve it.
    Thank you.
    Senator Jeffords. Thank you. Thank you all.
    I am going over and register my presence, which was not 
easy. My planes last night were canceled three times, and I 
finally ended up taking a train so I would have the opportunity 
to be with you. So I do not know who is doing all these things 
to us in this hearing----
    [Laughter.]
    Senator Jeffords. I have my suspicions. But anyway----
    Mr. Yeager. It is climate change, Mr. Chairman.
    Senator Jeffords. I will be right back.
    [Recess.]
    Senator Jeffords. The meeting will come to order.
    I will now have a few questions for you all.
    The first question, Mr. Muir, you were working at the 
Council on Environmental Quality at the time of TSCA, which was 
enacted in 1976, and are recognized as the expert on that piece 
of legislation. Based upon your experience, could you properly 
implement the POPs Convention without amending TSCA to add a 
procedure for addressing future POPs?
    Mr. Muir. Well, I am familiar with the Toxic Substances 
Control Act. I also was the first head of the office 
implementing the law, so I know the law fairly well. Obviously, 
I am not speaking in my role from the National Academy of 
Sciences.
    Senator Jeffords. I understand.
    Mr. Muir. In order to regulate under the Toxic Substances 
Control Act, one has to make a finding of unreasonable risk 
under Section 6 of the law. That involves a balancing of risks 
and economic considerations. So to use the law as it is 
currently drafted for new chemicals would require the 
Administrator of the Environmental Protection Agency, through 
rulemaking, to make such a finding. Such a finding may be 
applicable. On the other hand, it would apply to the 
production, distribution and use of the chemical within the 
United States. It would not apply to export and so forth. So it 
clearly was not designed for this type of an international 
treaty application.
    Senator Jeffords. Again, based on your experience with 
TSCA, is it politically realistic that TSCA can be amended each 
time a new chemical is added to the POPs Convention?
    Mr. Muir. I defer to the chair on that.
    [Laughter.]
    Senator Jeffords. Well, I will ask myself and let you know 
what my answer is.
    [Laughter.]
    Senator Jeffords. Mr. Buccini, how critical is the issue of 
being able to add additional chemicals beyond the initial 12 to 
the POPs Convention?
    Mr. Buccini. Mr. Chairman, as I mentioned earlier with my 
three-legged stool analogy, it really is key not only because 
of what it achieves, it is because it is part of the overall 
architecture of the Convention. I think Mr. Yeager had 
indicated that there were all kinds of compromises and sort of 
cross-connecting issues that were resolved. Ultimately, the 
Convention represents a package deal. You know, we can say it 
is the addition of new chemicals, but in fact it is the 
embodiment in some cases of the need to show that the 
Convention will have life after the 12 have been dealt with; 
the need to address future POPs as they come along.
    It incorporated a number of the elements of caution of 
precaution, whichever word does not strike fear into people's 
hearts, because I realize that that is an issue. But it is 
really very much a part of the overall architecture. I think 
especially going back to my first remarks that it is not a 
sustainable practice in the long term to continue to generate 
and release to the environment chemicals which prove to have 
POPs properties. So as they are discovered in the future, I 
think it would be essential for them to be brought on board and 
to be treated in an appropriate manner after a full and fair 
evaluation of them by the POP Review Committee, by the 
Conference of Parties.
    So I guess what I have worked my way toward is I think it 
is a key ingredient of the Stockholm Convention.
    Senator Jeffords. Can you outline for the committee all of 
the mechanisms contained in the POPs Convention that could 
serve as a safety net if the United States did not agree with a 
decision to add a particular chemical to one of the annexes?
    Mr. Buccini. Let me do them in sort of reverse order. The 
easiest one is that when the United States deposits its 
instrument of ratification, it can make a statement that under 
Article 25, paragraph 4, that it declares that any amendment to 
Annex A, B, or C--that is, any addition of the name of a 
chemical to the Convention--that such an amendment would only 
enter into force upon the deposit by the United States of an 
instrument of ratification, acceptance or approval.
    So that is the simplest one, and I think it was already 
mentioned a few times this morning. It is in fact the simplest 
one. Of the nine countries that have so far become parties to 
this Convention, one party has already chosen that option, and 
that is Canada. On May 22 of last year, they made it quite 
clear that Canada was taking that option. To me, that is 
probably the most streamlined way of dealing with the issue 
because what you are saying is that we are now going to go back 
to the other two mechanisms.
    The first one is the nature of the review process itself. 
It is a process which will take years for each chemical once 
the Conference of Parties begins to meet. It is a process that 
is built on science and agreed upon criteria. I believe that 
among your participants in the panel, both the first panel and 
this one, there was no issue at all with the scientific 
criteria as to what constitutes a POP, and taking a look at how 
the Review Committee will interact in an open and transparent 
manner involving observers as well as parties.
    There is a very robust, full, open, transparent process by 
which a chemical will be evaluated as to whether it possesses 
scientific properties, then a risk profile will be generated, 
again through an open, transparent process; and finally a risk 
management profile that will be considered by the Conference of 
Parties.
    This is a rather lengthy, open, transparent consultative 
process which I would expect will give a full and fair hearing 
to each chemical. I would argue that the process of evaluating 
candidates is itself a very good safeguard against sort of one 
country or a spurious issue from making it all the way through 
to the end.
    There is also, and my memory is failing me now, it is 
somewhere in Article 23 or 24, the so-called opt-in provision, 
where a country can decide that if there is not consensus on an 
amendment by adding a chemical, and if it goes to a vote and 
three-quarters vote carries the motion, if a country was not in 
support of that vote, it can deal with the so-called opt-out 
provision.
    I would argue that the process of evaluating the candidate 
itself has various safeguards and checks and balances in it. 
There is the one under, I think it is Article 23, and then the 
Article 25.4, and I would argue certainly that the last one, at 
least for Canada, has sort of provided the amount of comfort 
that Canada needs to be able to become a party to the 
Convention.
    Mr. Yeager. Mr. Chairman, may I add something to that?
    Senator Jeffords. Yes, please.
    Mr. Yeager. From the U.S. perspective, there is another 
safeguard that is not as formal. In fact, the U.S. technical 
team, particularly from EPA, were very instrumental in molding 
this treaty and informing the negotiations. I would say from my 
personal recollection there were only two or three other 
countries that had the technical teams that could match our 
folks. We had on our staff the people who designed the control 
annexes for the Convention; the people who brought forward the 
information about specific chemicals that allowed a lot of the 
treaty work to go forward. Among the other countries, perhaps 
Germany had a technical team of equal caliber. Canada certainly 
had a very good technical team. But very few countries could 
match our technical expertise.
    If we ratify and become a party, we are going to be on the 
POPs Review Committee. We will have people who will be U.S. 
experts, who will be--because they will be needed. So the first 
and most important safeguard is our participation in the 
science process of the POPs Review Committee itself. After 
that, we have all the legal safeguards that Chairman Buccini 
has mentioned. So it is a fairly powerful array.
    Senator Jeffords. Mr. Yeager, at the conclusion of 
negotiations on the POPs Convention, what was the view among 
agencies on the need to have a mechanism in our domestic 
implementing legislation to address addition of future 
chemicals? In other words, was there interagency support for 
including an adding mechanism?
    Mr. Yeager. I think there was a broad assumption inside the 
delegation that was shared by all, that we would in fact 
institute domestic procedures to parallel the nomination and 
decision process for new chemicals. It was not a matter of 
support or opposition. We just assumed that that would be of 
course what we would do. We were fairly careful in our 
conversation with the congressional staff observers who were 
with us because until we had the full treaty text before us and 
had analyzed it and had the State Department lawyers work it 
over, we are not in the habit of making commitments as to what 
legislation will be required. In informal conversations with 
members of the congressional observing group, including Allison 
Taylor, who is now on your staff, who was then with the House 
Energy and Commerce Committee, we did say that we assumed that 
the major amendments would have to be TSCA and FIFRA and they 
would be for the purposes of allowing the prohibitions on the 
export of chemicals and for the addition of new chemicals.
    Senator Jeffords. Mr. Walls, in your letter of February 26, 
2002 to the Environmental Protection Agency, you indicated that 
you understood that the Administration had drafted a 
legislative proposal to amend TSCA and FIFRA to implement the 
treaty obligations as to the 12 named chemicals, but that the 
Administration would not propose amendments to address 
additional chemicals listed under the POPs Convention process. 
Your understanding has now been shown to be correct. What is 
the American Chemistry Council's current position on the 
omission of an adding mechanism?
    Mr. Walls. Mr. Chairman, in February we made that 
observation in Fred Webber's letter to Administrator Whitman on 
the basis of media reports in the environmental trade press 
regarding the Administration's draft of legislation. As we 
stated in our testimony, we believe that an additions process 
must be part of the implementing process. It makes sense to 
address it now, and we are confident that an appropriate 
approach can be crafted as the legislation goes forward.
    Senator Jeffords. In your letter of February 26, 2002, ACC 
noted, ``the treaty contemplates the listing of other POPs in 
the future and provides a criteria and risk-based process to 
consider nominations made by the governments.'' That is a 
plural. And you believed it possible to, ``craft appropriate 
amendments to TSCA and FIFRA to reflect the treaty addition 
process.'' Is that still your view?
    Mr. Walls. Yes, sir.
    Senator Jeffords. Does this indicate that you are prepared 
to work with this committee on specific language to amend TSCA 
and FIFRA to authorize the Administrator of EPA to ban a 
chemical beyond those listed in the treaty which has completed 
the treaty's, ``rigorous process of review,'' and is 
recommended as an additional POPs chemical?
    Mr. Walls. We think there are a number of options available 
to consider for those amendments, Mr. Chairman, and we are 
prepared to work with the committee.
    Senator Jeffords. Thank you.
    Ms. Perry, you mention in your testimony that children and 
developing fetuses are particularly vulnerable to POPs. Are 
there other populations that suffer from increased exposures of 
POPs?
    Ms. Perry. There are, and among them are Arctic indigenous 
peoples. Studies in far-northern Quebec in Canada have shown 
that Inuit mothers, for example, have among the highest levels 
of POPs like DDT and dioxin in their breast milk of any women 
in the world, even though they are far from the sources. These 
kinds of studies have not yet been done in Alaska to the same 
extent. They are under way, and we expect that they will 
similarly show that Alaska Native peoples, particularly those 
whose diets include fish and marine mammals, will also be 
abnormally exposed. Fisher people, people who recreationally 
and subsistence fish in the Great Lakes for example, are also 
highly exposed, and studies have shown that.
    Senator Jeffords. What are your views on the provisions of 
S. 2118 for the National Academy of Sciences to undertake 
studies on POPs, as well as a requirement for a release of the 
dioxin reassessment?
    Ms. Perry. We think those provisions are actually very 
closely tied to the United States's obligations under the 
Stockholm Convention. For example, the National Academy of 
Sciences study, I think several witnesses have pointed out that 
it will be a couple of years before the POPRC gets itself 
together and begins considering nominated chemicals. We would 
like to see the United States use that time wisely and the NAS 
study and the other provisions about EPA taking a look around 
and seeing what chemicals in this country we might be prepared 
to nominated, or that the United States might be prepared to 
support if another country nominated them to the POPRC--we 
think that is a good use of that time.
    With regard to the dioxin reassessment, as has been noted, 
the ultimate elimination of dioxin is one of the Treaty's 
provisions and in the short term, all parties would be asked to 
submit national action plans on dioxin. We think that the EPA's 
dioxin reassessment, which has now been in the works for 10 
years, would be the basis for creating a national action plan. 
It contains this country's inventory of dioxin sources and 
releases. It has been thoroughly peer-reviewed. It passed the 
EPA Science Advisory Board last year. So we would like to see 
it released as soon as possible to help inform our national 
action plan on dioxin.
    Senator Jeffords. Thank you.
    Does anyone have an additional comment they wish to make? 
Yes, Mr. Buccini?
    Mr. Buccini. Yes, Mr. Chairman. In the earlier testimony 
this morning, the issue of what takes place with regard to new 
chemicals between now and the entry into force of the 
Convention, I just wanted to clarify what the current 
understanding is. First, in the Stockholm Convention in May of 
last year, there was a resolution that guides the interim 
activities of the Intergovernmental Negotiating Committee, 
which will continue to meet on an annual basis until it is 
replaced by the Conference of Parties. The next meeting is in 
about 4 weeks time in Geneva.
    There were two important things with regard to the 
evaluation of new chemicals. There was considerable discussion 
and actually a bit of a debate as to whether progress in the 
interim period should begin in terms of the INC actually 
evaluating candidates. The final outcome of that debate was 
really two-fold. First is an agreement that in fact no country 
will submit a nomination prior to the first meeting of the 
Conference of Parties. Second, the resolution makes it quite 
clear that countries are encouraged on a national basis to be 
preparing for the first meeting of the Conference of Parties. 
So it isn't that there is no activity going on, but the 
activities are really at the national level. Countries such as 
the United States, Canada and others are examining what 
candidates they may wish to put forward in the future.
    So I just wanted to be clear on that. I think there were 
some remarks that were made earlier which might not have 
conveyed that exact message, so I just wanted for the record to 
be clear on that. Countries are encouraged to undergo national 
preparations, but they are discouraged from attempting to 
submit them to the INC process. COP one will be where the first 
nominations are submitted.
    Thank you, Mr. Chairman.
    Senator Jeffords. Anyone have a comment? Yes, Mr. Muir?
    Mr. Muir. As further follow-on to your question to me 
earlier, one additional factor with respect to TSCA Section 6 
is that those unreasonable risk findings in general are made on 
a use-by-use basis. It is very difficult to act on the entire 
production, distribution and use of a single chemical. So it is 
a difficult process. The Agency tried to act, for example, with 
respect to regulating asbestos--not a POP, but it was not able 
to do so because it is a very difficult finding which is done 
on a use-specific basis.
    Senator Jeffords. Anyone else? Any further comment?
    Mr. Yeager. To say thank you, Mr. Chairman, for taking this 
issue up and moving it along.
    Senator Jeffords. I will accept that comment. Thank you.
    Thank you all. This has been extremely helpful. I 
appreciate the work that went into your presentations and your 
answers, and I look forward to continuing to work with you. We 
will leave our options open to give you phone calls and other 
things to help us and assist us to make sure that we do the 
right thing.
    With that, the hearing is adjourned.
    [Whereupon, at 11:20 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

      Statement of Hon. Bob Smith, U.S. Senator from the State of 
                             New Hampshire

    I want to thank the witnesses for sharing your expert testimony 
with the committee. Last spring, with Governor Whitman and Secretary 
Powell at his side, President Bush announced his support for the 
Stockholm Convention on Persistent Organic Pollutants--The POPs 
Convention. This agreement will restrict and eliminate the production, 
use and/or release of 12 chemicals, including DDT, PCBs and dioxins, 
that are some of the most persistent and dangerous chemicals ever 
manufactured. Because they are so mobile and accumulate in the food 
chain, absent international action, they will continue to be a risk to 
us all.
    I am pleased that the international community came together and 
found a common solution. The agreements that are the subject of this 
hearing were developed in cooperation internationally and enjoy strong 
bipartisan support here in the United States. When we all work 
together, we can do great things for our environment. I want to commend 
President Bush and Governor Whitman for their leadership in pressing 
for this convention and delivering their implementing legislation to 
Congress. I am honored to be the lead Senate sponsor of the President's 
implementing legislation, S. 2507.
    I know that Senator Jeffords has also introduced his own version of 
implementing legislation. The purpose of today's hearing is to discuss 
those two proposals. The two bills mirror each other with a few 
differences: The Administration proposal includes a provision to 
implement the PICs agreement--the Jeffords bill does not; the Jeffords 
bill sets out an explicit mechanism for adding future chemicals when 
and if adopted by the international community -the Administration bill 
does not; and, the Jeffords bill provides a role for the National 
Academy of Science and also mandates a dioxin risk assessment.
    I realize that there is some controversy surrounding what mechanism 
the United States should use for the addition of any new chemicals. I 
was pleased when Governor Whitman stated at our press conference 
announcing implementing legislation that it is EPA's intention to work 
closely with the Congress to address the adding mechanism. I take that 
as a good faith and constructive gesture to deal with this issue in a 
bipartisan manner. It is my hope that we can avoid partisan rhetoric 
and find a good consensus answer to what appears to be the only issue 
of substance left to be resolved. It is also my hope that people will 
not use this single point that needs to be worked out as an excuse to 
politicize this process and turn what is a strong bipartisan effort 
into a political battle. The result of making this issue partisan would 
be to delay the implementation of something that EVERYONE wants. As I 
have said over and over again, environmental politics delays 
environmental protection. Let's keep the tone down, work together and 
see if we can solve this lone issue and claim victory on an 
environmental treaty that everyone believes is the right thing.

                               __________
       Statement of Deputy Assistant Secretary Jeffry M. Burnam, 
                          Department of State

    I would like to thank the committee for inviting me here today to 
speak about three treaties which the Administration supports. The three 
treaties are: the Stockholm Convention on Persistent Organic 
Pollutants, or the POPs Convention; the POPs Protocol to the Convention 
on Long-Range Transboundary Air Pollution, or LRTAP POPs Protocol; and 
the Rotterdam Convention on Prior Informed Consent. The POPs Convention 
aims to protect human health and the environment from 12 chemicals that 
are of particular concern in the environment because they have four 
intrinsic characteristics: they are toxic, they have the potential to 
bioaccumulate, they are stable and thus resistant to natural breakdown, 
and they can be transported over long distances. The 12 chemicals 
include: Aldrin, Hexachlorobenzene, Chlordane, Mirex, DDT, Toxaphene, 
Dieldrin, Polychlorinated biphenyls (PCBs), Endrin, Polychlorinated 
dibenzo-p-dioxins (dioxins), heptachlor, and Polychlorinated dibenzo-p-
furans (furans). The POPs Convention was submitted to the Senate for 
advice and consent this week, and we look forward to working with the 
Senate to help ensure early ratification.
    POPs are capable of impacting human health and the environment far 
away from where they are released, including across national borders. 
POPs can have impacts in areas all over the United States, but have 
been of particular concern in Alaska and the Great Lakes Region. These 
chemicals have been linked to adverse human health effects: these 
include cancer, damage to the nervous system, reproductive disorders, 
and disruption of the immune system. These 12 chemicals are banned, 
severely restricted, or controlled in the United States, but are still 
in use abroad in many places. Because they are capable of long-range 
transport, a global treaty to address their human health and 
environmental effects is needed and was sought by the United States.
    The POPs Convention addresses two types of pollutants: 
intentionally produced POPs, such as DDT or PCBs; and unintentionally 
produced POPs, such as dioxins and furans. For intentionally produced 
POPs, the Convention prohibits their production and use, subject to 
certain exemptions such as DDT use for disease vector control. The 
Convention also restricts trade in such substances. For unintentionally 
produced POPs, the Convention requires countries to develop national 
action plans to address these releases, and to apply ``Best Available 
Techniques'' on specified key source sectors to control them.
    Under the POPS Convention, parties must take appropriate measures 
to ensure that POPs wastes are managed in an environmentally sound 
manner. Recognizing the needs of developing countries in managing POPs, 
the Convention includes a flexible system of financial and technical 
assistance by which developed countries will help developing countries 
to meet their obligations under POPS. Finally, the POPs Convention 
creates a science-based procedure that will govern the inclusion of 
additional chemicals to the Convention, including defining the criteria 
that must be met by chemicals proposed to be listed: namely that they 
are toxic, that they bioaccumulate, that they are resistant to natural 
breakdown and that they can be transported over long distances. In the 
language of the Convention, this science-based procedure involves an 
evaluation of ``whether the chemical is likely, as a result of its 
long-range environmental transport, to lead to significant adverse 
human health or environmental effects, such that global action is 
warranted.'' We do not yet know the manner in which the risk management 
factors will be weighed when applied to additional chemicals.
    The implementing legislation submitted by the Administration also 
permits the United States to implement and become a party to two 
additional agreements. The first agreement--closely related to the 
Stockholm Convention--is the POPs Protocol to the LRTAP Convention. 
LRTAP POPS is a regional agreement negotiated under the auspices of the 
United Nations Economic Commission for Europe, which includes the 
United States, Canada, Europe, and the former Soviet Republics. The 
obligations in the LRTAP POPs Protocol are generally similar in nature 
and scope to those in the Stockholm POPs Convention, but are different 
in some ways. For example, LRTAP POPS includes four chemicals not 
included in the Stockholm Convention.
    The other agreement is the Rotterdam Convention on Prior Informed 
Consent, which aims to promote shared responsibility between exporting 
and importing countries in protecting human health and the environment. 
The Rotterdam Convention stipulates that export of certain especially 
hazardous chemicals can only take place with the prior informed consent 
of the importing country. When exported, these chemicals must be 
labeled and accompanied by safety data sheets that explain their 
potential health and environment effects--these requirements are 
similar to those currently in place in the United States. The Rotterdam 
Convention significantly enhances the safe management of chemicals by 
enabling countries, especially developing countries, to identify risks 
and make informed decisions about the importation and use of highly 
dangerous chemicals.
    Together, these three Treaties address a number of chemical 
management problems faced by the international community. They enjoy 
broad support from the public, from environmental and industry 
organizations and from many Members of Congress with whom we have been 
in contact. All of these agreements benefit the health and 
environmental well-being of U.S. citizens and of people all over the 
world.

                                 ______
                                 
Responses of Deputy Assistant Secretary Jeffry M. Burnam to Additional 
                    Questions from Senator Jeffords

    Question 1. Does the Department of State favor the ``opt-in'' 
approach under Article 25 of the Convention in which the U.S. would 
need to affirmatively ratify any new chemical added to the POPs treaty 
before the U.S. would be bound to control that chemical as a POP?
    Response. Yes.

    Question 2. Does the Department of State contemplate a role for 
Congress, in particular, the Senate, in the decision of whether the 
U.S. should agree to regulate a new chemical added to the Stockholm 
Convention?
    Response. Yes. We envision that a decision whether the United 
States should become bound by an amendment to add a new chemical to the 
Convention would be made in consultation with the Senate, given the 
Senate's role in the treatymaking process. We look forward to a 
detailed discussion of that consultation process with the Senate, in 
particular the Senate Foreign Relations Committee, to consider whether 
the Senate's advice and consent would be required for all future 
amendments to the Convention's control annexes. In the event that 
additional legislative authority were required in order to permit the 
United States to implement a particular amendment, then the House of 
Representatives would of course play a role in that legislative 
process.

    Question 3. What role will the Senate have in the addition of new 
POPs to the Stockholm Convention?
    Response. As noted in the answer to question 2 above, we envision 
that a decision whether the United States would become bound by an 
amendment to add a new chemical to the Convention would be made in 
consultation with the Senate, given the Senate's role in the treaty-
making process. We look forward to a detailed discussion of that 
consultation process with the Senate, in particular the Senate Foreign 
Relations Committee, to consider whether the Senate's advice and 
consent would be required for all future amendments to the Convention's 
control annexes.

    Question 4. What role will the Senate have in the addition of new 
POPs under the LRTAP POPs Protocol?
    Response. The LRTAP Convention, and other LRTAP Protocols to which 
the United States is presently a party, were not subjected to the 
advice and consent of the Senate, but were concluded as executive 
agreements that were implemented in accordance with existing statutory 
and regulatory authorities. Assuming the proposed implementing 
legislation for the LRTAP POPs Protocol is enacted, the Administration 
assumes that there would be a good basis for concluding that Protocol 
(and any amendments thereto) in the same manner. We are, however, 
interested in consulting with the Senate on this matter. In any event, 
the Department anticipates that the executive branch would consult 
closely with the Senate (as well as affected U.S. stakeholders) in 
considering whether to become bound by any future amendments to the 
Protocol.

    Question 5. Does the Senate [sic] favor a new role for the National 
Academy of Sciences in the identification of new POPs, as set forth in 
S. 2118?
    Response. The State Department does not believe that a role for the 
National Academy of Sciences is necessary in this legislation.

    Question 6. Did the State Department have adequate technical and 
policy support from EPA in the course of the negotiations for the 
Stockholm Convention?
    Response. Yes. The State Department worked very closely with EPA 
during these negotiations, and we received very effective technical and 
policy support.

                               __________
  Statement of Assistant Administrator Stephen L. Johnson, Office of 
   Prevention, Pesticides, and Toxic Substances, U.S. Environmental 
                           Protection Agency

                            I. INTRODUCTION

    Mr. Chairman and members of the committee, thank you for the 
invitation to appear before you today. It is my privilege to represent 
the U.S. Environmental Protection Agency and to discuss the 
Administration's legislative proposal to effectively implement three 
very important international environmental agreements: The Stockholm 
Convention on Persistent Organic Pollutants (POPs), the Rotterdam 
Convention on the Prior Informed Consent Procedure for Certain 
Hazardous Chemicals and Pesticides in International Trade (PIC) and the 
Protocol on Persistent Organic Pollutants negotiated under the U.N. 
Economic Commission for Europe's Convention on Long Range Transboundary 
Air Pollution (LRTAP POPs Protocol). This afternoon, I respectfully ask 
for your help to expeditiously approve the Administration's legislative 
proposal so that the United States may be able to quickly and 
effectively ratify and implement these important environmental 
agreements.
    The Bush administration is committed to working closely with all 
members of this committee and the U.S. Senate to ensure quick enactment 
of the implementing legislation and subsequent ratification of the 
agreements. We want to work with you to craft legislation that tracks 
the provisions of these agreements and ensures that the United States 
retains its current position as the international leader in chemical 
environmental safety.
    I am pleased to have the opportunity to update the committee on 
EPA's domestic and international activities to effectively manage these 
pesticides and chemicals, our intentions with respect to the listing of 
additional chemicals on the POPs agreements and to explain specific 
provisions of the Administration's draft legislative proposal.
    The Bush administration is firmly committed to ratification of both 
the global POPs Convention, the PIC Convention and the regional LRTAP 
POPs Protocol.
    Here in the United States, we have already taken extensive steps to 
address risks posed by the substances covered by the global POPs 
Convention and the LRTAP POPs Protocol. Stand-alone action by any one 
country is not enough. These chemicals continue to pose real health 
risks to U.S. citizens and to people around the world because they are 
used and released in other countries and travel long distances from 
their source. In the United States, these agreements are of particular 
importance for the people and environment of Alaska, which are impacted 
by POPs transported by air and water from outside the State. This is 
particularly true for Alaskan Natives, who rely heavily on traditional 
diets comprised of fish and wildlife. By joining with the rest of the 
world to phaseout or reduce these toxic pollutants, we protect the 
health and the environment, not only of our fellow Americans, but of 
all those who share our planet.

                II. U.S. ROLE AS AN INTERNATIONAL LEADER

    At EPA, we take the threats posed by these pesticides and chemicals 
to our environment and public health very seriously. The U.S. was the 
first country to begin a thorough scientific reassessment/re-
registration program for pesticides and, I believe, is still the only 
Nation that is looking at the cumulative risks posed by pesticides. 
Other countries look to the United States to provide strong leadership 
in the area of chemical safety. EPA is internationally recognized for 
its sound scientific risk assessments and regulatory decisionmaking. 
Our actions are respected and often replicated in other countries 
across the globe.
    EPA continues to take measures that promote the objectives of the 
POPs Convention. As you know, the Convention contains obligations 
related to providing technical and financial assistance to developing 
countries and countries with economies in transition to help them 
comply with POPs Convention obligations. The U.S. is committed to 
providing financial and technical assistance to assist developing 
countries in ratifying the Convention and meeting their obligations.

III. THE BUSH ADMINISTRATION'S LEGISLATIVE PROPOSAL TO IMPLEMENT POPS, 
                             PIC AND LRTAP

    The Administration's legislative proposal is a culmination of an 
interagency process that provides targeted changes to the Toxic 
Substances Control Act (TSCA) and the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA) in order to track the provisions of these 
three agreements. Because these agreements are largely consistent with 
existing U.S. law, only narrowly targeted adjustments to FIFRA and TSCA 
are necessary for the U.S. to fully implement our obligations under 
them.
    For the currently listed intentionally produced global and LRTAP 
POPs chemicals, the legislation contains language to prohibit any 
production, use, processing, distribution in commerce and disposal 
operations that may be inconsistent with treaty obligations. It also 
contains provisions for specific exemptions from the prohibitions such 
as those needed for research purposes, consistent with the agreements.
    The Administration's legislative language directly tracks 
obligations in the PIC Convention relating to notice of control action, 
export notification, export controls and labeling. With these 
provisions, the U.S. will be able to effectively and expeditiously 
implement this important Convention.
    The Bush administration is fully committed to the listing of 
additional chemicals to the global POPS and regional LRTAP POPs 
agreements. In fact, that's why the Administration's legislative draft 
contains information collection provisions that will ensure that the 
U.S. is as informed as possible of the risks, benefits, production, 
uses and other pertinent factors concerning candidate chemicals when it 
is negotiating amendments to add future chemicals.
    The Administration believes the processes set forth in Article 8 of 
the POPs Convention and the LRTAP Executive Body Decision 1998/2 for 
identifying candidates for listing chemicals are sufficiently rigorous 
and science based and are fully supported by this Administration. We 
are confident that they will identify strong candidates for listing 
based on a scientific risk assessment. However, the parties must still 
work through the details of a decision process for evaluating cost and 
other information for listing additional substances under POPs. The 
Administration is firmly committed to maintaining the high degree of 
analytical and scientific rigor that has led to the international 
recognition for its sound scientific risk assessments and regulatory 
decision making. At this time, we do not have enough experience with 
how, after a decision that a chemical meets certain scientific criteria 
for listing, the Conference of the Parties (COP) of the global POPs 
Convention or the Executive Body of the LRTAP POPs Protocol will weigh 
and balance risk assessment, socioeconomic and other factors (listed in 
Annex F of the global POPs Convention and in Executive Decision 1998/2 
for the LRTAP POPs Protocol) when making final listing decisions and 
deciding on appropriate control measures for the chemical. Both 
Agreements explicitly contemplate bans and restrictions, and possible 
exemptions, as types of risk management outcomes, with chemical 
specific socioeconomic factors being relevant considerations. Since no 
chemical has been through the listing process, however, it is unclear 
how the COP/Executive Body will weigh these factors and arrive at 
appropriate control measures.
    Recognizing that a provision to address the listing of additional 
chemicals is not required to bring the U.S. into compliance upon entry 
into force of these agreements, the Administration determined that it 
would be best to consider these risk management issues in the context 
of the detailed POPs listing process. We believe the experience gained 
at the negotiating table when considering additional chemicals will be 
of great value in conducting the necessary analyses for EPA action. 
Such valuable information, combined with our experience in implementing 
established domestic regulatory standards under FIFRA and TSCA will 
help ensure that EPA's decisions regarding newly listed POPs result in 
the most appropriate and balanced risk management decisions.
    The Administration would also like to recognize Chairman Jeffords 
and Senator Smith for their significant efforts to support the global 
POPs Convention and LRTAP POPs Protocol. We are in the process of 
reviewing the Chairman's implementing legislation, but have not 
completed our analysis of all of the changes proposed by the bill. 
Thus, at this time, we have not developed a formal position on S. 2118. 
However, Administrator Whitman and I are committed to working with 
Senator Jeffords, Senator Smith, Members of the Committee and all 
Members of Congress to ensure expeditious enactment of the best 
legislation possible to implement the POPs, PIC and LRTAP agreements.

                   IV. A CALL FOR SWIFT RATIFICATION

    The Administration is seeking swift ratification of these 
Agreements and, with your support, we will retain our current position 
as a very active player in their implementation. We believe that it is 
especially important to be at the table as a party when crucial early 
implementation decisions are being made and when parties, including the 
U.S. submit proposals to add new chemicals to the global POPs and LRTAP 
POPs Protocol's control annexes. As you may know, the United Nations 
Environment Program (UNEP) intends to hold a forum at the World Summit 
on Sustainable Development in Johannesburg in August to encourage 
countries to deposit their instruments of ratification for the POPs 
Convention with UNEP at the Summit. As a result, the Stockholm 
Convention may come into force soon and it is important that the U.S. 
be a party at that time so that the U.S. can play a strong role from 
the outset of the Convention. Furthermore, the United States would like 
to demonstrate its ongoing commitment to the goals of this important 
treaty and by our example encourage other countries to ratify the 
Convention.

                   V. RATIFICATION IS A U.S. INTEREST

    The Administration is very proud of the U.S.'s leadership role on 
these very important environmental treaties. I am especially proud of 
the POPs treaty because it provides a perfect example of how industry, 
business and environmental interests have worked together to resolve 
serious environmental issues. These three agreements illustrate how 
much can be accomplished in support of common environmental goals. Upon 
ratification, EPA will continue to work with various industry and 
environmental organizations on implementation of the Convention. 
Together with our domestic stakeholders and international 
organizations, we will support the growth of the capacity of developing 
countries to meet the imperative of the sound management of chemicals.
    Thank you for the opportunity to discuss these international 
environmental agreements this afternoon. Again, I want to thank you for 
your support and leadership and assure you that President Bush, 
Administrator Whitman and I are looking forward to working with the 
committee to ratify these important agreements and finalize the 
implementing legislation. I will be pleased to answer any questions.

                               __________
  Statement of Bruce Alberts, President, National Academy of Sciences

    Chairman Jeffords and members of the committee, thank you for the 
invitation to discuss before your committee the proposed bill to 
implement the Stockholm Convention on Persistent Organic Pollutants 
(POPS) and the Convention on long-range Transboundary Air Pollution. I 
am very pleased to be herewith you today.
    Since the role of the National Academy of Sciences and its 
affiliated institutions is to serve as a source of independent expert 
scientific, engineering, and medical advice, I will limit my testimony 
to scientific issues and the possible involvement of our operating arm, 
the National Research Council, in reviewing candidate chemicals for 
possible future inclusion in the conventions, starting with general 
issues and moving to specific drafting issues, I will defer to others 
to address the political and policy issues associated with alternative 
convention ratification strategies.
    Section 107 ``Research Program to Support POPs Convention'' 
contains a provision in which EPA may enter into a contract with the 
National Academy of Sciences to:

          ``(1) develop and apply screening criteria for adding new 
        substances or mixtures to the POPs Convention
          (2) propose alternative designs for a global monitoring 
        program aimed at identifying persistent and bioaccumulative 
        chemical substances . . . and
          (3) recommend priority candidates . . . for possible 
        nomination to the Persistent Organic Pollutants Review 
        Committee . . . of the POPs Convention.''

    It also requests that we consider a list of specific chemicals.
    The National Academies are prepared to assist the U.S. Government 
by providing independent advice on scientifically sound methods for 
screening and analyzing potential POPS. We are also prepared to provide 
advice on the scientific and technical aspects of alternative designs 
for global monitoring programs. In addition, the National Academies 
would be able to prepare reports compiling and assessing relevant 
scientific data on specific; chemicals and mixtures. Indeed, the 
National Academies have a long history of providing such advice, in the 
context of other laws and programs.
    In providing this type of assistance to the government, the 
National Academies convene groups of experts from the academic 
community and other organizations who serve without compensation to 
produce peer-reviewed reports. These experts are carefully chosen to 
provide an appropriate range of expertise and a balance of perspectives 
while avoiding conflicts of interests. Our committees solicit and 
consider public input. The members of our committees serve in their 
individual capacities and not as representatives of any stakeholder 
organizations; their deliberations result in a scientific consensus, 
not a multi-stakeholder consensus. We do not have the same notice and 
public comment typical of the development of Federal regulatory 
policies. We do not consider it our role to recommend specific policies 
for Federal regulation; instead, our role is to provide independent 
expert advice on the scientific basis relevant to such policies.
    The National Academies would be able to produce; an expert report 
recommending alternative designs for a global monitoring; program aimed 
at identifying persistent and bioaccumulative chemical substances. Such 
alternative designs would be driven primarily by scientific and 
practical considerations.
    I turn now to the remaining two requests for assistance from the 
National Academies that are specified in Section 107 of the proposed 
bill. Executive Body Decision 1998/2 of the Convention on Long-Range 
Transboundary Air Pollution and Annex D of the Stockholm Convention 
contain technical criteria for screening prospective chemicals for 
persistence, bioaccumulation, potential for long-range environmental 
transport, and adverse effects. It would be entirely appropriate for 
the National Academies to compile and evaluate data on chemical to 
determine whether or not they meet these criteria, or any similar set 
of specified technical criteria.
    Annex E of the Stockholm Convention and Decision 1998/2 require 
that ``risk profiles'' be developed for candidate chemicals. The 
following types of information are to be included as far as possible.
    <bullet> sources (production, uses, and environmental releases),
    <bullet> hazard assessment.
    <bullet> environmental fate,
    <bullet> monitoring data.
    <bullet> exposures.
    <bullet> bioavailability,
    <bullet> previous assessments and
    <bullet> previous risk management actions
    <bullet> availability of alternatives.
    These risk profiles are used to make decisions on adding specific 
chemicals to these conventions. These final decisions involve 
appropriately, not only scientific criteria, but also policy and 
political considerations, such as costs, benefits, and other 
socioeconomic factors.
    Since non-scientific factors are properly involved in such 
considerations, the National Academies are reluctant to be asked to 
recommend that specific chemicals be added to they POPS Convention. 
Rather, we propose that, if asked to be involved, the National 
Academies be requested: (1) to recommend scientific principles and 
methods for preparing risk profiles, and (2) to apply such principles 
and methods to prepare risk profiles, with information available in the 
United States, for the chemicals listed in Section 107 of the proposed 
bill, as well as for chemicals with similar attributes.
    According to the above proposal, the EPA and the U.S. Government 
would use the risk profiles we develop to make the decisions on what 
chemicals to propose for inclusion in the POPS Convention. These 
decisions would incorporate non-scientific policy considerations as 
well as the scientific considerations that we provide.
    Note that many chemicals can be expected to meet the screening 
criteria of Annex D of the Stockholm Convention but are neither used in 
commerce in the United States nor found in the environment in 
substantial quantities. Less than 100,000 chemicals are currently in. 
commerce, out of more than 38 million chemicals reported in the 
scientific literature. Only a small percentage of the 100,000 chemicals 
in commerce are in large-scale production, and many of those are not in 
processes or uses that are likely to result in significant releases to 
the environment. It would clearly be inappropriate to recommend 
chemicals for inclusion in the convention if they are not of 
environmental significance, and it would be inappropriate for the 
National Academies to ask experts to volunteer their time to review 
such chemicals.
    If called upon to develop the suggested risk profiles, the National 
Academies would need the full cooperation of the EPA. For example, 
preparing such profiles would require the assistance of the agency in 
obtaining unpublished data and information from agency data bases and 
files as well as other internal agency information.
    Section 107 (b) of the bill reads, ``The Administrator may offer to 
enter into a contract with the Academy. . .''. However, the language 
thereafter mandates the specifics of such a contract. We would urge 
that these mandates be softened to recommendations. Such softening 
might remove disincentives for EPA and the Academy to enter into such a 
contract.
    Included in the specifics is a January 1, 2004 date for the 
National Academies to complete a report. We recommend the report be 
described as a ``progress'' report to avoid any misinterpretation of 
the nature of the report. The many activities called for in this bill 
cannot all be completed in 18 months or less. Furthermore, the bill 
fails to specify a starting date for the contract, so the time 
available for the National Academies to perform our work might be 
considerably less than 18 months after the contract is received. We 
suggest that; the requested outcome should be more than a single 
report. Instead, Section 107 could provide a basis for the National 
Academies to furnish longer-term support to the U.S. Government in 
carrying out its responsibilities under the Stockholm Convention and 
the Convention on Long-range Transboundary Air Pollution.
    The term ``research'' is used in several places in the section. 
However, we want to be clear thaw, if the National Academies undertake 
these activities, we will not be generating new scientific data. Rather 
we will be compiling, analyzing, synthesizing, and reporting data and 
information that has already been developed by others.
    In sum, the National Academy of Sciences, through its operating 
arm, the National Research Council is prepared to assist the U.S. 
Government in carrying out its responsibilities under the Stockholm 
Convention and the Convention on Long-range Transboundary Air 
Pollution. To do so would entail the development of several reports 
providing independent scientific advice, leaving the weighing of the 
important policy and political considerations to the government.
    Again, thank you for the opportunity to discuss this important bill 
with you today.

                                 ______
                                 
  Response of Warren Muir to Additional Question from Senator Jeffords

    Question. In your testimony you offer to ``recommend scientific 
principles and methods for preparing risk profiles.'' Don't methods 
already exist for preparing risk profiles?
    Response. Although the Convention describes certain screening 
criteria for chemicals and scientific information requirements for the 
risk profiles, some of the requirements are stated in very general 
terms and are subject to wide interpretation. The National Academies 
would propose to further define and expand upon these requirements to 
create useful scientific methods and principles for application to the 
evaluation of potential persistent organic pollutants.

                               __________

Statement of John Buccini, Chairman, UNEP Intergovernmental Negotiating 
                               Committee

    Mr. Chairman and members of the committee. My name is John Buccini 
and I am here today, in response to your invitation, in my capacity as 
Chairman of the UNEP Intergovernmental Negotiating Committee that 
developed the Stockholm Convention on Persistent Organic Pollutants 
(POPs). Recognizing that I am here primarily to respond to any 
questions that the committee may pose, I will confine my opening 
remarks to a few observations about the treaty and its development.
    The Stockholm Convention has as its objective, the protection of 
human health and the environment from POPs. It was developed in 
response to an acceptance by the international community of the need to 
take collective global action to reduce and/or eliminate the generation 
and release of POPs. This acceptance was based on the recognition that 
the continued generation and release to the environment of POPs is not 
a sustainable practice as once released into the environment, POPs 
undergo widespread environmental distribution through natural 
processes, contaminate environmental media and living organisms 
including the food chain, persist for very long periods of time, and 
pose a threat to present and future generations of both humans and 
wildlife.
    The process of developing the convention was initiated in May 1995 
by the United Nations Environment Programme (UNEP). In March 1996, an 
agreement was reached that there was sufficient scientific evidence 
available to justify taking immediate international action on POPs. 
This agreement has underpinned and given a sense of urgency to the 
efforts made by stakeholders from all sectors of society including 
governments, intergovernmental organizations, nongovernmental 
organizations (including both industry and public interest groups) and 
aboriginal groups.
    The activities involved in developing the convention have resulted 
in a broad acceptance of the urgent need for action in countries around 
the world. This is demonstrated by the fact that less than 1 year after 
the convention was opened for signature in Stockholm on May 23, 2001, 
128 countries and the European Community have signed the treaty and 7 
have become Parties through ratification or accession. Another 
indicator is the number and nature of the actions that stakeholders are 
taking to address the risks posed by POPs. Based on an annual UNEP 
survey of representatives of all stakeholder groups, about 110 
countries are already active in taking action to address POPs and 
actions are also being taken by the public, industry and aboriginal and 
public interest groups around the world. As an example, the 
International POPs Elimination Network was established during the 
negotiation of the treaty and today includes over 400 public interest 
groups from countries around the globe with programs to address POPs 
issues at the local, national, regional and international levels. This 
is indeed encouraging to note.
    Let me now turn to the convention itself. In my view, there are 
three key provisions in the treaty--the controls on 12 POPs, the 
evaluation of future candidates for addition to the treaty, and 
financial and technical assistance for developing countries and 
countries with economies in transition.
    The control provisions of the convention address three areas: 
intentionally produced POPs, unintentionally produced POPs, and POPs in 
stockpiles and wastes.
    For intentionally produced POPs (industrial chemicals and 
pesticides), the goal of the convention is to eliminate their 
production and use and measures are specified for 10 chemicals. To 
prevent the introduction into commerce of new POPs, Parties with 
regulatory and assessment schemes for industrial chemicals and 
pesticides will, in conducting assessments of new substances, take 
``measures to regulate with the aim of preventing the production and 
use of'' new POPs. In assessing the risks posed by in-use substances, 
Parties will consider the screening criteria for candidates for 
addition to the Convention (specified in Annex D) to identify, at the 
earliest opportunity, candidates for further consideration.
    For unintentionally produced POPs (byproducts of industrial and 
combustion processes, such as dioxins and furans) the convention goal 
is the continuing minimization and, where feasible, the ultimate 
elimination of the total releases of such POPs derived from 
anthropogenic sources. An approach has been developed that enables each 
country to define its priorities, develop a national action plan within 
2 years of entry into force of the convention, and then implement the 
plan.
    For stockpiles and wastes, the goal is to ensure the 
environmentally sound management of stockpiles that consist of or 
contain intentionally produced POPs, and of wastes, including products 
and articles upon becoming wastes that consist of, contain or are 
contaminated with intentionally or unintentionally produced POPs. 
Measures are specified to prevent the reuse or recycling of POPs and to 
manage these materials to prevent releases to the environment of POPs 
during storage, handling, transport or disposal activities.
    The second major provision is a science-based approach to 
systematically identify and review future candidate chemicals for 
addition to the convention. The process and scientific criteria for 
this provision are specified in the convention and a POPs Review 
Committee will be established at the first meeting of the Conference of 
the Parties to evaluate nominations submitted by Parties. Considerable 
attention was paid to the need for openness and transparency in this 
process to ensure that all candidates will be fully and fairly 
evaluated.
    In the third major provision, the convention specifies that 
developing countries and countries with economies in transition will 
need technical and financial assistance and that regional and 
subregional centres will be established for capacity building and the 
transfer of technology to assist countries in need. Developed countries 
have agreed to provide technical assistance and new and additional 
financial resources to meet agreed full incremental implementation 
costs. The Global Environment Facility is named as the principal entity 
of the interim financial mechanism to handle funding of capacity 
building and other related activities. Financial support has already 
begun to flow and an estimated 50 countries have already initiated 
action to prepare their national plans to implement the convention. 
This is indeed encouraging.
    In my view, the Stockholm Convention represents a significant 
advance in protecting health and the environment from what many regard 
as the most toxic chemicals that have ever been produced. There is a 
high level of interest and activity among all stakeholder groups in the 
POPs area and I expect that this will continue into the future. In this 
regard, I am pleased to note that you have invited both industry and 
environmental non-government organizations to appear before you during 
this session.
    The current rapid pace of signature and ratification of the 
convention augurs well for continued international action on POPs. The 
convention will enter into force 90 days after 50 Parties have ratified 
it. Many contend that the urgent nature of POPs problems warrants 
expedited entry into force and concerted, collective actions to address 
these problems and their solutions. Some stakeholders have urged 
governments around the world to ratify the POPs treaty prior to the 
Johannesburg Summit in August of this year.
    In closing, I wish to state my hope that the United States will be 
among the Parties attending the first Conference of Parties, given the 
important decisions that must be taken at that meeting to implement the 
convention and the role that the United States can play in these 
matters. I look forward to the United States being a full and effective 
contributor in implementing the new international controls on POPs 
under the Stockholm Convention. I note that the U.S. Government is 
proceeding in an expeditious manner to ratify and implement the 
convention and I am pleased to be here today to provide any information 
that may be of assistance in that process.

                               __________

Statement of Brooks B. Yeager, Vice President for Global Threats, World 
                             Wildlife Fund

    Mr. Chairman and members of the committee: On behalf of World 
Wildlife Fund's 1.2 million members, thank you for the opportunity to 
testify on the implementing legislation for the Stockholm Convention on 
Persistent Organic Pollutants (POPs). Known worldwide by its panda 
logo, World Wildlife Fund (WWF) is dedicated to protecting the rich 
biological diversity on which the prosperity and survival of human 
societies depends. As the leading privately supported international 
conservation organization in the world, WWF has sponsored conservation 
work in more than 100 countries since 1961.
    For the record, I am Brooks Yeager, Vice President for Global 
Threats at WWF, where I supervise campaigns to conserve global forests 
and ocean resources, to avert damage to the global environment from 
climate change and toxic pollution, and to ensure the environmental 
sustainability of global commerce. Before joining WWF, I served as the 
Deputy Assistant Secretary for Environment and Development at the U.S. 
State Department. At State I was responsible for the development and 
negotiation of U.S. Government policy in a range of bilateral and 
global environmental discussions and undertakings. These included the 
Convention on Biological Diversity (CBD), the CBD Biosafety Protocol, 
the Global Environment Facility, the International Coral Reef 
Initiative (ICRI), the International Tropical Timber Organization, and 
United Nations forest discussions.
    I also served as the United States' lead negotiator for the 
Stockholm POPs Convention. We are here today to discuss the 
implementing legislation for this ground-breaking treaty. With your 
permission, I will try to distinguish the views I express on behalf of 
WWF from those observations I can make from my involvement on behalf of 
the U.S. Government in the Convention's development.
    The Stockholm POPs Convention represents the most important effort 
by the global community, to date, to rein in and ultimately halt the 
proliferation of toxic chemicals. It's an agreement that is at once 
ambitious, comprehensive, and realistic. The treaty targets some of the 
world's most dangerous chemicals--POPs include pesticides such as 
chlordane, industrial chemicals such as PCBs, and by-products such as 
dioxins.
    POPs pose a particular hazard because of four characteristics: they 
are toxic; they are persistent, resisting normal processes that break 
down contaminants; they accumulate in the body fat of people, marine 
mammals, and other animals and are passed from mother to fetus; and 
they can travel great distances on wind and water currents. Even small 
quantities of POPs can wreak havoc in human and animal tissue, causing 
nervous system damage, diseases of the immune system, reproductive and 
developmental disorders, and cancers.
    Persistent organic pollutants are a threat to human health, 
wildlife, and marine and terrestrial ecosystems in the United States 
and around the world. From Alaska to the Great Lakes to Florida, 
Americans face an insidious but largely invisible threat from POPs 
chemicals. Despite more than two decades of U.S. efforts to control 
POPs pollution, POPs used and released in other countries--often 
thousands of miles from our borders--continue to contaminate our lands 
and waterways, the food we eat, and the air we breathe.
    Our government made a concerted effort, starting not long after the 
publication of Rachel Carson's pathbreaking Silent Spring, to eliminate 
the production and use of known POPs chemicals in the United States--
yet we are still vulnerable to POPs pollution. Our environment, 
wildlife, and human health continue to be affected by POPs from 
unremediated contaminated sites at home and the production and use of 
POPs elsewhere in the world. This last fact is central to understanding 
the United States' strong national interest in the success of this 
global effort to reduce and eliminate POPs. POPs' mobility in air and 
water currents, for example, makes possible their presence along with 
metals and other particulates in incursions of Saharan dust into the 
continental United States. African dust is the dominant aerosol 
constituent in southern Florida's dense summer hazes. Similarly, one 
potential source of DDT in some salmon returns to Alaska rivers is its 
extensive use in Asian agriculture. A global mechanism to reduce these 
``chemical travelers without passports'' is necessary, urgent, and very 
much in our national interest.
    [Note: ``A Toxic Hot Spots'' map submitted with this testimony will 
be referred to in relation to statements made in the prior paragraph.]
    The Stockholm POPs Convention was negotiated by more than one 
hundred and twenty governments over a 4-year period. As the head of the 
U.S. delegation, I was responsible for developing the United States' 
negotiating objectives and strategies, and for assuring that our 
national interest, positions, and requirements were reflected in the 
final text. Development of the U.S. position was accomplished through a 
thorough, not to say exhaustive, domestic process involving regular 
consultations with seven domestic agencies, industry, the environmental 
and public health communities, native American representatives, and 
various interested state governments, including the State of Alaska.
    This careful process of developing the U.S. negotiating position is 
one of the reasons, I believe, that President Bush's decision to sign 
the Stockholm Convention last April received such broad support. WWF 
and many others--including the chemical industry, environmental and 
public health organizations and Members of Congress on both sides of 
the aisle--applauded the President's Rose Garden announcement. We are 
pleased that the President has decided to send the treaty package to 
the Senate for ratification.
    In fact, both industry and environmental representatives made 
important contributions to the final product. I would like to note in 
particular the constructive roles played by Mr. Michael Walls and Mr. 
Paul Hagen of the American Chemistry Council (ACC). A letter to 
Governor Whitman on February 26, 2002, from Mr. Frederick Webber, ACC's 
President and CEO, noted that,

          ACC strongly recommends that the Administration seek the U.S. 
        Senate's advice and consent to ratification as soon as 
        possible. We believe it is important for the United States to 
        continue its leadership role in the global effort to address 
        the risks posed by POPs emissions, and believe that the United 
        States should make every effort to be among the first 50 
        countries ratifying the Convention.

    WWF looks forward to working with our environment and public health 
NGO colleagues, indigenous peoples, the ACC and other business groups, 
and other stakeholders in moving forward the POPs implementing 
legislation and treaty ratification packages as expeditiously as 
possible.
    The POPs treaty represents a significant and innovative 
breakthrough in global chemicals management, calling for concrete steps 
to restrict or phaseout dangerous chemicals rather than relying on 
expensive, end-of-pipe measures such as pollution scrubbers and 
filters. The treaty's ambitious control obligations were developed with 
enough flexibility that they can be accomplished largely within the 
established U.S. statutory and regulatory structure. As we will discuss 
today, only limited adjustments are needed to the Federal Insecticide, 
Fungicide, and Rodenticide Act (FIFRA) and the Toxic Substances Control 
Act (TSCA).
    In Stockholm in May 2001, the POPs treaty was signed by 91 
governments and ratified by two. Already those numbers have climbed to 
128 signatories and the equivalent of 7 Parties (six ratifications and 
one accession) as of May 1, 2002. WWF is working with governments 
around the world in the hope of generating the required 50 
ratifications by the World Summit on Sustainable Development in late 
August in Johannesburg, South Africa, so that the treaty can enter into 
force before the end of 2002. This is an ambitious target, but one 
fully justified by the urgency of the problem. WWF believes that the 
Johannesburg Summit presents a significant opportunity for American 
leadership in the global effort to eliminate POPs, as well as in 
broader issues affecting the global environment and human development. 
Achieving Senate advice and consent for ratification within the next 15 
weeks is admittedly a much-accelerated timeframe, but with energy and 
determination we believe this is achievable. Enacting implementing 
legislation in such a period may be even more challenging, but we urge 
you to try and do so.
    WWF extends heartfelt thanks and congratulations to Senator 
Jeffords and his staff on the Senate Environment and Public Works 
Committee for introducing sound, forward-thinking legislation to 
implement the POPs treaty.

               OVERVIEW OF THE STOCKHOLM POPS CONVENTION

    Before delving into the specifics of the implementing legislation, 
a brief overview of the structure and mechanisms of the Stockholm POPs 
Convention may be in order. The POPs treaty is designed to eliminate or 
severely restrict production and use of POPs pesticides and industrial 
chemicals; ensure environmentally sound management and chemical 
transformation of POPs waste; and avert the development of new 
chemicals with POPs-like characteristics.
    Eliminating intentionally produced POPs. The agreement targets 
chemicals that are detrimental to human health and the environment 
globally, starting with a list of 12 POPs that includes formerly used 
pesticides, dioxins, and PCBs. Most of the pesticides are slated for 
immediate bans once the treaty takes effect. A longer phase-out (until 
2025) is planned for certain PCB uses. With regard to DDT, the 
agreement sets the goal of ultimate elimination, with a timeline 
determined by the availability of cost-effective alternatives for 
malaria prevention. The agreement limits use in the interim to disease 
vector control in accordance with World Health Organization guidelines, 
and calls for research, development, and implementation of safe, 
effective, and affordable alternatives to DDT.
    Ultimately eliminating byproduct POPs. For dioxins, furans, and 
hexachlorobenzene, parties are called on to reduce total releases with 
the goal of their continuing minimization and, where feasible, ultimate 
elimination. The treaty urges the use of substitute or modified 
materials, products, and processes to prevent the formation and release 
of by-product POPs.
    Incorporating precaution. Precaution, including transparency and 
public participation, is a guiding approach throughout the treaty, with 
explicit references in the preamble, objective, provisions for adding 
POPs, and determination of best available technologies.
    Disposing of POPs wastes. The treaty includes provisions for the 
environmentally sound management and disposal of POPs wastes (including 
stockpiles, products, articles in use, and materials contaminated with 
POPs). The POP content in waste is to be destroyed, irreversibly 
transformed, or, in very limited situations, otherwise disposed of in 
an environmentally sound manner in coordination with Basel Convention 
requirements.
    Controlling POPs trade. Trade in POPs is allowed only for the 
purpose of environmentally sound disposal or in other very limited 
circumstances where the importing State provides certification of its 
environmental and human health commitments and its compliance with the 
POPs treaty's waste provisions.
    Allowing limited and transparent exemptions. Most exemptions to the 
treaty requirements are chemical- and country-specific. There are also 
broader exceptions for use in laboratory-scale research; for small 
quantities in the possession of an end-user; and for quantities 
occurring as unintentional trace contaminants in products. Notification 
procedures and other conditions apply to exemptions for POPs as 
constituents of manufactured articles and for certain closed-system 
site-limited intermediates.
    Funding commitments enabling all countries to participate. The 
ability of all countries to fulfill their obligations will be integral 
to the treaty's success. The treaty contains a sensible and realistic 
financial mechanism, utilizing the Global Environment Facility (GEF), 
through which donor countries have committed to assisting developing 
countries and transitional economies in meeting their obligations under 
the treaty. Adequacy, predictability, and timely flow of funds are 
essential. The treaty calls for regular review by the Conference of 
Parties of both the level of funding and the effectiveness of 
performance of the institutions entrusted with the treaty's financial 
operations.

           THE POPS TREATY AS A CAREFUL BALANCE OF INTERESTS

    In my view, Mr. Chairman, this is a solid and carefully crafted 
treaty. But it is also a treaty that reflects a careful balance of 
interests achieved through negotiation and compromise. The U.S. 
interest, as we articulated it during the negotiations, was to achieve 
an ambitious treaty that would address the global environmental damage 
caused by POPs, but do so in a way that would be practical, 
implementable, financially efficient, and consistent with the 
fundamental structure of our national approach to chemical regulation.
    Other countries had different interests, some similar, some at 
variance with ours. The developing countries were neither willing nor 
able to invest in what to them was a new environmental priority such as 
POPs control and remediation without financial and technical assistance 
from the developed world. The G-77 negotiators insisted throughout the 
negotiation on a new financial mechanism, specific to the Convention, 
with mandatory assessments. The establishment of the GEF as the 
Convention's interim financial mechanism represents a genuine 
compromise in which the donor countries committed to provide additional 
financial resources, but through a channel with a proven track record 
and one over which donor countries exert significant control.
    Similarly, the EU and a number of other countries insisted early in 
the negotiations on a framework for regulating byproducts such as 
dioxins based on quantitative baselines and mandatory percentage 
reductions. The United States and some developing countries considered 
this unrealistically rigid, in view of the highly varying levels of 
knowledge regarding dioxin sources in various national contexts and the 
even higher variation among countries in the capacity to address such 
sources. The framework for dioxin regulation which emerged sets an 
ambitious goal of `ultimate elimination . . . where feasible,' but 
seeks to reach this goal through a nationally driven process of 
inventory, planning, and appropriate regulation, under guidance from 
the Convention. This too was a genuine compromise that should produce 
real progress in dioxin source reduction in the coming years.
    The process of balancing interests and finding a unified way 
forward was critical to developing a consensus as to how to add new 
POPs chemicals to the treaty over time. All parties clearly recognized 
that the Convention could not be successful if it were limited solely 
to the 12 chemicals already on the POPs list. All parties recognized, 
and stated, that the Convention was intended to be dynamic rather than 
static. But the question of what scientific and institutional process 
to use in adding chemicals to the list was fraught with difficulties 
and misunderstandings.
    For the United States, it was critical that this process be 
scientifically driven and not subject to political whim. Some in the 
U.S. feared that other countries might be almost cavalier in adding 
chemicals to the list, and that such an approach would distort the 
treaty and distract parties from the strong efforts needed to deal with 
the chemicals already on the list.
    For some in the EU and elsewhere, it was critical that the process 
for adding chemicals not be subject to endless procedural roadblocks. 
This concern reflected an anxiety that the affected industries or 
governments might use procedural challenges to block the addition of 
chemicals that would legitimately qualify for the list on scientific 
grounds, and that this approach would impede the effectiveness of the 
Convention over time.
    The procedure for adding new chemicals which was finally adopted 
is, once again, a genuine compromise, but one which, in my view, 
successfully protects the U.S. interest in every respect. It may be 
useful to give a short account of the negotiations on this important 
issue.
    First, the U.S. negotiating team insisted on, and successfully 
negotiated, the scientific criteria according to which a nominated 
chemical would be evaluated. These criteria are contained in Annex D of 
the Convention. Then we negotiated the process through which these 
criteria should be applied, by a scientific screening committee (the 
so-called POPs Review Committee or 'POPRC'), working under the 
supervision of the Conference of the Parties (the COP). Finally, we 
negotiated the terms under which the COP would review the 
recommendation of this scientific group, the conditions under which the 
COP could make a decision to add or reject a chemical, and the 
procedures for party governments to accept or reject the COP's 
decision.
    The process which emerged is described in more detail in our 
substantive discussion of the new chemicals provisions. Let me just say 
here that it offers the United States the safeguards of rigorous 
science, a careful review procedure, a high institutional threshold for 
COP decisions to add chemicals, and the right to reject the addition of 
a new chemical, if appropriate. In addition, this compromise also 
successfully resolved, at least in this context, the long-running 
controversy between the United States and the European Union on the 
subject of precaution, and did so in a way which may have useful 
applications in the future.

   CONGRESSIONAL ACTION NEEDED TO IMPLEMENT THE STOCKHOLM CONVENTION

    The Congressional action necessary to implement the POPs treaty 
must come in two areas--financial support and implementing legislation.
POPs Financial Support
    Negotiators agreed to request that the Global Environment Facility 
serve as the treaty's principal financial mechanism, on an interim 
basis. It is WWF's strong view that the GEF must be fully funded in 
order to provide sufficient resources for developing countries to begin 
to eliminate POPs. In order to take on the added responsibility of 
assisting the global effort to eliminate POPs without robbing its other 
critical priorities, the GEF needs to be replenished at a higher level. 
It will take American leadership to do this. The Administration's 
$177.5 million FY03 request for the GEF, including paying a portion of 
U.S. arrears, is an important first step towards this goal. We urge the 
committee to work with the Appropriations Committee to fully fund the 
Administration's $177.5 million request, and to allow the President 
sufficient flexibility within the request to position the United States 
to lead efforts to replenish the GEF at the level necessary.

                     POPS IMPLEMENTING LEGISLATION

    As WWF has not had an opportunity to review the official 
transmission from the Administration, our comments will be directed 
primarily to the Chairman's bill, S. 2118. We would be happy to submit 
comments on the Administration's bill at a later date.
    S. 2118 amends FIFRA and TSCA (the first amendments to TSCA since 
its enactment in 1976) to implement both the Stockholm POPs Convention 
and the Protocol on POPs to the Convention on Long-Range Transboundary 
Air Pollution (LRTAP POPs Protocol). My comments will address primarily 
the implementing legislation for the Stockholm Convention.
    S. 2118 would provide EPA with the authority to prohibit 
manufacture of the 12 POPs identified in the Stockholm Convention 
annexes as well as other POPs subsequently added to the Convention. The 
legislation also includes related provisions calling on the National 
Academy of Sciences to develop new methodologies for screening future 
POPs candidates.
    First and foremost, I would like to address the provisions for 
adding new chemicals to the treaty. Speaking both as the lead U.S. 
negotiator and in my capacity for WWF, I want to emphasize the 
importance of including the targeted statutory amendments needed to add 
other chemicals to the treaty.
    The international community envisioned a dynamic instrument that 
could take into account emerging scientific knowledge about chemicals 
beyond the initial 12. Integral to the treaty is a process for 
nomination, science-based assessment (including risk profiles and risk 
assessments), and decisionmaking that involves both the subsidiary POPs 
Review Committee and the Conference of Parties before a substance can 
be added to the treaty's annexes. Unless this element of the treaty is 
considered to be self-executing, the legal mechanism to eliminate the 
production, use, and export of new POPs must be reflected in the 
implementing legislation. We applaud Senator Jeffords for including in 
his bill the critical amendments to TSCA and FIFRA to regulate 
subsequent additions.
    WWF and other environmental and public health organizations stand 
alongside the chemical industry in voicing our support for full 
implementation. Again to quote from the American Chemistry Council's 
letter to Governor Whitman,

          ACC believes it is possible to craft appropriate amendments 
        to TSCA and FIFRA to reflect the treaty additions process . . . 
        . Although we have not yet seen the Administration's draft 
        implementing legislation, we are confident that matters 
        concerning the substance selection process can be addressed as 
        necessary in the course of the legislative process.

    It is our understanding that both the Jeffords bill and the 
Administration proposal are based on a legislative proposal crafted by 
EPA and other U.S. Government agencies last summer, but the 
Administration removed these essential provisions for adding new POPs 
from its final implementing package.
    The Administration's proposal apparently envisions a case-by-case 
revision of domestic legislation for each POP candidate beyond the 
initial 12. Such an approach risks politicizing decisions that would 
otherwise be based on sound science. Moreover, we find it hard to 
believe that Congress will be willing or able to repeatedly reopen 
domestic laws such as TSCA and FIFRA which have rarely if ever been 
amended.
    In our view, as I have already mentioned, the Convention as 
negotiated provides the U.S. with a great deal of flexibility in 
deciding whether and how to take domestic action against future POPs:
    <bullet> The international selection process involves input from 
all countries that are Parties to the Convention: Article 8 of the 
Convention provides for the evaluation and addition of chemicals beyond 
the initial 12. Upon entry into force, the Conference of the Parties 
(COP) will establish a Persistent Organic Pollutants Review Committee 
(POPRC). Parties will submit chemical nominations to the POPRC, which 
will evaluate them based on agreed scientific criteria including 
persistence, bioaccumulation, long-range transport, and toxicity. The 
POPRC must prepare a draft risk profile in accordance with Annex E, to 
be made available for input from all Parties and observers. The POPRC 
will then make recommendations that must be approved by the entire 
Conference of the Parties before a nominated chemical can be added to 
the treaty as a binding amendment.
    <bullet> The Convention does not automatically obligate the U.S. to 
eliminate each new POP that is added internationally: Under Article 
22(3) of the Convention, COP-agreed amendments to add new chemicals 
become binding upon all Parties, subject to the opportunity to ``opt 
out'' of such obligations within 1 year. However, there exists another 
safeguard under Article 25(4), which was proposed by the U.S., allowing 
a Party to declare when ratifying the Convention that it will be bound 
by new chemical amendments only if it affirmatively ``opts in'' via a 
separate, subsequent ratification process. The State Department has 
indicated that the U.S. will take advantage of the ``opt in'' 
provision, enabling the Senate to give its advice and consent to the 
addition of each new POP in the future.
    Including these and other safeguards in the POPs treaty was a major 
objective of U.S. negotiators, and one which I believe was fully 
achieved. At the end of the long, hard concluding week of negotiations 
in Johannesburg in December 2000, I can say that the U.S. negotiators 
felt extremely pleased with the balance of the treaty, and were fully 
satisfied with the particular provisions for the addition of new 
chemicals. In my view, the Administration's reluctance to include 
authority to regulate new POPs--the so-called 13th POP, and beyond--
cannot be justified by any need to add to an already elaborate system 
of protections. It is also my view that the absence of such provisions 
jeopardizes U.S. participation in the Convention, and will injure the 
credibility of the United States in this context.
    We recognize that broad options exist for regulating additional 
POPs under U.S. law. Two major options can be considered for amending 
TSCA and FIFRA to deal with future POPs under the Convention. The first 
option would amend these statutes to allow for automatic regulation of 
new POPs once the United States ``opts in'' to the corresponding treaty 
amendments. This option is preferred by environmental and public health 
NGO's, given the other existing safeguards described above. The second 
option, according to Administration officials, would provide that a 
``rebuttable presumption'' be given to the COP's decision on a new POP, 
while preserving the right to make a persuasive case that modified 
controls are necessary.
    From the point of view of an environmental organization, in view of 
the safeguards built into the treaty mechanism itself, it would make 
sense to make regulation of newly listed POPs automatic, triggered by 
the government's decision to ``opt in'' to the listing under Article 
25(4). While the rebuttable-presumption language contained in S. 2118 
offers the additional reassurance of a domestic process of notice and 
comment, which may be attractive for some interests, we would note that 
FIFRA's special review and cancellation process, if challenged, 
generally takes at least 5 years and often more than 10. This is 
clearly far too long a period to revisit, via the procedures set forth 
in domestic regulations that govern the cancellation process, a 
scientific conclusion and policy decision already taken by the 
government in its role as a party to the Convention.
    One solution to this dilemma might be to amend the cancellation 
process so that when a pesticide is listed as a POP, or in the judgment 
of EPA deserves to be listed as a POP, the EPA's evidentiary burden 
would be restricted to proving that the basic POPs listing criteria 
apply--thereby precluding a full FIFRA cost-benefit analysis. 
Administrative review would be limited to the data and scientific 
judgments supporting EPA's conclusion that the POPs criteria apply to a 
given pesticide.
    In addition, it is important that the legislation ensure the 
elimination of any POPs pesticide--whether registered for a formulated 
end-use product or a technical material--to enable U.S. compliance with 
obligations under the POPs treaty. In other words, each of a 
pesticide's registrations--the one covering ``technical material,'' 
i.e., the pure active ingredient, and the second for ``end-use 
products'' formulated with the addition of inert ingredients 
(surfactants, emulsifiers, carriers, etc.)--should count as ``existing 
registrations'' even if the pesticide is not being actively marketed or 
used in the United States.
    In step with the cancellation action (but lagged by about 2 years 
to allow channels of trade to clear), whenever a pesticide is listed as 
a POP, EPA should be directed to phaseout all tolerances covering food 
uses of the pesticide. Likewise, listing as a POP should be enough to 
trigger EPA revocation of any ``import tolerances'' or exemptions. 
Revocation of a tolerance is the only tool the EPA has to alter how 
high-risk pesticides are used outside U.S. borders--and to protect 
human health inside the United States. Tolerances set in the United 
States can serve as de facto global standards because so many countries 
depend on access to the U.S. market and because changes in U.S. 
tolerance levels often trigger changes in the international Maximum 
Residue Limits set by Codex.
    WWF is undertaking a thorough assessment of these issues as 
presented in S. 2118, with the intent of assisting the committee in 
assuring that any changes to FIFRA and TSCA effectively and efficiently 
carry out the aims of the POPs treaty. We would be happy to share that 
analysis upon completion.
Research Program to Support POPs Convention
    WWF is pleased to see that S. 2118 calls for a program of 
scientific research to assist the U.S. Government in meeting its 
obligations under the POPs treaty. The bill directs the National 
Academy of Sciences to review scientific models and testing methods for 
screening candidate POPs; to propose alternative designs for a global 
monitoring program on persistent and bioaccumulative substances; and to 
recommend priority POPs chemical substances or mixtures for possible 
nomination to the POPRC.
    WWF strongly supports these provisions, which are described in 
Section 107 of the bill. While not essential to the legislation 
amending TSCA and FIFRA, the research provisions are a valuable 
complement to POPs treaty implementation. They will help ensure that 
proposals for subsequent additions to the treaty target the worst 
offenders and are supported by sound testing methods, risk assessment 
models, and environmental monitoring techniques. Carrying out this 
program of rigorous scientific research on POPs places the United 
States in a strong position not only to nominate the most appropriate 
candidates for future POPs but also to question any proposed listings 
that are based on misguided information or inaccurate data.
    The Chairman's bill also very appropriately calls upon the 
Administrator of EPA to submit no later than 90 days after enactment of 
S. 2118 the agency's final exposure and human health reassessment of 
2,3,7,8-Tetrachlorodibenzo-p-Dioxin (TCDD) and related compounds, which 
are among the most dangerous POPs. In this regard, less than 2 weeks 
ago the U.S. General Accounting Office released a report, 
``Environmental Health Risks: Information on EPA's Draft Assessment of 
Dioxins.'' In its transmittal letter, the GAO notes that, according to 
EPA officials, the assessment will conclude that (p. 1)

          dioxins may adversely affect human health at lower exposure 
        levels than previously thought and that most exposure to 
        dioxins occurs from eating such dietary staples as meats, fish, 
        and dairy products, which contain minute traces of dioxin. 
        These foods contain dioxins because animals eat plants and 
        commercial feed, and drink water contaminated with dioxins, 
        which then accumulate in animals' fatty tissue.

    The GAO report is significant in that it endorses the work 
undertaken thus far by EPA and provides a solid basis for the long-
awaited reassessment to be expeditiously completed and released. 
Release of the dioxin reassessment will contribute important 
information relevant to actions that may be required to address dioxins 
and other unwanted byproducts under the POPs treaty, measures that 
would benefit citizens in the United States and other countries.

                          LRTAP POPS PROTOCOL

    WWF also supports the inclusion of implementing legislation for the 
Economic Commission for Europe's Long-Range Transboundary Air Pollution 
(LRTAP) POPs Protocol. An outgrowth of scientific findings linking 
sulfur emissions in continental Europe to acid deposition in 
Scandinavian lakes, LRTAP was the first legally binding agreement to 
address air pollution problems on a broad regional basis. Parties to 
LRTAP include the United States, Canada, and Western and Eastern 
European countries including Russia.
    The LRTAP POPs Protocol--the first legally binding multi-lateral 
instrument on POPs--was added in 1998. It targets 16 substances 
including the 12 POPs chemicals plus chlordecone, hexabromobiphenyl, 
and hexachlorocyclohexane (including lindane). It also includes 
obligations to reduce emissions of polycyclic aromatic hydrocarbons 
(PAHs) which--as with other byproduct chemicals--do not require changes 
to TSCA or FIFRA. Although the LRTAP POPs Protocol includes more 
chemicals than the POPs treaty, it is not a replacement. LRTAP deals 
with transmission of POPs through only a single medium (air); confines 
its reach to northern, largely European countries; and does not address 
many of the issues involving developing countries.
    To date, eight countries have ratified the LRTAP POPs Protocol out 
of 15 needed for entry-into-force. WWF would welcome U.S. participation 
in these regional efforts. Given POPs' global reach, however, a 
realistic and comprehensive solution needs to include developing 
countries as well. The United States and other donor countries must 
assist the developing world in coming to grips with the POPs problem--
and the global POPs treaty is the ideal vehicle through which to do 
this.

             ROTTERDAM CONVENTION ON PRIOR INFORMED CONSENT

    We are pleased to see that the Administration has bundled the 
Rotterdam PIC Convention in its implementing legislation alongside the 
POPs treaty and the LRTAP POPs Protocol. The PIC treaty alerts 
governments as to what chemicals are banned or severely restricted, by 
which governments, and for what reasons. The cornerstone of the treaty 
is prior informed consent, a procedure that enables Parties to review 
basic health and environmental data on specified chemicals and to 
permit or refuse any incoming shipments of those chemicals. Each 
Party's decisions are disseminated widely, allowing those countries 
with less advanced regulatory systems to benefit from the assessments 
of those with more sophisticated facilities. Instituting PIC is a 
critical first step in the process of improving chemical management 
capacity.
    The PIC treaty includes provisions for:
    <bullet> alerting countries when there is an impending import of a 
chemical which has been banned or severely restricted in the exporting 
country;
    <bullet> labeling hazards to human health or the environment; and
    <bullet> exchanging information about toxicological findings and 
domestic regulatory action.
    Ultimately the Rotterdam Convention will replace the voluntary PIC 
procedure, which has been operated by UNEP and FAO since 1989. 
Governments have elected to follow the new PIC procedures during this 
interim period before the Convention enters into force.
    The PIC treaty makes an important contribution to global chemicals 
management by drawing attention to those substances causing the 
greatest harm, disseminating that information, and facilitating 
national decisionmaking on chemical imports. To date, the Convention 
has 20 Parties out of 50 required for entry into force. As with the 
POPs treaty, WWF would like to see the United States ratify PIC prior 
to the Johannesburg Summit, and we therefore support the Bush 
administration's decision to bundle PIC for the purpose of Senate 
``advice and consent'' and implementing legislation.
    Many of the POPs-, LRTAP-, and PIC-related legislative provisions 
are inter-related. WWF would be happy to work with E&PW staff to help 
ensure that the implementing legislation facilitates rather than 
hinders the efficient working of these laws.
    In closing, we wish to applaud Chairman Jeffords and committee 
staff for the hard work and initiative that went into introducing this 
legislation. Full implementation of these agreements is essential to 
protecting the American people from the threat of POPs and other toxic 
substances.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions.

[GRAPHIC] [TIFF OMITTED] T3693.001

[GRAPHIC] [TIFF OMITTED] T3693.002

[GRAPHIC] [TIFF OMITTED] T3693.003

[GRAPHIC] [TIFF OMITTED] T3693.004

 Statement of Michael Walls on behalf of the American Chemistry Council

                            I. INTRODUCTION

    The American Chemistry Council (ACC) is pleased to provide its 
strong support for the Stockholm Convention on Persistent Organic 
Pollutants (POPs), and the treaty's reasonable implementation into U.S. 
law. The Council and its members urge the Senate to provide advice and 
consent to U.S. ratification of the Stockholm Convention as soon as 
possible, and to approve the necessary statutory changes in short 
order.
    The Council is the national trade association whose member 
companies represent more than 90 percent of the productive capacity for 
basic industrial chemicals in the United States. ACC members represent 
an industry on the cutting-edge of technological innovation and 
progress, whose products provide significant benefits to every sector 
of the global economy. The industry has been engaged in the 
international discussions about persistent organic pollutants (POPs) 
for many years, and it has a significant interest in seeing a globally 
harmonized approach to controls on POPs releases.
    The chemical industry's support for the Stockholm Convention lies 
in several simple points.
    <bullet> The industry's support of the Stockholm Convention is 
based on our commitment to product stewardship, including our goal of 
preventing health and environmental damage in the manufacture and use 
of chemical products. Our industry's product stewardship commitment is 
an integral part of our Responsible Care program, which is now being 
implemented by the chemical industry in more than 42 countries.
    <bullet> The Stockholm Convention is the culmination of many 
different initiatives by both industry and governments to address the 
concerns about persistent organic pollutants. It is the next best step 
to assure that governments around the world take appropriate measures 
to control the manufacture, use and disposal of POPs and to reduce 
unwanted POPs emissions.
    <bullet> The Convention adopts a risk-based, science-justified 
approach to considering possible additions to the list of chemicals. It 
is an approach entirely consistent with long-standing U.S. law and 
practice, and one that will lead to appropriate controls on those POPs 
chemicals that pose global threats.

                          II. GENERAL COMMENTS

    The U.S. chemical industry's work on the POPs issue began shortly 
after the Rio Summit on Environment and Development, in 1992. We worked 
with the Intergovernmental Forum on Chemical Safety (IFCS) in its 
effort to map the best approaches to dealing with POPs, particularly in 
discussions on criteria for identifying potential POPs. The industry 
also participated in the negotiations sponsored by the U.N. Economic 
Commission for Europe (UNECE) and the North American Commission on 
Environmental Cooperation (NACEC) as those regional POPs programs were 
developed and implemented.
    We were visible and positive participants throughout the 
negotiations that led to the Stockholm Convention, including the Expert 
Working Groups that met to consider and recommend criteria for 
identifying future POPs. The global chemical industry was an early and 
consistent supporter of improved international controls on persistent 
organic pollutants.
    ACC's efforts were not limited to the international level. In 1995, 
ACC's Board of Directors approved a new policy on persistent, 
bioaccumulative and toxic substances (the class of chemicals of which 
POPs are a subset). The policy recognized that due to their physical 
and chemical properties, POPs substances should receive priority 
attention in industry risk characterization, risk management, and 
pollution prevention programs. POPs substances represent a very small 
percentage of chemicals in commerce in the United States, and indeed 
none of the UNEP product POPs are manufactured in the United States.
    The American Chemistry Council believes that it is critical for the 
United States to continue its longstanding leadership role in the 
global effort to address the risks posed by POPs emissions. In order to 
continue in that role, however, the United States must be a full Party 
to the treaty. In ACC's view, the United States should be one of the 
first 50 countries ratifying the Stockholm Convention. As an original 
ratifying Party, the United States will be able to lead--and 
appropriately influence--the development of procedures necessary to 
implement the treaty at the international level. The U.S. government's 
ability to influence the further development and implementation of the 
treaty at the international level requires, simply, full U.S. 
participation in the agreement.

     III. THE STOCKHOLM CONVENTION ON PERSISTENT ORGANIC POLLUTANTS

    Several provisions of the Stockholm Convention merit comment.
    The Council is particularly pleased that the treaty incorporates 
the use of a risk/benefit approach in implementing appropriate 
regulatory controls on listed chemicals, and in considering chemicals 
nominated as potential POPs. The treaty's reliance on technical and 
economic considerations should ensure that priority pollutants are 
targeted and meaningful control actions taken.
    A substantial portion of the negotiations was devoted to the 
details of government obligations to reduce and eliminate releases of 
POPs. Under the Convention, governments are required to eliminate the 
production and restrict the use of pesticide and industrial chemical 
POPs. Governments are expected to restrict imports and exports, 
including exports to non-States Parties. ACC's summary of the Stockholm 
obligations that should be reflected in any U.S. statutory amendment is 
attached to this testimony.
    Industry also supported the Stockholm criteria for identifying 
POPs, contained in Annex D, and the requirements for risk profiles and 
socio-economic information necessary to evaluate nominated chemicals, 
contained in Annexes E and F. In our view, the Convention establishes a 
risk-based approach to decision making on new POPs.
    The treaty contains a number of key exemptions that are critical in 
making the Convention a workable and practical agreement. Research and 
development, unintentional trace contaminants for the product POPs, 
constituents of articles manufactured or in use as of the 
implementation date, and closed-system site-limited intermediates are 
subject to exemptions under the treaty.
    The Stockholm Convention also reflects existing elements of U.S. 
law and policy. For example, the treaty contains a provision that 
government programs to evaluate new chemical substances should screen 
the chemicals against the POPs criteria and regulate them if 
appropriate. This approach is already reflected in a pre-manufacture 
notice (PMN) policy adopted by EPA several years ago in evaluating new 
chemicals under TSCA.
    In the industry's view, the Convention also adopts appropriate 
approaches to risk management measures. For example, substitution is 
not a legal obligation, but constitutes an option when the risks of 
POPs releases cannot otherwise be managed.

         IV. LEGISLATION TO IMPLEMENT THE STOCKHOLM CONVENTION

    Two proposals have been tabled to implement the obligations of the 
Stockholm Convention in U.S. law, Senator Jeffords' bill (S. 2118), and 
an Administration proposal. The core implementing provisions of both 
approaches are substantially similar, but each raises important 
concerns.
    Both approaches raise important questions about the status of 
chemicals on the UNECE POPs Protocol list that are not addressed under 
the Stockholm Convention. Despite the fact that the Protocol and 
Convention contemplate several similar restrictions on listed 
chemicals, the draft implementing proposals suggest significantly 
different approaches to the process under each of the agreements.
    Both S. 2118 and the Administration's draft attempt to limit the 
use of information not submitted in the notice and comment processes 
that accompany the consideration of new chemicals under the UNECE 
Protocol and the Stockholm Convention. That limitation is not 
justified. At the early stages of the international listing discussions 
it cannot be determined what regulatory consequences the listing will 
have, or indeed whether a nominated chemical will in fact be added to 
the POPs list. The U.S. negotiating team should have access to 
information about the production, import, export and/or use of a 
nominated chemical. ACC believes there will be sufficient incentive for 
interested commercial entities to produce information on nominated 
chemicals without the need to limit the use of the information in any 
subsequent regulatory action.
    Both approaches establish a continual reporting obligation on 
manufacturers unless EPA decides otherwise or the international 
decisionmaking process is concluded. It is not clear what benefit is 
expected from the continuing obligation to report or how it relates to 
the Agency's work with respect to POPs substances. Again, we believe 
commercial entities with an interest in a nominated chemical will have 
sufficient incentive to provide EPA and other U.S. negotiators 
appropriate information about the chemical without a continuing 
reporting obligation under Section 8 of TSCA.
    As noted earlier, ACC has long recognized that the Stockholm 
Convention contemplates the addition of other POPs. We believe that 
U.S. implementing legislation should reflect that process. We also 
believe that there are a number of options available that could address 
both the Senate's constitutional prerogative regarding treaty 
amendments and Congress' interest in practical changes to statutory 
requirements. We have attached a copy of correspondence ACC sent 
earlier this year to EPA Administrator Christine Todd Whitman, which 
outlines our view that the issue of additions can be addressed in 
implementing legislation.
    ACC is also concerned that S. 2118 addresses matters that are not 
strictly related to the obligations and responsibilities established by 
the Stockholm Convention. These provisions raise concerns about U.S. 
acceptance of the internationally accepted criteria for identifying 
POPs, and the possible duplication of existing EPA programs on 
persistent, bioaccumulative and toxic substances (PBTs), among others. 
In order to assure that the Senate can approve the Convention and the 
implementing package as soon as possible, we believe it critical that 
the legislation address only those issues required by the treaty.
    The American Chemistry Council believes that U.S. implementation of 
the Stockholm Convention should be guided by certain principles. In 
brief, these principles are:
    <bullet> Full implementation of the Convention's obligations in 
U.S. law, through appropriate amendments to the Toxic Substances 
Control Act (TSCA) and the Federal Insecticide, Fungicide and 
Rodenticide Act (FIFRA).
    <bullet> TSCA and FIFRA amendments that are narrowly drawn to 
implement only the obligations imposed by the Stockholm Convention.
    <bullet> TSCA and FIFRA amendments that focus on the specific 
measures required by the Stockholm Convention, and which avoid the 
possibility of confusion or complexity with respect to U.S. 
implementation. There is ample precedent for the implementation of U.S. 
treaty obligations in this manner.

V. IMPLEMENTATION OF THE ROTTERDAM CONVENTION ON PRIOR INFORMED CONSENT

    ACC also supports Senate advice and consent to ratification of the 
Rotterdam Convention on Prior Informed Consent. This Convention--
negotiated on the basis of a very successful government-to-government 
information exchange system--also requires amendments to TSCA and FIFRA 
if the United States is to fully implement the treaty. Because the 
Rotterdam Convention requires these amendments, ACC believes it makes 
sense to include appropriate implementing language in the same 
legislation designed to implement the Stockholm Convention.

                             VI. CONCLUSION

    The American Chemistry Council believes that the Stockholm 
Convention is an important step in securing international action on 
POPs. The treaty establishes a harmonized global approach to the 
necessary controls on POPs releases, and should produce meaningful 
improvements in public health and environmental protection. Appropriate 
amendments to TSCA and FIFRA that reflect the treaty's obligations can 
be crafted, particularly to address the issue of new chemicals added to 
the list of POPs. ACC looks forward to working with this committee and 
the Administration as those amendments are drafted.

          Stockholm Convention on Persistent Organic Pollutants
        Obligations of the Parties to be Implemented in U.S. Law
------------------------------------------------------------------------
               Article                            Requirement
------------------------------------------------------------------------
Art. 3.1--Measures to reduce/          (a) Prohibit and/or eliminate
 eliminate exposures from intentional   production, use, import and
 production and use.                    export of Annex A chemicals,
                                        subject to Annex A provisions.
                                        (b) Restrict production and use
                                        of Annex B chemicals.
Art. 3.2.............................  (a) Permit import only for the
                                        purposes of (1) environmentally
                                        sound disposal or (2) for a
                                        permitted use under Annex A or
                                        B. (b) Permit export only for
                                        the purposes of (1)
                                        environmentally sound disposal,
                                        (2) to a State Party for
                                        permitted use, or (3) to a non-
                                        State Party upon identification
                                        of the use and certification
                                        that the non-State Party is
                                        committed to minimizing
                                        releases, has developed
                                        strategies to deal with related
                                        wastes, and notify WHO about DDT
                                        uses. (c) Prohibit the export of
                                        Annex A chemicals for
                                        whichproduction or use
                                        exemptions are no longer in
                                        effect, except for
                                        environmentally sound disposal.
Art. 3.3.............................  Parties with new chemical and
                                        pesticide assessment regimes
                                        shall take regulatory measures
                                        with the aim of prevent the
                                        production and use of new
                                        chemical or pesticide POPs.
Art. 3.4.............................  Parties with chemical and
                                        pesticide assessment programs
                                        shall take into account the
                                        Annex D paragraph 1 criteria
                                        when conducting assessments of
                                        existing uses.
Art. 3.5.............................  Excludes laboratory scale
                                        research and reference standards
                                        from the regulatory measures
                                        imposed under Article 3.
Art. 3.6.............................  Parties shall take appropriate
                                        regulatory measures to assure
                                        that human and environmental
                                        exposures from exempted
                                        production and use are
                                        minimized.
Art. 4--Register of specific           Assumes national measures to
 exemptions.                            extend, withdraw or further
                                        restrict exempted production and
                                        use when the five-year exemption
                                        period expires.
Art. 5--Measures to reduce or          Parties to take the following
 eliminate releases from                minimum measures to reduce
 unintentional production.              emissions of by-product POPs
                                        from anthropogenic sources with
                                        the goal of minimizing those
                                        emissions and where feasible, to
                                        eliminate them. (a) develop a
                                        national (or regional) action
                                        plan (NAP) within 2 years to
                                        identify, characterize and
                                        address the release of by
                                        product POPs; (b) promote
                                        available, feasible and
                                        practical measures to achieve
                                        release reduction or source
                                        elimination; (c) promote and
                                        where appropriate require the
                                        development and use of
                                        substitute materials, products
                                        and processes that prevent the
                                        formation and release of by-
                                        product POPs; (d) promote and in
                                        accord with the NAP require
                                        implementation of best available
                                        technology for new sources
                                        within source categories
                                        meriting such an approach. BAT
                                        requirements to be implemented
                                        as soon as possible but within 4
                                        years. Parties shall promote
                                        best environmental practices for
                                        identified source categories;
                                        (e) promote for existing source
                                        categories, in accordance with
                                        NAP, BAT and BEP, and for new
                                        sources not addressed in
                                        subparagraph (d);
Art. 6--Measures to reduce or          Parties to ensure that stockpiles
 eliminate releases from stockpiles     consisting of or containing
 or wastes.                             Annex A or B chemicals and
                                        wastes, and products
                                        contaminated with Annex A, B, or
                                        C chemicals upon becoming wastes
                                        are managed in a manner
                                        protective of human health or
                                        the environment, by (a) develop
                                        strategies for identifying
                                        covered stockpiles and wastes;
                                        (b) identify relevant stockpiles
                                        by employing the strategies; (c)
                                        manage stockpiles in a safe,
                                        efficient and environmentally
                                        sound manner; (d) (1) take
                                        appropriate measures to assure
                                        that stockpiles and wastes are
                                        handled, transported and stored
                                        in an environmentally sound
                                        manner, (2) disposed of in a way
                                        that the POP content is
                                        destroyed or irreversibly
                                        transformed or otherwise
                                        disposed of in an
                                        environmentally sound mannerand
                                        (3) POPs are not permitted to be
                                        recycled, reclaimed or reused,
                                        not transported across
                                        international boundaries except
                                        in accord with existing
                                        international standards and
                                        rules. (e) endeavor to develop
                                        appropriate strategies for
                                        identifying site contaminated
                                        with Annex A, B or C chemicals
                                        and if remediated, to do so in
                                        an environmentally sound manner.
Art. 7--Implementation Plans.........  (1) Each Party shall develop plan
                                        to implement its obligations
                                        under the treaty, transmit it to
                                        other parties within 2 years,
                                        and review and update the plan
                                        on a periodic basis. (2) In
                                        developing plans, Parties shall
                                        cooperate and consult with other
                                        stakeholders. (3) Parties shall
                                        endeavor to integrate POPs plans
                                        with sustainable development
                                        strategies.
Art. 9--Information Exchange.........  Parties shall facilitate or
                                        undertake the exchange of
                                        information relevant to
                                        reduction and/or elimination of
                                        POPs production, use and
                                        release; and on alternatives,
                                        including their risks and socio-
                                        economic costs.
Art. 10--Public information,           Each Party shall within its
 awareness and education.               capabilities promote and
                                        facilitate awareness and
                                        information on POPs
                                        (particularly health effects),
                                        public access to information on
                                        POPs, and training.
Art. 11--Research, development and     Each Party shall within its
 monitoring.                            capabilities encourage and/or
                                        undertake appropriate research,
                                        development and monitoring
                                        programs, including support for
                                        national programs,
                                        intergovernmental research.
Art. 12--Technical assistance........  Parties shall cooperate to
                                        provide timely technical
                                        assistance to developing
                                        countries.
Art. 13--Financial resources and       Each Party undertakes to provide,
 mechanisms.                            consistent with its
                                        capabilities, financial support
                                        and incentives with respect to
                                        implementation of the treaty.
                                        Developed country Parties shall
                                        provide new and additional
                                        financial resources to
                                        developing countries and
                                        countries with economies in
                                        transition to meet the full
                                        incremental costs of
                                        implementation measures.
Art. 15--Reporting...................  Each Party shall report to the
                                        Conference of the Parties on its
                                        implementation measures,
                                        statistical data on the amount
                                        of Annex A and B chemicals
                                        produced, imported and exported,
                                        and (to the extent practicable)
                                        a list of States importing or
                                        exporting such chemicals.
Art. 25.4--Ratification, acceptance,   Permits Parties to clarify in its
 approval or accession.                 instrument of ratification that
                                        with respect to amendments to
                                        annexes, no amendment will be
                                        effective as to that Party
                                        except upon deposit of an
                                        instrument of ratification,
                                        acceptance, approval or
                                        accession. Assuming a Party
                                        wishes to utilize this
                                        clarification, some national
                                        process for making such ``opt-
                                        in'' decisions should be
                                        addressed.
------------------------------------------------------------------------

                               __________
                                American Chemistry Council,
                                  Arlington, VA, February 26, 2002.

Hon. Christine Todd Whitman, Administrator,
U.S. Environmental Protection Agency,
Washington, DC.
    Dear Governor Whitman: I wanted to follow up on our brief 
discussion at the World Economic Forum concerning the U.S. industry's 
view of the Stockholm Convention on Persistent Organic Pollutants 
(POPS).
    The American Chemistry Council (ACC) and its member companies have 
long supported the effort to develop and implement a global treaty 
governing POPs. As you know, we strongly supported the Administration's 
decision to sign the POPs treaty, and we are on record as supporting 
the treaty's reasonable implementation into U.S. law.
    ACC strongly recommends that the Administration seek the U.S. 
Senate's advice and consent to ratification as soon as possible. We 
believe it is important for the United States to continue its 
leadership role in the global effort to address the risks posed by POPs 
emissions, and believe that the United States should make every effort 
to be among the first 50 countries ratifying the Convention.
    Based on media reports we understand the Administration has drafted 
a legislative proposal to amend the Toxic Substances Control Act (TSCA) 
and the Federal Insecticide, Fungicide and Rodenticide Act (FIFRA) to 
implement the treaty obligations. The media reports also indicated that 
the Administration would not propose amendments to address additional 
chemicals listed under the Stockholm Convention process. The treaty 
contemplates the listing of other POPs in the future, and provides a 
criteria and risk-based process to consider nominations made by 
governments. ACC believes it is possible to craft appropriate 
amendments to TSCA and FIFRA to reflect the treaty additions process. 
If the Administration has already made a decision to proceed without 
provisions regarding additions, that decision should not further delay 
the submission of the treaty and the Administration's proposal to 
Congress. Although we have not yet seen the Administration's draft 
implementing legislation, we are confident that matters concerning the 
substance selection process can be addressed as necessary in the course 
of the legislative process.
    ACC looks forward to working with you as preparations are made for 
U.S. implementation of the Stockholm Convention. If we can provide 
additional information, please contact me or Michael Walls, Senior 
Counsel, at 703-741-5167.
            Sincerely,
                                       Frederick L. Webber,
                                                 President and CEO.
                               __________
  Statement of Karen L. Perry, M.P.A., Deputy Director, Environment & 
          Health Program, Physicians for Social Responsibility

    Good morning, Mr. Chairman and members of the committee. My name is 
Karen Perry, and I am speaking to you today on behalf of Physicians for 
Social Responsibility (PSR). PSR is a national membership organization 
representing more than 22,000 physicians, health care professionals, 
and concerned citizens committed to protecting public health from 
environmental hazards. We welcome the opportunity to appear here today 
and present PSR's views on issues surrounding the implementation of the 
Stockholm Convention on Persistent Organic Pollutants (POPs).
    PSR's concern about POPs dates back to the mid-1990's, when an 
early draft of the U.S. Environmental Protection Agency's (EPA) dioxin 
reassessment indicated that hospital waste incinerators were a major 
source of dioxin, a potent POP. Based on the medical tenet of ``first, 
do no harm,'' PSR and other public health groups began advocating for a 
phaseout of incineration in favor of less-hazardous forms of medical 
waste treatment. A few years later, an Intergovernmental Negotiating 
Committee began the task of crafting a global convention on dioxin and 
other POPs. From 1998 to 2001--throughout the entire period of 
negotiations--PSR served as the Secretariat for a global network of 
more than 400 non-governmental organizations from 75 countries, all 
committed to the phaseout and elimination of POPs. Today, the 
ratification and full implementation of the Stockholm Convention by the 
United States is among PSR's top priorities.

                 POPS ARE HAZARDOUS TO AMERICA'S HEALTH

    Signed by EPA Administrator Whitman and representatives of nearly 
100 other countries last May, the Stockholm Convention targets a group 
of chemicals known to be detrimental to human health and to the 
environment.
    POPs share several important characteristics that make them 
particularly troubling to the public health community. First, POPs are 
fat soluble, and are thus able to move from air, water, and soil into 
food chains. Animals, including livestock, ingest POPs that are 
deposited in the environment. These POPs accumulate in the animals' 
fatty tissues, contaminating meat, fish, eggs, and dairy products. We 
know from a number of studies that the majority of Americans' exposure 
to POPs occurs through consumption of these foods. Recent food sampling 
has measured levels of several POPs in the food supply of various 
regions in the U.S. Freshwater fish were found to be the most 
significant source of dioxins, furans, and dioxin-like PCBs. Even 
organically produced meats and dairy products routinely contain POPs 
because these pollutants are everywhere in the environment. Human 
breast milk has also been sampled and found to have significant levels 
of some POPs.\1\ Based on analyses of these samples, it is estimated 
that nursing infants have a much higher exposure to POPs, relative to 
body weight, than adults. Other highly exposed populations include 
Alaska Natives and other Arctic indigenous peoples, and subsistence and 
recreational fishers in the Great Lakes and other regions.
---------------------------------------------------------------------------
    \1\ Schecter A et al. 2001. Intake of dioxins and related compounds 
from food in the U.S. population. Journal of Toxicology and 
Environmental Health (Part A) 63:101-118.
---------------------------------------------------------------------------
    POPs have been linked to a variety of serious human health effects, 
including cancer, reproductive and developmental effects, and 
neurological deficits. Exposure even to extremely low levels of some 
POPs can alter the function of the endocrine system by mimicking or 
blocking the action of natural hormones. POPs have been implicated in 
adverse effects on cognition, precocious puberty, female reproductive 
problems including endometriosis and difficulty conceiving, and in 
males, declining sperm counts and malformations of the penis and 
testicles.
    Children and developing fetuses are most at risk. Human and animal 
studies provide disturbing evidence that prenatal exposure to low 
levels of some POPs can result in decreases in IQ and short-term 
memory; delayed psychomotor development; abnormal reflexes; and speech 
problems.\2\<SUP>,</SUP>\3\<SUP>,</SUP>\4\<SUP>,</SUP>\5\<SUP>,</SUP>\6\
 Serious structural abnormalities, retarded growth, and functional 
changes have also been observed in lab animals exposed to low levels of 
POPs during gestation.\7\
---------------------------------------------------------------------------
    \2\ Brouwer A et al. 1999. Characterization of potential endocrine-
related health effects at low-dose levels of exposure to PCBs. 
Environmental Health Perspectives 107 (Suppl. 4): 639-649.
    \3\ Jacobson JL and SW Jacobson. 1996. Intellectual impairment in 
children exposed to polychlorinated biphenyls in utero. New England 
Journal of Medicine 335:783-789.
    \4\ Rogan WJ et al. 1988. Congenital poisoning by PCBs and their 
contaminants in Taiwan. Science 241:334-338.
    \5\ Patandin S et al. 1999. Effects of environmental exposure to 
polychlorinated biphenyls and dioxins on cognitive abilities in Dutch 
children at 42 months of age. Journal of Pediatrics 134(1):33-41.
    \6\ Markowski VP et al. 2001. Altered operant responding for motor 
reinforcement and the determination of benchmark doses following 
perinatal exposure to low-level 2,3,7,8-tetrachlorodibenzo-p-dioxin. 
Environmental Health Perspectives 109(6):621-627.
    \7\ Faqi AS et al. 1998. Reproductive toxicity and tissue 
concentrations of low doses of 2,3,7,8-TCDD in male offspring rats 
exposed throughout pregnancy and lactation. Toxicology and Applied 
Pharmacology 150:383-392.
---------------------------------------------------------------------------
    Toxicological and epidemiological studies have found that several 
POPs, including dioxins, PCBs, and DDT, have the potential to cause 
cancer in humans. At the same time, it has been observed that incidence 
rates of breast cancer, testicular cancer, and prostate cancer are on 
the rise in the U.S. Researchers are investigating the role that 
endocrine-disrupting POPs might play in the development of cancers at 
these hormonally sensitive sites.
    There is limited human epidemiological evidence for immune effects 
from POPs exposure. However, laboratory animals exposed to dioxin 
showed evidence of immune system suppression, resulting in some forms 
of cancer and decreased resistance to infections. It has been suggested 
that this is one of the most sensitive toxicological outcomes for 
dioxin exposure, for example. A study of Dutch preschool children has 
linked prenatal and lactational exposure to PCBs and dioxins to 
increased susceptibility to infectious diseases lasting into 
childhood.\8\
---------------------------------------------------------------------------
    \8\ Weisglas-Kuperus N. et al. 2000. Immunological effects of 
background exposure to polychlorinated biphenyls and dioxins in Dutch 
preschool children. Environmental Health Perspectives 108(12):1203-
1207.
---------------------------------------------------------------------------
the addition of future pops is at the heart of the stockholm convention
    While the Stockholm Convention begins with an initial list of 12 
POPs, including those I have mentioned, it is by no means limited to 
that list. From the very start of the negotiations, the international 
community envisioned a dynamic instrument that could take into account 
emerging scientific knowledge about chemicals beyond the initial 12. In 
a series of intersessional meetings during the treaty negotiations, an 
experts group hammered out a set of science-based screening criteria 
for POPs that was incorporated into the final agreement. In short, the 
addition of POPs beyond the initial 12 was not an afterthought.
    Indeed, the final convention spells out the science-based process 
for evaluating and adding POPs quite clearly in Article 8. Upon entry 
into force, the Conference of the Parties (COP) will establish a 
Persistent Organic Pollutants Review Committee (POPROC). Parties will 
submit chemical nominations to the POPROC, which will evaluate them 
based on agreed scientific criteria including persistence, 
bioaccumulation, long-range transport, and toxicity. The POPROC must 
prepare a draft risk profile in accordance with Annex E, to be made 
available for input from all Parties and observers. The POPROC will 
then make recommendations that must be approved by the COP before a 
nominated chemical can be added to the treaty as a binding amendment. 
The U.S. has reserved the right to ``opt-in'' to each amendment via a 
separate, subsequent ratification process.
    It is worth noting that the universe of POPs that might be added to 
the Stockholm Convention over the long term is not vast. Application of 
the science-based criteria set out in the treaty is likely to result in 
the addition of a few dozen additional POPs--not hundreds or thousands.

         S. 2118 CONTAINS A WORKABLE MECHANISM FOR ADDING POPS

    Throughout the treaty negotiations, the U.S. delegation 
acknowledged that changes to the Toxic Substances Control Act (TSCA) 
and the Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) 
would be necessary to enable EPA to ban the manufacture, use, and 
export of the chemicals named in the treaty, and to regulate new 
chemicals identified as POPs pursuant to the agreed science-based 
process. A briefing for NGO's in July 2001 indicated that an 
interagency agreement had been reached on the legislative requirements 
for U.S. implementation, including provisions to grant EPA the ability 
to phaseout additional POPs beyond the dirty dozen. Regrettably, the 
proposal revealed by the administration last month has left out this 
critical piece of implementing authority.
    Beginning late last year, press reports indicated that the 
administration was heading down this path. Attached to my testimony you 
will find letters sent by PSR and other public interest organizations 
to CEQ, OMB, and EPA, expressing our concerns. You will also find a 
fact sheet prepared by PSR along with the World Wildlife Fund, Oceana, 
and the U.S. Public Interest Research Groups. This document spells out 
in detail the issues raised by the omission of provisions related to 
new POPs. As it makes clear, such an omission would tie EPA's hands and 
put up an unnecessary hurdle to domestic regulation of any POP added to 
the treaty. The failure to amend TSCA and FIFRA now to allow EPA to 
regulate new POPs in the future would amount to a failure to implement 
Article 8 of the convention. It would result in an absurd situation in 
which each amendment to add a POP, which has been agreed by the U.S. as 
a member of the COP, and subjected to Senate review under the ``opt-
in'' procedure, would still require both houses of Congress to amend 
TSCA and FIFRA again. Given that these environmental laws have rarely 
if ever been amended in nearly 30 years, such a process requiring 
repeated amendment seems both unmanageable, undesirable, and 
politically unrealistic.
    S. 2118 acknowledges this defect. This bill would legislate a 
domestic process that would parallel the international decision process 
from beginning to end. While the POPROC is evaluating a nominated 
chemical, the EPA Administrator would be directed by statute to 
initiate a notice and comment process to gather information about the 
uses and sources of the nominated chemical domestically, to inform a 
future decision about policy actions that might be needed to ban or 
regulate it. In the end, if the COP decides to list that new POP by 
amendment, S. 2118 would give a ``rebuttable presumption'' to the COP's 
decision. In essence, the legislation would automatically deem any POP 
added by the COP to present an unreasonable risk of injury to health or 
the environment, and would thus authorize EPA to undertake a rulemaking 
to control the production, use, and trade in that new POP.
    Administration officials have argued that additional authority is 
not required for EPA to take domestic action against any future POP. 
However, a careful reading of TSCA and FIFRA calls this claim into 
question. As written, these statutes would not allow EPA to prohibit 
the manufacture for export of any future POP. Experience even with the 
dirty dozen has shown this--chlordane and heptachlor, for example, were 
manufactured and exported for years after all uses were canceled 
domestically. In light of our experience with these laws, PSR does not 
believe that they can be used to effectively and efficiently eliminate 
future POPs without amendment now.
 the u.s. should be a proactive participant in the stockholm convention
    The U.S. has long been at the forefront of global efforts to 
protect the environment and public health. This country led the world, 
for example, in phasing out the use of DDT and leaded gasoline. In 
implementing the Stockholm Convention, the U.S. must continue to play a 
leadership role. S. 2118 will facilitate U.S. leadership in meeting the 
obligations of the Stockholm Convention in several important ways. For 
example, the legislation would require EPA to contract with the 
National Academy of Sciences (NAS) to undertake a major POPs study. 
This comprehensive research program outline in the bill is designed to 
screen chemicals using the Stockholm Convention's POPs criteria, 
identify priority POPs for possible nomination to the POPROC, and 
develop a monitoring strategy for persistent and bioaccumulative 
substances. This NAS study, along with the related requirement that EPA 
develop and submit to Congress a comprehensive strategy to reduce the 
public's exposure to persistent, bioaccumulative toxic substances, will 
enable the U.S. to be a proactive participant to the Stockholm 
Convention. Indeed, it will position the United States to lead the 
world in utilizing a science-based process to identify and take action 
against future POPs, rather than merely reacting to international 
pressure.
    Finally, S. 2118 would require EPA to submit to Congress, within 90 
days of its enactment, the agency's final dioxin reassessment. This 
document has been in development for more than 10 years, and represents 
the state-of-the-science on dioxin and related POPs. Many organizations 
and agencies--including the EPA itself--have been waiting for its 
release to guide policy actions to phaseout this most toxic of POPs. 
The long-awaited release of this document will serve as a jumping off 
point for the U.S. to meet its long-term obligation of dioxin 
elimination under the Stockholm Convention.

                               CONCLUSION

    The announcement by President Bush of his intention to sign and 
ratify the Stockholm Convention more than a year ago received 
unprecedented support from the public interest community, the chemical 
industry, and Members of Congress on both sides of the aisle. This 
important treaty continues to offer a rare opportunity to achieve 
consensus in the environmental policy arena.
    The ratification and full implementation of the Stockholm 
Convention is of utmost importance to PSR. In addition, numerous groups 
and constituencies not represented here today--including environmental, 
public health, consumer, and indigenous organizations across the 
country--share our hope that the treaty can be rapidly ratified and 
fully implemented, and can be claimed as a victory by all. It is now up 
to this committee and the Congress as a whole to strive for such an 
outcome. We look forward to working with you to reach it.
    Thank you for your attention, and I will be pleased to answer any 
questions you may have.
                                 ______
                                 
               U.S. Ratification of POPs Treaty in Danger
                        White House Seeking Only
             Partial Implementation of Stockholm Convention

    On April 11, 2002, the White House asked the Senate to ratify the 
Stockholm Convention on Persistent Organic Pollutants (POPs). 
Regrettably, the Administration's implementing legislation fails to ask 
Congress for the legislative provisions necessary to fully implement 
the treaty.
    This unprecedented international agreement targets chemicals that 
are detrimental to human health and the environment globally, starting 
with a list of 12 POPs that includes formerly used pesticides, dioxin, 
and PCBs. In addition to governing the phaseout of the initial list of 
POPs, the Stockholm Convention mandates a process for nomination, 
science-based assessment, and addition of other POPs to the treaty. In 
a Rose Garden ceremony last spring, President Bush announced his 
support for the agreement, noting that while it was negotiated by the 
previous administration, it ``achieves a goal shared by this 
administration'' and ``shows the possibilities for cooperation among 
all parties to our environmental debates.''
    Some changes to domestic environmental laws, including TSCA and 
FIFRA, are needed to give EPA the power to eliminate the initial 12 
POPs. In addition, a process for regulating new POPs must be reflected 
in implementing legislation, unless the treaty provisions related to 
adding POPs were considered to be self-executing. Last summer, EPA 
crafted a proposal to deal with both categories of legislative changes 
at the time of ratification. Now, the Administration is instead asking 
Congress to amend TSCA and FIFRA to address only the initial 12 POPs, 
without making the statutory changes needed to regulate chemicals 
subsequently added to the Convention.
failure to amend u.s. laws now to provide for the addition of new pops 
would violate the spirit of the stockholm convention and hobble future 

                          U.S. IMPLEMENTATION

    The international community envisioned a dynamic instrument that 
could take into account emerging scientific knowledge about chemicals 
beyond the initial 12. The Convention as negotiated provides the U.S. 
with a great deal of flexibility in deciding whether and how to take 
domestic action against future POPs. Requiring a case-by-case revision 
of domestic legislation in the future is unnecessary and risks 
politicizing decisions that would otherwise be based on sound science.
    <bullet> The international selection process involves input from 
all countries that are Parties to the Convention: Article 8 of the 
Convention provides for the evaluation and addition of chemicals beyond 
the initial 12. Upon entry into force, the Conference of the Parties 
(COP) will establish a Persistent Organic Pollutants Review Committee 
(POPROC). Parties will submit chemical nominations to the POPROC, which 
will evaluate them based on agreed scientific criteria including 
persistence, bioaccumulation, long-range transport, and toxicity. The 
POPROC must prepare a draft risk profile in accordance with Annex E, to 
be made available for input from all Parties and observers. The POPROC 
will then make recommendations that must be approved by the entire COP 
before a nominated chemical can be added to the treaty as a binding 
amendment.
    <bullet> The Convention does not automatically obligate the U.S. to 
eliminate each new POP that is added internationally: Under Article 
22(3) of the Convention, COP-agreed amendments to add new chemicals 
become binding upon all Parties, subject to the opportunity to ``opt 
out'' of such obligations within 1 year. However, there exists another 
safeguard under Article 25(4), which was proposed by the U.S., allowing 
a Party to declare when ratifying the Convention that it will be bound 
by new chemical amendments only if it affirmatively ``opts in'' via a 
separate, subsequent ratification process. The State Department has 
indicated that the U.S. will take advantage of the ``opt in'' 
provision, enabling the Senate to give its advice and consent to the 
addition of each new POP in the future.
    <bullet> Broad options exist for regulating additional POPs under 
U.S. law: Two major options can be considered for amending the Toxic 
Substances Control Act (TSCA) and Federal Insecticide, Fungicide, and 
Rodenticide Act (FIFRA) to deal with future POPs under the Convention. 
The first option would amend these statutes to allow for automatic 
regulation of new POPs once the U.S. ``opts in'' to the corresponding 
treaty amendments. This option is preferred by environmental and public 
health NGO's, given the other existing safeguards described above. The 
second option, according to EPA officials, would provide that a 
``rebuttable presumption'' be given to the COP's decision on a new POP, 
while preserving the right (based on food security, public health, or 
environmental considerations) to make a persuasive case that modified 
controls are necessary. As presented to NGO and industry groups in July 
2001, the POPs interagency group agreed to include this second option 
in their draft legislation. OMB later overrode the other agencies, 
choosing instead to eliminate all legislative reference to future POPs.
    Failure by the White House to seek legislative authority to address 
the addition of new POPs makes little sense, and jeopardizes U.S. 
participation in the Convention for a number of reasons, including:
    <bullet> Ratification based on incomplete legislative authority 
would be viewed by the international community as a bad faith 
commitment to implementation of a treaty that is popular with 
governments worldwide.
    <bullet> Transmittal of an incomplete legislative package 
significantly increases the likelihood that it will be opened for 
amendment in the House and Senate, risking ``non-surgical'' and 
potentially controversial changes.
    <bullet> Congress is unlikely to repeatedly re-open domestic laws 
such as TSCA and FIFRA that have rarely if ever been amended.
    <bullet> Implementation of the Rotterdam Convention on Prior 
Informed Consent (PIC)--a chemicals treaty that the Administration 
plans to ``bundle'' with POPs for ratification--involves related TSCA/
FIFRA amendments, reinforcing the value of transmitting a complete 
legislative package for both agreements.
    The Stockholm Convention offers a rare example of consensus in the 
environmental policy arena. Since its completion in December 2000, 
support for U.S. ratification has been expressed by the public interest 
community, the chemical industry, Members of Congress on both sides of 
the aisle, and the Bush administration, including explicit endorsement 
of the treaty by President Bush. The President's decision to sign and 
ratify it was acclaimed as an environmental victory for his 
Administration. It will now be up to Congress to ensure that the treaty 
can be fully implemented.
    To maintain the U.S. commitment to the Stockholm POPs Convention, 
Congress must:
    <bullet> Make the statutory changes to TSCA and FIFRA necessary to 
authorize regulation of chemicals subsequently included in the 
Convention; and
    <bullet> Ratify the treaty in full as soon as possible.
                                 ______
                                 
       Physicians for Social Responsibility, Oceana, World 
                                  Wildlife Fund, U.S. PIRG,
                                                 December 20, 2001.
Mr. Mitchell E. Daniels, Jr. Director,
Office of Management and Budget,
Washington, DC.

Mr. James L. Connaughton, Chair,
Council on Environmental Quality,
Washington, DC.
    Dear Mr. Daniels and Mr. Connaughton: Our environmental and public 
health organizations write to request that the White House seek 
ratification of the Stockholm Convention on Persistent Organic 
Pollutants (POPs), along with the legislative authority to fully 
implement it, as soon as possible. As you know, the United States and 
nearly 100 other countries signed the Stockholm Convention last May. 
This unprecedented international agreement targets the so-called 
``dirty dozen,'' 12 POPs which are known to be detrimental to human 
health and to the environment.
    The announcement by President Bush of his intention to sign and 
ratify this important treaty last spring received unprecedented support 
from both our organizations and the chemical industry. In formal 
remarks at the signing ceremony in Sweden, EPA Administrator Christie 
Whitman stated that the President had personally endorsed the treaty, 
adding that the Administration intended ``to move expeditiously to 
submit this treaty to the United States Senate, and to send the 
implementing measures to the Congress.'' Nearly 7 months later, 
however, the treaty and its draft implementing legislation have yet to 
see the light of day on Capitol Hill.
    POPs are global contaminants that threaten human health, wildlife, 
and ecosystems in the United States and around the world. They have 
been associated with a variety of adverse health effects, including 
cancers, birth defects, reproductive disorders, and learning and 
behavioral impairments. Despite more than two decades of progress 
toward controlling POPs pollution here at home, these chemicals 
continue to contaminate the U.S., in many cases traveling thousands of 
miles from other countries to America's shores. Today, POPs are found 
in our waterways, soils, and food. They accumulate in the bodies of 
people and wildlife in every region of the country--from Alaska to New 
York and everywhere in between. Those most at risk are children, fetal 
life, women of childbearing age, and communities who rely on local fish 
and wildlife as a major part of their diet.
    The ability of POPs to travel across the nation, to concentrate in 
the food chain, and to pose risks to people and wildlife even in remote 
areas demonstrates that the only way to protect the planet is to 
phaseout POPs everywhere. Once ratified, the Stockholm Convention will 
go a long way toward alleviating POPs pollution here and around the 
world. Moreover, it will do so with a minimum of hardship for the U.S. 
and its domestic industry. A preliminary assessment by the EPA 
indicated that few changes to existing Federal laws and regulations 
will be required.
    During the treaty negotiations, the U.S. delegation acknowledged 
that changes to FIFRA and TSCA would be necessary to enable EPA to ban 
the manufacture and export of the chemicals named in the treaty and to 
add new chemicals identified as POPs pursuant to the agreed science-
based process of analysis and rulemaking. Shortly after the treaty 
signing, an Interagency agreement was reached on the legislative 
requirements for U.S. implementation, including provisions to support 
the ability to phaseout additional POPs beyond the dirty dozen. The 
ability, over time, to bring new POPs under the treaty's provisions is 
integral to its success. It is our strong view that the enabling 
legislation must provide authority to deal promptly and effectively 
with this important provision of the agreement.
    Last spring, the Stockholm Convention offered a rare example of 
consensus in the environmental policy arena, with support from the 
public interest community, the chemical industry, the President, and 
Members of Congress on both sides of the aisle. We hope that the White 
House will follow through with its promise to protect the health and 
well being of the American people from POPs by pursuing ratification of 
this agreement as quickly as possible, and in a manner that gives EPA 
the necessary authority to expeditiously carry out all aspects of the 
agreement.
    We look forward to your response and to a status report on the 
Administration's efforts. If we can be of assistance, please feel free 
to call Karen Perry at Physicians for Social Responsibility (202-667-
4260, x249) or Carolyn Hartmann at Oceana (202-833-3900).
            Sincerely,
                            Robert K. Musil, Ph.D., M.P.H.,
                                        Executive Director and CEO,
                              Physicians for Social Responsibility.

                                          Stephen E. Roady,
                                                         President,
                                                            Oceana.

                                         Kathryn S. Fuller,
                                                         President,
                                               World Wildlife Fund.

                                          Jeremiah Baumann,
                                   Environmental Health Department,
                               U.S. Public Interest Research Group.
                                 ______
                                 
       Physicians for Social Responsibility, Oceana, World 
    Wildlife Fund, U.S. PIRG, Sierra Club, American Oceans 
     Campaign, Center for International Environmental Law, 
    Pesticide Action Network North America, Friends of the 
    Earth, League of Conservation Voters, National Audubon 
    Society, American Rivers, The Ocean Conservancy, Earth 
         Island Institute, Circumpolar Conservation Union, 
 Indigenous Environmental Network, Alaska Community Action 
on Toxics, Silicon Valley Toxics Coalition, Atlantic States 
    Legal Foundation Inc., Department of the Planet Earth, 
     Protect All Children's Environment, Cancer Action NY, 
   Commonweal, Greenwatch Inc., Pennsylvania Environmental 
   Network, Air, Montana Environmental Information Center, 
      Anacostia Watershed Society, Northwest Environmental 
   Advocates, Bluewater Network, Citizens for a Future New 
Hampshire, Michigan Environmental Council, Friends of Casco 
                                                       Bay,
                                                 February 14, 2002.
Judith E. Ayres, Assistant Administrator for International Affairs,
U.S. Environmental Protection Agency,
Washington, DC.
    Dear Ms. Ayres: Our environmental and public health organizations 
write to express our concern that the current Administration might fail 
to seek authority for EPA to fully implement the Stockholm Convention 
on Persistent Organic Pollutants (POPs). In our view, full 
implementation requires the ability to take domestic action not only 
against POPs named initially in the treaty, but also against POPs that 
may be added in the future.
    Signed by Administrator Whitman and representatives of nearly 100 
other countries last May, the Stockholm Convention targets a group of 
chemicals known to be detrimental to human health and to the 
environment. While the convention begins with an initial list of 12 
POPs, including PCBs, DDT, and dioxin, it is by no means limited to 
that list. Negotiators from all countries agreed that the treaty should 
be a dynamic instrument, and set up a Persistent Organic Pollutants 
Review Committee to recommend additional POPs for international action 
using a science-based screening and risk profile process. Additional 
chemicals identified as POPs and agreed by all Parties to the 
Convention will be added to the treaty by an amendment process, with 
the U.S. reserving the right to ``opt-in'' to each amendment via a 
separate, subsequent ratification process.
    During the treaty negotiations, the U.S. delegation acknowledged 
that changes to the Toxic Substances Control Act (TSCA) and the Federal 
Insecticide, Fungicide, and Rodenticide Act (FIFRA) would be necessary 
to enable EPA to ban the manufacture and export of the chemicals named 
in the treaty, and to regulate new chemicals identified as POPs 
pursuant to the agreed science-based process once the U.S. opts in. An 
interagency agreement was reached last summer on the legislative 
requirements for U.S. implementation, including provisions to grant EPA 
the ability to phaseout additional POPs beyond the dirty dozen. Since 
then, we have read with concern several press reports that indicate a 
reversal by the Office of Management and Budget of this important 
interagency decision.
    We are deeply concerned about the suggestion that the 
Administration is failing to follow through on its commitment to fully 
implement the POPs treaty. The ability, over time, to bring new POPs 
under the treaty's provisions is integral to its success. It is our 
strong view that the enabling legislation must provide authority to 
deal promptly and effectively with this important provision of the 
agreement.
    The announcement by President Bush of his intention to sign and 
ratify this important treaty last spring received unprecedented support 
both from our organizations and the chemical industry. The Stockholm 
Convention offers a rare example of consensus in the environmental 
policy arena, with support from the public interest community, the 
chemical industry, the President, and Members of Congress on both sides 
of the aisle. We hope that the Administration will keep its promise to 
protect the health and well being of the American people from POPs by 
pursuing ratification of this agreement as soon as possible, and in a 
manner that gives EPA the necessary authority to expeditiously carry 
out all aspects of the agreement.
    We look forward to your response and to a status report on the 
Administration's efforts. If we can be of assistance, please feel free 
to call Karen Perry at Physicians for Social Responsibility (202-667-
4260, x249).
            Sincerely,
                    Robert K. Musil, Ph.D., M.P.H., Executive Director 
                            and CEO, Physicians for Social 
                            Responsibility; Stephen E. Roady, 
                            President, Oceana; Carl Pope, Executive 
                            Director, Sierra Club; Glenn Wiser, Staff 
                            Attorney, Center for International 
                            Environmental Law; Brooks Yeager, Vice 
                            President for Global Threats, World 
                            Wildlife Fund; Gene Karpinski, Executive 
                            Director, U.S. Public Interest Research 
                            Group; Ted Morton, Policy Director, 
                            American Oceans Campaign; Kristin S. 
                            Schafer, Program Coordinator, Pesticide 
                            Action Network North America; Larry Bohlen, 
                            Director, Health and Environment Programs, 
                            Friends of the Earth; Lois J. Schiffer, Sr. 
                            Vice-President for Policy, National Audubon 
                            Society; Tim Eichenberg, Program Counsel, 
                            The Ocean Conservancy (formerly the 
                            America's Waters Center for Marine 
                            Conservation); Evelyn M. Hurwich, Executive 
                            Director, Circumpolar Conservation Union; 
                            Pamela K. Miller, Program Director, Alaska 
                            Community Action on Toxics; Samuel H. Sage, 
                            President, Atlantic States Legal 
                            Foundation, Inc.; E.M.T. O'Nan, Director, 
                            Protect All Children's Environment; Sharyle 
                            Patton, Co-Director, Sustainable Futures 
                            Project, Commonweal; Brian Laverty, 
                            President, Pennsylvania Environmental 
                            Network; Anne Hedges, Program Director, 
                            Montana Environmental Information Center; 
                            Nina Bell, J.D., Executive Director, 
                            Northwest Environmental Advocates; Carolyn 
                            Snyder, President, Citizens for a Future 
                            New Hampshire; Mary Minette, Legislative 
                            Director, League of Conservation Voters; S. 
                            Elizabeth Birnbaum, Director of Government 
                            Affairs, American Rivers; Gershon Cohen, 
                            Ph.D., Project Director, Campaign to 
                            Safeguard, America's Waters, Earth Island 
                            Institute; Tom Goldtooth, Director, 
                            Indigenous Environmental Network; Michael 
                            Stanley-Jones, Director, Sustainable Water 
                            Program, Silicon Valley Toxics Coalition; 
                            Erik Jansson, Executive Director, 
                            Department of the Planet Earth; Donald L. 
                            Hassig, Director, Cancer Action NY; Bill 
                            Smedley, Executive Director, GreenWatch 
                            Inc.; Vicki Smedley, CEO, AIR (Arrest the 
                            Incinerator Remediation); Robert E. Boone, 
                            President, Anacostia Watershed Society; 
                            Russell Long, Ph.D., Executive Director, 
                            Bluewater Network; James Clift, Policy 
                            Director, Michigan Environmental Council; 
                            Joseph E. Payne, Executive Director/
                            BayKeeper, Friends of Casco Bay.
                               __________
 Responses by Karen L. Perry to Additional Questions from Senator Smith
    Question 1. Are a large number of chemicals expected to be added to 
the POPs Convention?
    Response. No. While it is difficult for anyone to say exactly how 
many substances might eventually be added to the Convention, most 
experts agree that the list of probable additions is finite and 
relatively small. The Convention was created to deal with a limited set 
of chemicals that are highly persistent, very bioaccumulative, toxic, 
and truly global in nature. The specific numeric criteria--for 
bioaccumulation factor and half-life in water and soil, for example--
were carefully chosen by negotiators to ``capture'' only those 
substances that are very similar to the 12 initial POPs.
    We can predict some of the most likely candidates in this limited 
universe of substances. Four chemicals--chlordecone, hexabromobiphenyl, 
the pesticide lindane, and polyaromatic hydrocarbons--are listed in the 
LRTAP POPs Protocol but not in the Stockholm Convention, and these are 
likely candidates for addition. Five more chemicals are now being 
considered for addition to the LRTAP Protocol as well. In addition, 
various international bodies (such as the OECD Chemicals Programme and 
the UNEP/GEF Regionally Based Assessment of Persistent Toxic Substances 
Project) are evaluating perhaps a dozen or so other chemicals that may 
meet some or all of the criteria set out in the Stockholm Convention.

    Question 2. Regarding future POPs, is there a process that aligns 
the current standards under TSCA and FIFRA, including the due process 
given under these U.S. laws, with these international agreements?
    Response. TSCA and FIFRA set out similar processes for EPA 
evaluation of chemicals that pose a threat of harm to human health and 
the environment. Participation of regulated industry is built into both 
of these statutes, and in each (but particularly in TSCA), the 
threshold for determining that a substance poses and unacceptable risk 
is high. PSR believes that 5.2118 sets out a reasonable mechanism for 
aligning these determination processes--including multiple 
opportunities for industry and other interested stakeholders to 
comment--with the international POPs determination process set out in 
the Stockholm Convention. Other fomulations for aligning these 
processes may be possible, but these would need to be examined 
carefully to ensure that they would allow the United States to 
efficiently and effectively participate in the international selection 
and phaseout of additional POPs.

    Question 3. Does ratification of the POPs Convention require this 
implementing legislation to address the addition of new chemicals?
    Response. The addition of new chemicals is a cornerstone of the 
Stockholm Convention. As a Party to the Convention, the United States 
will be expected to participate fully in the Conference of the Parties, 
which will evaluate the recommendations of the Convention's POPs Review 
Committee and decide whether to list additional POPs. The United States 
will also be expected to determine expeditiously whether it will opt in 
or opt out of individual amendments adding POPs. Finally, the United 
States will be expected to move quickly to implement those amendments 
and obligations that apply to it. For these reasons, the United States 
must have legislation in place at the time that it becomes a Party to 
the Convention, to enable it to fulfill these expectations. As 
currently written, TSCA and FIFRA do not provide sufficient authority. 
Thus, it is up to Congress to provide the necessary authority in this 
implementing legislation.

                                 ______
                                 
Response by Karen L. Perry to Additional Question from Senator Jeffords

    Question 1. How much collaboration has occurred between the public 
interest community regarding POPs, and to what extent are your views 
concerning the adding mechanism shared by this constituency?
    Response. The public interest community both in the United States 
and internationally has taken an active interest in POPs since the very 
start of negotiations on the Stockholm Convention, and has been 
remarkably coordinated in its positions and activities. While of course 
in an official capacity I can speak only for my own organization, I 
will say that there is a whole network of organizations across the 
country that share an interest in domestic implementation of the 
Stockholm Convention. These include national and DC-based organizations 
like Physicians for Social Responsibility, the World Wildlife Fund, the 
U.S. Public Interest Research Groups, Oceana, the Sierra Club, 
Pesticide Action NetworkNorth America, and the Center for International 
Environmental Law. They also include a whole host of local and state-
based grassroots groups, such as
    <bullet> Alaska Community Action on Toxics
    <bullet> Indigenous Environmental Network
    <bullet> Cancer Action New York
    <bullet> Citizens for a Future New Hampshire
    <bullet> Montana Environmental Information Center
    <bullet> Pennsylvania Environmental Network
    <bullet> Great Lakes United
    These groups and many more joined PSR on a letter to EPA in 
February (which was attached to my original written testimony), 
expressing the shared view that domestic POPs legislation must include 
provisions to address future POPs. In short, it is my sense that the 
public interest community is united on this issue.

                               __________
         Statement of Jay J. Vroom, President, CropLife America

    Mr. Chairman and members of the committee, I am Jay Vroom, 
president of CropLife America. We commend Chairman Jeffords and the 
entire Committee on Environment and Public Works for providing 
leadership on this complex issue. I appreciate; the opportunity to 
testify before you this afternoon on the Persistent Organic Pollutants 
Implementation Act of 2002 (S. 2118) and the Bush administration's 
legislative proposal for implementing the Stockholm Convention on POPs 
and the Long-Range Transboundary Air Pollution (LRTAP) Protocol on 
POPs, as well as the Rotterdam Convention on the Prior Informed 
Consent: Procedure for Certain Hazardous Chemicals and Pesticides in 
International Trade (PIC).
    CropLife America supports the POPs and PIC international 
environmental agreements. The crop protection industry acknowledges its 
role and responsibility in protecting human health and the environment 
in the manufacture, distribution and use of pesticides. Our member 
companies are committed to the spirit and letter of these agreements, 
and we welcome the opportunity to make recommendations about their 
integration into U.S. law. We also recognize the importance of 
including a process in the legislation to address U.S. decisionmaking 
on pesticides proposed for future inclusion in the international POPs 
listing.
    CropLife America is the national trade association representing the 
developers, manufacturers, formulators and distributors of plant 
science solutions for agriculture and pest: management in the United 
States. Our member companies develop, produce, sell and distribute 
virtually all the crop protection and biotechnology products used by 
American farmers. Our mission is to foster the interests of the general 
public and CropLife member companies by promoting innovation and the 
environmentally sound discovery, manufacture, distribution and use of 
crop protection and production technologies for safe, high quality, 
affordable, abundant food, fiber and other crops.
    It may seem obvious, but our industry's products provide many 
benefits to people and the environment. Our products have an enormous 
impact on the availability of abundant and affordable food and fiber 
while also protecting people, animals, and our homes and businesses 
from disease-carrying pests. Pesticides control outbreaks of crop-
damaging fungus, insect infestation and weeds to enhance U.S. food and 
fiber production. Pesticides are also used to combat damaging and 
health-threatening pests and insects. Pesticides control and eliminate 
vector borne illness caused by rats, mosquitoes (West Nile virus and 
other encephalitis) and ticks (lyme disease), among others. They combat 
cockroaches and mold/mildew in housing, restrooms, cafeterias and 
elsewhere, reducing known allergens causing asthma and other disease. 
Other insects and plant pests, such as bees (which can cause 
anaphylactic reactions), poison ivy, fire ants and spiders, are 
controlled effectively by pesticides. We are reinforcing the benefits 
of our industry's products at every opportunity and recently held a 2-
day conference to foster better understanding of the enormous benefits 
of pesticides.
    We believe the United States has the strongest and most emulated 
pesticide regulatory system ire the world. Congress saw the need for a 
separate statute regulating pesticides in order to provide for 
extensive health and safety testing when it passed the Federal 
Insecticide, Fungicide and Rodenticide Act (FIFRA) in 1947. Through 
subsequent major revisions to FIFRA in 1972, 1975, 1978 and 1988, 
Congress has provided for an increasingly comprehensive pesticide 
regulatory system as the basis for EPA pesticide decisions.
    For example, under FIFRA's strict provisions the process of 
bringing pesticides to market by securing an EPA registration is 
complex and demanding, based on strong scientific principles and 
undertaken according to stringent government review and regulation. EPA 
requires up to 120 separate scientific safety tests to ensure that a 
product, when used properly, does not present health or environmental 
concerns. On average, only one in 20,000 chemicals makes it from the 
chemist's laboratory to the farmer's field. Pesticide development, 
testing and EPA approval takes 8 to 10 years and costs manufacturers 
$75 million to $100 million for each product.
    Given Congress' specific and recurrent decisions on pesticide law 
over the years, we believe FIFRA provides the necessary statutory 
framework to implement the conventions without adding pesticide 
provisions to the Toxic Substances Control Act.
    CropLife America supports the sovereign right of individual 
countries to decide which pesticides they will permit to be used 
domestically and allow to be brought into their country. Importantly, 
the POPs and PIC Conventions recognize this and include provisions 
providing for each nation's right to implement the agreements within 
their domestic regulatory framework. FIFRA, with its protective health 
and safety provisions, should be the basis for U.S., pesticide 
decisions under implementing legislation for POPs and PIC. 
Specifically, our industry urges that workable implementation 
legislation recognize the existing risk-benefit standards of FIFRA. The 
United States may become party to other international agreements, and 
POPs and PIC implementing legislation may serve as a precedent for the 
future. Health and environmental protections afforded by FIFRA's 
stringent scientific standards and U.S. law should be upheld when 
implementing such agreements.
    Our industry is concerned that under S. 2118 an international POPs 
listing would constitute a domestic, FIFRA finding of ``unreasonable 
adverse effect on the environment.'' This would trigger U.S. 
cancellation of a product without full risk assessment, benefits 
consideration or due process currently provided under FIFRA.
    EPA must play an active role in upholding the integrity of the 
listing criteria and procedures in the POPs and PIC international 
agreements. We urge that implementing legislation not enable other 
countries to use these agreements to adversely impact the, availability 
of U.S. registered pesticide: that meet FIFRA standard's used for 
agriculture, public health protection and other purposes. The 
agreements should not become vehicles to impose artificial barriers to 
trade, impose a competitive disadvantage on U.S. growers or adversely 
impact public health. 1Ne strongly support FIFRA as the basis for 
pesticide decisions by the U.S. Government since it provides rigorous 
protection for human health and the environment.

           LRTAP POPS PROTOCOL AND STOCKHOLM POPS CONVENTION

    CropLife America actively supported the inter-governmental 
negotiations that led to the U.S. signing of both the Convention on 
Long-Range Transboundary Air Pollution on Persistent Organic Pollutants 
and Stockholm POPs Convention. Our support of both agreements is based 
on established policies and procedures in the POPs agreements for:
    1. Identifying new POPs chemicals within a transparent, science-
based, risk/benefit assessment process. Final determination of the POPs 
status for a pesticide is based on a consideration of socio-economic 
benefits and risks.
    2. Recognizing the sovereignty of each Nation to undertake 
mitigation requirements for POPs or to ``opt-in'' or ``opt-out'' of the 
international POPs listing based on their domestic risk management 
conclusions.
    3. Contemplating the process for developing national regulatory 
programs for countries that do not have a regulatory framework in 
place, while recognizing the sovereignty of existing regulatory 
programs.
    Our industry believes that if a pesticide use is contemplated for 
international POPS listing, then any alternatives--if they exist--
synthetic pesticide or otherwise, should be subject to the same risk-
benefit analysis and process to ensure that appropriate alternatives 
exist.
    We agree with the findings of the Conventions regarding POPs 
pesticides, and recognize that beneficial uses still exist, for example 
in developing countries, as reflected in the specific exemptions in 
annexes of both agreements.
    Companies represented by CropLife International, our industry's 
global association, have been working with the United Nations. Food and 
Agriculture Organization on the safe collection and disposal of 
obsolete crop protection product stocks in Africa, Asia and Latin 
America. Through partnering and cost-share arrangements with donor 
agencies, governments and other stakeholders, this effort hats resulted 
in the disposal of over 3,000 tons of obsolete pesticide stocks, 
including 800 tons of POPs pesticides. In 2000 alone, 1200 tons of 
obsolete pesticides were incinerated in Brazil and approximately 180 
tons were successfully retrieved from Gambia, Madagascar, Pakistan and 
Uganda. Our commitment and work on such disposal projects will 
continue.

             ROTTERDAM CONVENTION ON PRIOR INFORMED CONSENT

    CropLife America supports the Rotterdam Convention on Prior 
Informed Consent. The PIC Convention is first and foremost an 
information exchange mechanism to assist decisionmaking in developing 
countries. It makes an important contribution to developing countries' 
ability to make informed judgments in their national interest. 
Furthermore, PIC affirms the right of each government to make 
regulatory decisions that take into account the benefits of product use 
to agriculture and the public good. We are pleased with the balanced 
distribution of obligations between importing and Exporting countries. 
The obligations in PIC are consistent with our industry's product 
stewardship efforts to ensure the safe use of our products.
    Our industry has actively supported the voluntary PIC procedure 
first established in the late 1980's as part of the FAO Code of 
Conduct, and we participated as a non-governmental organization in the 
intergovernmental negotiations that led to the current Convention. We 
look forward to continuing this tradition of cooperation. We do have 
several recommendations regarding proposed implementing legislation:
    1. In order to provide broad input into EPA decisionmaking, we urge 
the inclusion of legislative language that directs the Administration 
to consult with stakeholders and solicit broad stakeholder input. We 
recommend notice and comment rulemaking as well as an ongoing 
consultative process.
    2. There is no formal mechanism to challenge EPA judgments in 
applying PIC definitions and criteria to products for which the agency 
has issued a final regulatory action. We believe any implementation of 
PIC by the United States should include such a provision, governed 
under the auspices of FIFRA and the Administrative Procedures Act.
    3. Voluntary removal for purely commercial reasons should not by 
itself constitute a safety risk or reason for PIC listing. For Example, 
the U.S. market for a particular pesticide may be too small or even 
non-existent to justify registering the pesticide with EPA. We urge 
that this provision be explicitly noted in implementation legislation.

   OVERALL RECOMMENDATIONS FOR POPS AND PIC IMPLEMENTING LEGISLATION

    Our industry looks forward to the opportunity to fully support 
implementing legislation to accompany the POPs and P1C agreements. We 
are committed to work with this committee to ensure that these 
agreements are fully implemented, without unintended consequences, and 
offer the following recommendations:
General
    <bullet> We fully support enactment of POPs implementing 
legislation (S. 2118) consistent: with POPs and PIC international 
agreements. In our analysis, the proposed POPS legislation could result 
in U.S.-registered pesticides being removed from domestic use, which is 
not consistent with our understanding of what is called for in the 
Conventions. We would welcome the opportunity to work with the 
committee on clarification.

Safety Standards
    <bullet> We believe that if a pesticide does not meet FIFRA 
standards and is not eligible for EPA registration, then the U.S. 
should be authorized to support its inclusion on the international POPs 
and PIC lists. Health and environmental protections under FIFRA warrant 
that pesticides meeting FIFRA safety standards for registration in the 
U.S. should be ineligible for U.S. support for inclusion on the 
international POPs or PIC list.

EPA
    <bullet> We support EPA as the pre-eminent pesticide regulatory 
agency that recognizes the risks of pesticides and the beneficial role 
pesticides play in protecting human health and the environment and 
providing for a safe and abundant food supply. U.S. decisions on POPS 
and PIC; pesticides should be based on EPA expertise and regulatory 
responsibility, with input from other Federal agencies as appropriate.

                                SUMMARY

    Our industry is committed to the improvement and building of 
regulatory capacity, especially in the developing world. We have been 
active participants in the DECD and NAFTA international forums to 
harmonize pesticide registration processes for the past 10 years. Most 
recently our efforts have been focused on harmonization of U.S. and 
Canadian pesticide regulation.
    This hearing is the first to consider a very complex matter. We 
have been evaluating both legislative proposals and welcome the 
opportunity to participate in continuing deliberations. We support 
strong and workable implementing legislation for the Conventions. We 
understand that PIC legislation will be added and look forward to 
working with the committee in this effort.
    The crop protection industry is committed to a transparent, 
science-based process for implementing the Conventions and we believe 
that current statutory framework under FIFRA is ample, with appropriate 
adjustments, to successfully implement U.S. industry's obligations.
    Thank you again for the opportunity to share our views with the 
committee. We look forward to working with the Chairman and other 
Senators to ensure that POPs and PIIC are properly implemented to meet 
the global human health and environmental goals set forth in the three 
international agreements.

[GRAPHIC] [TIFF OMITTED] T3693.005

[GRAPHIC] [TIFF OMITTED] T3693.006

[GRAPHIC] [TIFF OMITTED] T3693.007

[GRAPHIC] [TIFF OMITTED] T3693.008

[GRAPHIC] [TIFF OMITTED] T3693.009

[GRAPHIC] [TIFF OMITTED] T3693.010

[GRAPHIC] [TIFF OMITTED] T3693.011

[GRAPHIC] [TIFF OMITTED] T3693.012

[GRAPHIC] [TIFF OMITTED] T3693.013

[GRAPHIC] [TIFF OMITTED] T3693.014

[GRAPHIC] [TIFF OMITTED] T3693.015

[GRAPHIC] [TIFF OMITTED] T3693.016

[GRAPHIC] [TIFF OMITTED] T3693.017

[GRAPHIC] [TIFF OMITTED] T3693.018

[GRAPHIC] [TIFF OMITTED] T3693.019

[GRAPHIC] [TIFF OMITTED] T3693.020

[GRAPHIC] [TIFF OMITTED] T3693.021

[GRAPHIC] [TIFF OMITTED] T3693.022

[GRAPHIC] [TIFF OMITTED] T3693.023

                   State of Alaska, Office of the Governor,
                                       Juneau, Alaska, May 7, 2002.
Hon. James M. Jeffords, Chairman,
Environment and Public Works Committee,

Hon. Robert C. Smith, Ranking Member,
Environment and Public Works Committee,

Hon. Barbara Boxer, Chairman,
Subcommittee Superfund, Waste Control and Risk Assessment,
Environment and Public Works Committee,
Washington, DC.
    Dear Senator Jeffords, Senator Smith, and Senator Boxer: The State 
of Alaska supports the U.S. Senate's advice and consent to ratification 
of the Stockholm Convention On Persistent Organic Pollutants (POPs) and 
the appropriate implementing legislation.
    This treaty is of the utmost importance to the health and well-
being of Alaskans. Although Alaska's environment is among the most 
pristine in the world, we are now discovering low levels of persistent 
organic pollutants such as pesticide Polychlorinated biphenyls (PCBs) 
and dioxins, in Alaska's Arctic. These chemicals are not produced in 
Alaska but are transported here by water and air currents from the 
developing world where they are still manufactured and used.
    The treaty has special significance to Alaska Natives who have 
voiced increasing concern about whether POPs pose a threat to their 
subsistence foods. As you know, these contaminants have a tendency to 
accumulate in the fatty tissues and organs that are an enormous part of 
the subsistence diet and cultural traditions of many Native peoples of 
the Arctic.
    I am very supportive of the approach to bundle the Stockholm 
Convention with the very important Convention on Long-Range 
Transboundary Air Pollution (LRTAP) and the Rotterdam Convention on the 
Prior Informed Consent Procedure (PIC). In addition, the State of 
Alaska supports provisions for including new additions to the POPs 
list. Without such a provision, the inclusion of a new chemical will 
entail a lengthy administrative and legislative process. The last 
process took over 4 years; I believe that the process to list new 
chemicals should be considerably quicker. I encourage this committee to 
recommend legislation that implements the Stockholm Convention and also 
includes a critical mechanism to address future harmful pesticides and 
chemicals not currently listed.
    As you know, the Bush administration chose not to include such 
provisions in its proposed legislation. It is my understanding that the 
administration felt these provisions were too complex and as 
Administrator Whitman stated, they might ``hold up'' the implementing 
legislation. I understand that the administration wants to pass this 
legislation in an expeditious manner. However, I believe the U.S. 
Senate can do better by reinserting language that will allow for 
chemicals not listed in the convention, and any that might be produced 
in the future, to be added administratively to the treaty. In this way, 
we can ensure the highest level of protection for not only the Arctic 
and the Native peoples dependent on its resources, but all the people 
of our planet.
    Thank you for your consideration of this very important matter. I 
ask that my comments be entered into the record of the May 9, 2002 
hearing on S. 2118.
            Sincerely,
                                              Tony Knowles,
                                                          Governor.
                               __________
                                                    OCEANA,
                                      Juneau, Alaska, May 10, 2002.
Senate Committee on Environment and Public Works,
Washington, DC.
    Dear Committee Members: Tiffany Prather, staff to the Senate 
Committee on Environment and Public Works contacted me regarding your 
hearing on Persistant Organic Pollutants and related legislation. I am 
submitting the attached document, ``Contaminants in Alaska'', 
pertaining to contaminants and Persistant Organic Pollutants in the 
Arctic.
    This document reflects the importance of this matter regarding the 
health of our great nation's oceans and watersheds in the Arctic. 
Further this illustrates the threat that Persistant Organic Pollutants 
have to Alaskans, in particularly and most immediately to the 
indigenous people of the Arctic region. Clearly, all Americans are at 
risk to known and future Persistant Organic Pollutants.
    The recent May 7th report of an orca, found dead on the Olympic 
Peninsula, is the same whale species found in Alaska waters. The high 
level of the Persistant Organic Pollutants found in the orca, by 
scientists of the National Marine Fisheries Service, is a red alert to 
the urgency of this matter.
    Please, allow me to enter this document into the record. I urge you 
to take action to protect us, our Arctic, and oceans from currently 
known Persistant Organic Pollutants, as well as, those yet to be 
identified and listed. Thank you for this opportunity and any future 
opportunities to meet with your committee on this very urgent matter.
            Sincerely,
                                                 Jim Ayers,
                                                          Director.
[GRAPHIC] [TIFF OMITTED] T3693.120

[GRAPHIC] [TIFF OMITTED] T3693.121

[GRAPHIC] [TIFF OMITTED] T3693.122

[GRAPHIC] [TIFF OMITTED] T3693.123

[GRAPHIC] [TIFF OMITTED] T3693.124

[GRAPHIC] [TIFF OMITTED] T3693.125

[GRAPHIC] [TIFF OMITTED] T3693.126

[GRAPHIC] [TIFF OMITTED] T3693.127

[GRAPHIC] [TIFF OMITTED] T3693.128

[GRAPHIC] [TIFF OMITTED] T3693.129

[GRAPHIC] [TIFF OMITTED] T3693.130

[GRAPHIC] [TIFF OMITTED] T3693.131

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T3693.037

[GRAPHIC] [TIFF OMITTED] T3693.038

[GRAPHIC] [TIFF OMITTED] T3693.039

[GRAPHIC] [TIFF OMITTED] T3693.040

[GRAPHIC] [TIFF OMITTED] T3693.041

[GRAPHIC] [TIFF OMITTED] T3693.042

[GRAPHIC] [TIFF OMITTED] T3693.043

[GRAPHIC] [TIFF OMITTED] T3693.044

[GRAPHIC] [TIFF OMITTED] T3693.045

[GRAPHIC] [TIFF OMITTED] T3693.046

[GRAPHIC] [TIFF OMITTED] T3693.047

[GRAPHIC] [TIFF OMITTED] T3693.048

[GRAPHIC] [TIFF OMITTED] T3693.049

[GRAPHIC] [TIFF OMITTED] T3693.050

[GRAPHIC] [TIFF OMITTED] T3693.051

[GRAPHIC] [TIFF OMITTED] T3693.052

[GRAPHIC] [TIFF OMITTED] T3693.053

[GRAPHIC] [TIFF OMITTED] T3693.054

[GRAPHIC] [TIFF OMITTED] T3693.055

[GRAPHIC] [TIFF OMITTED] T3693.056

[GRAPHIC] [TIFF OMITTED] T3693.057

[GRAPHIC] [TIFF OMITTED] T3693.058

[GRAPHIC] [TIFF OMITTED] T3693.059

[GRAPHIC] [TIFF OMITTED] T3693.060

[GRAPHIC] [TIFF OMITTED] T3693.061

[GRAPHIC] [TIFF OMITTED] T3693.062

[GRAPHIC] [TIFF OMITTED] T3693.063

[GRAPHIC] [TIFF OMITTED] T3693.064

[GRAPHIC] [TIFF OMITTED] T3693.065

[GRAPHIC] [TIFF OMITTED] T3693.066

[GRAPHIC] [TIFF OMITTED] T3693.067

[GRAPHIC] [TIFF OMITTED] T3693.068

[GRAPHIC] [TIFF OMITTED] T3693.069

[GRAPHIC] [TIFF OMITTED] T3693.070

[GRAPHIC] [TIFF OMITTED] T3693.071

[GRAPHIC] [TIFF OMITTED] T3693.072

[GRAPHIC] [TIFF OMITTED] T3693.073

[GRAPHIC] [TIFF OMITTED] T3693.074

[GRAPHIC] [TIFF OMITTED] T3693.075

[GRAPHIC] [TIFF OMITTED] T3693.076

[GRAPHIC] [TIFF OMITTED] T3693.077

[GRAPHIC] [TIFF OMITTED] T3693.078

[GRAPHIC] [TIFF OMITTED] T3693.079

[GRAPHIC] [TIFF OMITTED] T3693.080

[GRAPHIC] [TIFF OMITTED] T3693.081

[GRAPHIC] [TIFF OMITTED] T3693.082

[GRAPHIC] [TIFF OMITTED] T3693.083

[GRAPHIC] [TIFF OMITTED] T3693.084

[GRAPHIC] [TIFF OMITTED] T3693.085

[GRAPHIC] [TIFF OMITTED] T3693.086

[GRAPHIC] [TIFF OMITTED] T3693.087

[GRAPHIC] [TIFF OMITTED] T3693.088

[GRAPHIC] [TIFF OMITTED] T3693.089

[GRAPHIC] [TIFF OMITTED] T3693.090

[GRAPHIC] [TIFF OMITTED] T3693.091

[GRAPHIC] [TIFF OMITTED] T3693.092

[GRAPHIC] [TIFF OMITTED] T3693.093

[GRAPHIC] [TIFF OMITTED] T3693.094

[GRAPHIC] [TIFF OMITTED] T3693.095

[GRAPHIC] [TIFF OMITTED] T3693.096

[GRAPHIC] [TIFF OMITTED] T3693.097

[GRAPHIC] [TIFF OMITTED] T3693.098

[GRAPHIC] [TIFF OMITTED] T3693.099

[GRAPHIC] [TIFF OMITTED] T3693.100

[GRAPHIC] [TIFF OMITTED] T3693.101

[GRAPHIC] [TIFF OMITTED] T3693.102

[GRAPHIC] [TIFF OMITTED] T3693.103

[GRAPHIC] [TIFF OMITTED] T3693.104

[GRAPHIC] [TIFF OMITTED] T3693.105

[GRAPHIC] [TIFF OMITTED] T3693.106

[GRAPHIC] [TIFF OMITTED] T3693.107

[GRAPHIC] [TIFF OMITTED] T3693.108

[GRAPHIC] [TIFF OMITTED] T3693.109

[GRAPHIC] [TIFF OMITTED] T3693.110

[GRAPHIC] [TIFF OMITTED] T3693.111

[GRAPHIC] [TIFF OMITTED] T3693.112

[GRAPHIC] [TIFF OMITTED] T3693.113

[GRAPHIC] [TIFF OMITTED] T3693.114

[GRAPHIC] [TIFF OMITTED] T3693.115

[GRAPHIC] [TIFF OMITTED] T3693.116

[GRAPHIC] [TIFF OMITTED] T3693.117

[GRAPHIC] [TIFF OMITTED] T3693.118

[GRAPHIC] [TIFF OMITTED] T3693.119

  


</pre></body></html>
